<html>
<title> - LABOR, HEALTH, AND EDUCATION ISSUES IN THE STATE OF HAWAII</title>
<body><pre>[Senate Hearing 108-392]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-392

       LABOR, HEALTH, AND EDUCATION ISSUES IN THE STATE OF HAWAII

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                    FEBRUARY 18, 2004--HONOLULU, HI

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                               __________

92-451              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
RICHARD C. SHELBY, Alabama           MARY L. LANDRIEU, Louisiana
                                     ROBERT C. BYRD, West Virginia (Ex 
                                         officio)
                           Professional Staff
                            Bettilou Taylor
                              Jim Sourwine
                              Mark Laisch
                         Sudip Shrikant Parikh
                             Candice Rogers
                        Ellen Murray (Minority)
                         Erik Fatemi (Minority)
                      Adrienne Hallett (Minority)

                         Administrative Support
                             Carole Geagley


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Daniel K. Inouye....................     1
    Prepared statement...........................................     2
Opening statement of Senator Daniel K. Akaka.....................     3
Statement of Dr. Evan S. Dobelle, president, University of Hawaii     5
    Prepared statement...........................................     8
Statement of Dr. Carl Vogel, director, Cancer Research Center of 
  Hawaii.........................................................    10
    Prepared statement...........................................    13
Statement of Ms. Dew-Anne Langcoan, vice president, Hawaii 
  Pacific
  Health.........................................................    22
    Prepared statement...........................................    23
Statement of Dr. Okamoto, president and CEO, the Queen's Health 
  Systems........................................................    25
Statement of Dr. Jonathan K. Cho, a practicing community 
  oncologist.....................................................    26
    Prepared statement...........................................    28
Statement of Hon. Ed Case, U.S. Representative from Hawaii.......    32
    Prepared statement...........................................    36
Statement of Patricia Hamamoto, superintendent, State of Hawaii 
  Department of Education........................................    41
    Prepared statement...........................................    43
Statement of Bruce A. Coppa, Chair, Hawaii 3R's Program..........    43
    Prepared statement...........................................    45
Statement of Dennis Manalili, principal, Kaimuki High School.....    45
    Prepared statement...........................................    47
Statement of Neil Abercrombie, U.S. Representative from Hawaii...    48
    Prepared statement...........................................    51
Statement of Linda Lingle, Governor, State of Hawaii.............    54
    Prepared statement...........................................    57
Statement of Donna Kim, vice president, Hawaii State Senate......    60
Statement of Sylvia J. Luke, vice speaker, Hawaii State House of 
  Representatives................................................    61
    Prepared statement...........................................    63
Statement of Dr. Clyde M. Sakamoto, chancellor, Maui Community 
  College........................................................    64
    Prepared statement...........................................    66
Statement of Ramsey R. Pedersen, chancellor, Honolulu Community 
  College........................................................    81
    Prepared statement...........................................    83
Statement of Lance Inouye, past president, General Contractors 
  Association of Hawaii..........................................    85
Statement of Randy Lau, past president, Building Industry 
  Association....................................................    88
Statement of Ron Taketa, United Brotherhood of Carpenters and 
  Joiners, Local 745.............................................    89
    Prepared statement...........................................    91
Statement of Lynn Kinney, Painters, Decorators, Paperhangers and 
  Allied Traders, Local 1791.....................................    93
    Prepared statement...........................................    94
Prepared statement of Glaziers Architectural and Glass Metal 
  Workers Local 1889, AFL-CIO....................................    97
Prepared statement of the Hawaii Building and Construction Trades
  Council........................................................    97
Prepared statement of the Laborers' Union, Local 368.............    98
Prepared statement of the Hawaii Operating Engineers J.A.C.......    99
Prepared statement of the International Association of Heat & 
  Frost Insulators & Asbestos Workers Local 132, Hawaii..........   100
Prepared statement of the Bricklayers & Ceramic Tile Setters 
  Local 1 and Plasterers' & Cement Masons' Local 630.............   101
Prepared statement of the International Brotherhood of Electrical 
  Workers, Local 1186, Hawaii....................................   102
Prepared statement of the Boilermakers, Iron Shipbuilders Union, 
  Local
  204............................................................   103
Prepared statement of the Roofers, Waterproofers & Allied Workers 
  United Union of Roofers, Local 221.............................   103
Prepared statement of the United Association of Plumbers and 
  Fitters Local 675..............................................   104
Prepared statement of Scott Y. Nishimoto, State of Hawaii 
  Representative, District 21....................................   105
Prepared statement of the Pacific Resource Partnership...........   105
Prepared statement of Americas Promise Hawaii....................   105
Prepared statement of the Joint Venture Education Forum..........   106
Prepared statement of the Drywall Tapers and Finishers Local 
  1944, AFL-CIO..................................................   106
Prepared statement of the Carpet Linoleum and Soft Tile Local 
  1926, AFL-CIO..................................................   107
Prepared statement of CRTC, Inc..................................   108
Prepared statement of Iron Workers Local 625 and Iron Workers 
  Shopmen Local 803..............................................   109
Prepared statement of the John A. Burns School of Medicine, 
  University of Hawaii...........................................   109
Prepared statement of the Universitiy of Hawai'i at Manoa........   110
Letter from Joseph Kane, Jr......................................   110
Prepared statement of Sheet Metal Workers Union Local 293........   111

 
       LABOR, HEALTH, AND EDUCATION ISSUES IN THE STATE OF HAWAII

                              ----------                              


                      WEDNESDAY, FEBRUARY 18, 2004

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                      Honolulu, HI.
    The subcommittee met at 9 a.m., at Kaimuki High School, 
Library, 2nd floor, 2705 Kaimuki Avenue, Honolulu, Hawaii, Hon. 
Daniel K. Inouye presiding.
    Present: Senator Inouye.
    Also present: Senator Akaka.


             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE


    Senator Inouye. By authority of the Labor, Health and Human 
Services, and the Education Appropriation Subcommittee, the 
Honorable Arlen Specter of Pennsylvania, I have the high honor 
of chairing this morning's meeting. I'm pleased and proud to 
have with me my colleague Senator Dan Akaka.
    The purpose of this hearing is to gather information and to 
hear from you on three issues: The first, the expansion of the 
Cancer Research Center in Hawaii. Second, the recently granted 
legislative authority for Hawaii 3R's to utilize monies in the 
Native Hawaiian Education funds to repair those public schools 
to 25 percent or more Native Hawaiian children. And third, the 
need to expand certified apprenticeship and journeymen training 
programs to ensure that we have qualified, homegrown tradesmen 
and women to meet the demand that will come as a result of the 
privatization of military housing. So we do have a very 
ambitious schedule today.
    In April 2002, I joined the University of Hawaii president 
Evan Dobelle and Dr. Carl Vogel for a tour and briefing of the 
Cancer Research Center of Hawaii. At that time, because of my 
impression, I committed myself to supporting the growth of the 
only National Cancer Institute-designated cancer center in the 
Pacific region.
    Hawaii's Cancer Research Center has an outstanding research 
track record that is multi-ethnic, multi-generational, and 
multi-national, and I'm looking forward to hearing from the 
witnesses about the national contributions to be made with the 
expansion of facilities and programs.
    Many of you may be asking: What are we doing holding this 
meeting in a library at Kaimuki High School? We could have 
gotten a bigger auditorium or something like that. It is very 
simple. This high school is one of the 59 public schools that 
has received Hawaii 3R's grant, and with it they painted the 
school cafeteria, the ROTC building, and the music room.
    3R's is not a big program. In fact, it's a little 
initiative that I got involved in about 4 years ago to address 
some of the smaller repair and maintenance backlog in the 
public school system. Instead of just sitting by and wringing 
our hands and doing nothing, we decided that something should 
be done.
    Grants are given out to these schools that are able to 
provide at least a 1 to 1 match in sweat equity and donations, 
and in so doing, build community support and pride in the 
school system. The new legislative authority to expand and 
spend Native Hawaii education funds will permit this program to 
reach out to many more schools. And I look forward to hearing 
from you about the plans you have.
    Last, we need to build up a certified apprenticeship and 
journeymen training program to meet the demand for skilled 
tradesmen and women, as Hawaii's construction industry is 
awakened by the surge of military construction and the 
privatization of family housing. Some have suggested an 
increase of 10,000 to 15,000 new jobs in the next 5 to 7 years. 
And 3,100 new construction jobs this year alone.

                           PREPARED STATEMENT

    Whether it is technology or teaching or construction, it 
always makes more sense to grow our own, to train our own, 
rather than import workers. This is especially true in Hawaii 
where we do not have interstate highways to connect us to other 
States. Therefore, I'm very interested in supporting programs 
that are State-certified with proven track records to ensure 
that we are turning out the best and to partnering with our 
community colleges, our unions, and contractor associations in 
a matching program that will increase the number of classes and 
instructors which, in turn, will increase the number of 
qualified apprentices and journeymen to capture the jobs. 
Therefore, I look forward to receiving, from this panel, the 
host of recommendations and ideas to take advantage of this 
economic opportunity.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    I have the high honor of chairing this morning's field hearing on 
behalf of Senator Arlen Specter, Chairman of the Labor, Health and 
Human Services, and Education Appropriations Subcommittee. I am joined 
by my fellow Senator from Hawaii, Senator Dan Akaka.
    The purpose of this hearing is to gather information, and to hear 
from you on three issues. First, the expansion of the Cancer Research 
Center of Hawaii. Second, the recently granted legislative authority 
for Hawaii 3R's to utilize $1 million in Native Hawaiian Education 
funds to repair those public schools with 25 percent or more Native 
Hawaiian children. And third, the need to expand certified 
apprenticeship and journeymen training programs to ensure that we have 
qualified, homegrown tradesmen and women to meet the demand that will 
come as a result of the privatization of military housing.
    In April of 2002, I joined University of Hawaii President Evan 
Dobelle and Dr. Carl Vogel for a tour and briefing of the Cancer 
Research Center of Hawaii. At that time, I committed myself to 
supporting the growth of the only National Cancer Institute-designated 
cancer center in the Pacific region. Hawaii's Cancer Research Center 
has an outstanding research track record that is multi-ethnic, multi- 
generational, and multi-national. I am looking forward to hearing from 
the witnesses about the national contributions to be made with an 
expansion of facilities and programs.
    Many of you may be asking what we are doing holding a hearing in 
the library of Kaimuki High School. Very simple. Kaimuki High School is 
one of the 59 schools that has received a Hawaii 3R's grant, and with 
it, they painted the school cafeteria, the ROTC building and the music 
room. 3R's is not a big program. In fact, it is a little initiative I 
got involved in about four years ago to address some of the smaller 
repair and maintenance backlog in the public schools. Grants are given 
out to those schools that are able to provide at least a 1:1 match in 
sweat equity and donations of supplies and expertise, and in doing so, 
build community support and pride in the schools. The new legislative 
authority to expend Native Hawaiian education funds will allow 3R's to 
reach out to more schools. I look forward to hearing from you about 
your good work and plans for the future.
    Lastly, we need to build up the certified apprenticeship and 
journeymen training programs to meet the demand for skilled tradesmen 
and women as Hawaii's construction industry is awakened by a surge of 
military construction and the privatization of family housing. Some 
have suggested an increase of 10,000 to 15,000 new jobs in the next 
five to seven years. And 3,100 new construction jobs this year alone.
    Whether it is technology or teaching or construction, it always 
makes more sense to grow our own, to train our own, rather than to 
import workers. This is especially true in Hawaii where we do not have 
interstate highways to connect us to other states. Hence, I am very 
interested in supporting programs that are state-certified with proven 
track records to ensure that we are turning out the best; and to 
partnering with our community colleges, our unions and contractor 
associations in a matching program that will increase the number of 
classes and instructors which will, in turn, increase the number of 
qualified apprentices and journeymen to capture the jobs. I look 
forward to receiving from this panel a host of recommendations and 
ideas to take advantage of this economic opportunity.

              OPENING STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Inouye. Before I call upon the first witness, I'm 
pleased and proud to call upon my colleague Senator Akaka.
    Senator Akaka. Thank you very much to my colleague Senator 
Inouye. I want to say Aloha to all of you here.
    The Audience. Aloha.
    Senator Akaka. I wish to thank Chairman Inouye for inviting 
me to participate in this hearing that is very, very important 
to all of us in Hawaii. We're here to discuss the expansion of 
the Cancer Center in Hawaii, the need to increase training and 
certification of tradesmen and women to meet the growing demand 
of military housing and the need to repair our public schools. 
We can go on and on about our needs.
    But I want to take this time to say Aloha and thank you to 
Evan Dobelle, also Governor Lingle, Representatives Abercrombie 
and Case, Senator Kim, speaking on behalf of Senator Bunda, and 
Representative Luke, speaking on behalf of Speaker Say, and to 
all of you in education and labor here, distinguished people, I 
want to say mahalo nui for being here.
    Mr. Chairman, I really appreciate your leadership and your 
work to increase resources for research and improve access to 
vital health care services. There has been tremendous progress 
through research in developing more effective treatments of 
cancers and in increasing access to health care services.
    According to the ``Hawaii: Cancer Facts and Figures 2003 
and 2004'' report, age-adjusted cancer mortality rates in 
Hawaii and in the United States have continued to decline over 
the last decade. Although these rates have declined, cancer 
remains one of the leading causes of death in Hawaii, claiming 
the lives of approximately 1,700 residents annually. In 
addition, cancer disproportionately impacts certain individuals 
within our communities, especially among Native Hawaiians who 
have significantly higher cancer mortality rates.
    Much more needs to be done to increase survival rates of 
cancer through better treatments and technology, improving 
access to screening and health care, and the promotion of 
healthier lifestyles. In order to be successful, health care 
services and outreach efforts must be linguistically and 
culturally appropriate. Addressing America's diversity and the 
challenges it poses to health care continues to be a major 
problem. We, in Hawaii, are in a more unique situation given 
our multi-cultural composition. We must be vigilant in ensuring 
that Hawaii's multi-cultural population and their unique and 
often divergent health care needs are met.
    The Cancer Research Center of Hawaii's stated mission to 
reduce the burden of cancer through research, education and 
service, with an emphasis on the unique ethnic, cultural and 
environmental characteristics of Hawaii in the Pacific, is 
extremely important. Through the Center's work, it will help 
reduce the health disparities found among our diverse 
population and help others learn from our research and our 
experiences. I look forward to continuing to support research 
efforts so that the amount of suffering caused by cancer can be 
reduced and more people are able to survive their battles with 
cancer.
    Another area that we will be touching upon in the hearing, 
and I thank the chairman for addressing this matter, is the 
growing demand on Hawaii's workforce, especially in the 
construction industry. And we're looking at what we call a 
double whammy.
    Last month, at the request of Representative Abercrombie, 
the Hawaii Institute of Pacific Affairs, Central Pacific Bank, 
and Pacific Resource Partnership organized the first Hawaii 
Jobs Summit. The summit brought together representatives from 
the building industry, trade unions, the Department of 
Education, the University of Hawaii, economists, business 
leaders, and contractors to discuss the future demands on 
Hawaii's labor workforce. This was an important first step, and 
I thank Representative Abercrombie for his leadership in this 
effort to shed light on Hawaii's need to address this labor 
shortage.
    As the industry experts have indicated, the growing demand 
on Hawaii's construction workforce, which is expected to 
increase by 70 percent over the next 10 years, provides an 
excellent opportunity for Hawaii's youth and unemployed workers 
to find gainful employment. However, there is much that still 
needs to be done in order to ensure that we do not fall short 
of meeting this demand. And this is what I mean by the double 
whammy, the retirement of our workforce in the next 7 years and 
also the need for new construction labor here.
    As we address the emerging short-term and potential long-
term labor shortage facing Hawaii, we need the private sector, 
the trade industry, the Federal, State, and local governments 
to invest in training and certifying all who wish to work in 
the industry. We must utilize the existing job training 
programs such as Job Corps, internships, and apprentice 
programs to fill some of the vacancies. But, in addition, we 
also need to expand these programs and work with the 
stakeholders to create new and innovative ways to meet the 
long-term labor needs.
    Mr. Chairman, regarding schools, I appreciate your efforts 
to remedy problems in our islands with regard to school 
construction. I recall my experiences as a classroom teacher 
and principal, and I remember problems with termites, leaky 
roofs, and peeling paint. I can picture nodding heads and 
wandering eyes that showed me that a child was not paying 
attention, and it was a problem that had to do with the 
physical environment he or she was in, and not the material 
they were supposed to learn.
    Of course these problems continue to plague us today and 
serve as even more of a challenge, now that more teachers are 
incorporating the computer and other new technologies into 
their instruction, and this expensive equipment needs a 
protected environment if it is to operate well and last long.
    When I visited schools in Ewa Beach last year, I especially 
recall a meeting with the student government and JPOs at 
Pohakea Elementary School, including an astute young man who 
was the school president. He brought to my attention the fact 
that students desired assistance with their facilities, 
primarily air conditioning. At that and other schools, I also 
saw the need for room renovations to better configure a 
classroom to serve special education kids, repaint aging 
buildings, and fix concrete walkways. Clearly, we know the 
things that we can implement that have the potential to 
increase 10-fold our keiki's ability to learn during the school 
day.
    However, I understand there are budget limitations that 
hinder the Department of Education from addressing many of 
these backlogs in infrastructure improvement in a timely 
fashion, and we are missing learning opportunities every day as 
kids get older and move up and out of the public education 
system. This is why the 3R's method to address the $640 million 
school construction problem is so compelling.
    Mr. Chairman, I'm glad to be here with you. Thank you for 
including me, and I thank you again for holding this hearing. I 
believe that the topics that we will be discussing today are 
very important to the health and well being of Hawaii's 
communities and look forward to hearing our distinguished 
witnesses. Thank you.
    Senator Inouye. I thank you very much, Senator Akaka.

STATEMENT OF DR. EVAN S. DOBELLE, PRESIDENT, UNIVERSITY 
            OF HAWAII

    Senator Inouye. May I now call upon our first panel, the 
president of the University of Hawaii, Dr. Evan Dobelle, and 
the director of the Cancer Research Center of Hawaii, Dr. Carl 
Vogel.
    Welcome, Dr. Dobelle. And welcome, Dr. Vogel. Please 
proceed.
    Dr. Dobelle. Good morning, Senator Inouye, Senator Akaka, 
distinguished members of the committee and, through them, your 
distinguished colleague, chairman of the committee, the senior 
Senator from Pennsylvania, Senator Specter.
    My name is Evan Dobelle and I have the privilege of serving 
as president of the University of Hawaii, a 10-campus public 
university system that serves 80,000 students with an annual 
expenditure budget of nearly $1 billion.
    I'm here this morning with my colleague to provide 
testimony on the construction of the University's new Cancer 
Research Center, a state-of-the-art facility that will have a 
profound impact on this country's ability to fight this deadly 
disease. The building of the new center should be of primary 
interest to the Nation because Hawaii provides a unique 
environment in which to conduct cutting edge research that will 
dramatically aid the fight in developing a cure to cancer.
    Let me start by putting this topic into a broader context. 
Every year over 1 million people in the United States are 
diagnosed with cancer. Last year alone the costs associated 
with fighting cancer in the United States was approximately 
$190 billion. This is a tremendous economic burden on our 
country as a whole and the individual citizens and their 
families who battle this horrible disease. One of the 
challenges this Nation faces is how to effectively develop 
proper treatment and care for those who live with cancer, and 
more importantly, how we can best find a cure.
    Statistics show cancer is the second leading cause of death 
in the State of Hawaii as well as our Nation, and it is the 
number one killer among Asian Americans and Pacific Islanders. 
There are 12.5 million Asian Americans currently living in the 
United States making them one of the largest ethnic groups in 
the country and the fastest growing minority.
    Why is it important that we consider race and ethnicity in 
our testimony this morning? The reason is differences exist in 
the incidence of cancer by race and ethnicity, but yet our 
country's approach to investigating cancer thus far has been 
insensitive to that fact. The reality is research can only be 
enhanced when race and ethnicity are taken into account, and it 
will help our government better formulate national health 
strategies relevant to the entire population of our country.
    Hawaii is home to the most ethnically diverse population in 
the United States. It provides an ideal environment in which to 
investigate the causes and study the reasons behind this 
insidious disease. Examining a variety of racial and ethnic 
groups in a community such as in Hawaii, where there is not a 
dominant ethnicity, will assist researchers in learning how 
genes, diet, environmental factors, culture and behavior affect 
cancer. This opportunity can only be found in Hawaii because 
the diversity that exists here cannot be replicated anywhere 
else in the world.
    The cancer experience among ethnic and racial groups varies 
widely across the world as well as here in the United States. 
The differences between groups may be related to a variety of 
factors, including biology, heredity, environmental factors and 
behavior. It is critical to identify clues to cancer causation 
as well as ways of detecting these cancers early. Again, the 
ability to identify them and treat them and ultimately prevent 
them. It also helps take into account differences in 
socioeconomic status, education, and access to health care 
affecting cancer diagnosis and treatment throughout the world.
    It is also important to recognize that our State has the 
largest proportion of ethnically mixed individuals in the 
country. More than 50 percent of all marriages in Hawaii are 
considered ethnically or racially mixed. This makes Hawaii a 
vanguard of the U.S. population of tomorrow, thus understanding 
the health disparities that exist in Hawaii today is of 
critical importance to the rest of the Nation and the world.
    In addition to all of these unique cultural aspects, Hawaii 
is also home to the U.S. Pacific Command, a unified command of 
all branches of the military in the Asia Pacific region. The 
Command oversees more than 300,000 military men and women, 
which represents 20 percent of all active duty personnel. With 
many of these soldiers deployed into remote foreign locales, 
they often face unknown health risks that contribute to a 
variety of illnesses, including cancer. Given that, it is 
critical to the health of our men and women in uniform in the 
Pacific that they have access to world class care for all 
diseases, and our new facility can provide that to our 
military.
    The Cancer Research Center of Hawaii has been the only 
National Cancer Institute-designated cancer center in the 
Pacific region for more than 25 years. It is strategically 
located to identify the lifestyle and genetic factors that 
contribute to cancer risk, to evaluate safe cancer therapies 
for ethnic group patients, and to design prevention programs 
that are culturally and socially appropriate. The Cancer 
Research Center has a long history of community faculty members 
who have dedicated careers to studying the striking variations 
in cancer incidence and survival among the varying ethnic 
populations in Hawaii. This year alone cancer research faculty 
generated over $30 million in extramural research funds that 
validate the importance of continued research of cancer 
patterns among ethnic populations.
    Although the Cancer Research Center of Hawaii excels as a 
research unit conducting basic scientific research, population 
studies, education and community outreach to identify and 
communicate the causes and cures for cancer, it does not 
currently perform patient diagnosis and treatment. 
Incorporating direct patient care and putting research into 
practice will significantly enhance both innovation and 
research advancements. The location and diversity of the Cancer 
Center offers our country an unprecedented opportunity to move 
beyond simply researching the disease and into clinical cancer 
care as it relates to ethnic populations in all people. With 
the addition of a clinical component, the Cancer Center 
achieves the designation of a comprehensive center by the NCI.
    CRCH has excelled in studying the development of cancer but 
the time is here to accelerate the benefits of our research and 
put them into practice with an extraordinary physical 
structure. A new and expanded Cancer Center facility will allow 
for offering clinical trials with new drugs accelerating the 
pace of new discoveries, thus leading to ever higher survival 
rates for cancer victims. Physically combined into our 
biotechnology complex in the Honolulu neighborhood of Kaka'ako 
with our John A. Burns School of Medicine and private industry, 
Hawaii can truly develop a powerful and sustaining biotech 
industry, which only helps diversify our State's economy. And 
it all fits in with the dominant recommendation from the 
Governor's Blue Ribbon Panel that calls for the establishment 
of a state-of-the-art multi-disciplinarian outpatient cancer 
care facility run by the University of Hawaii Cancer Research 
Center in close cooperation with existing health care 
facilities.
    We have the knowledge that must now be translated into 
practice through clinical application, it thus provides 
valuable and currently unavailable information for the Nation 
on cancer in minority populations. The State of Hawaii offers 
the only opportunity to successfully accomplish this in our 
country.
    Why should the Congress support such a project in the 
middle of the Pacific? Simply put: It is in the Nation's best 
interest to do so. The benefits of cancer research in Hawaii 
are limitless. We can only continue to progress and truly 
benefit society if we translate that science into practice by 
conducting cancer research as it directly relates to patients' 
disease. A new state-of-the-art facility located in Honolulu 
offers cancer researchers across the world that opportunity. 
This is not a project that just has impact on a local 
population; rather the research and care that happens here will 
have dramatic ripple effects throughout the entire global 
medical community. We already have strong partnerships with 
universities in Japan and in Guam as well as mainland 
collaborations with the National Institutes of Health, the 
University of California System, and Vanderbilt University.
    This program is particularly significant in an age where 
large numbers of our military will be fighting a global war on 
terrorism for many years to come. As we continue to send the 
young men and women off to protect democratic values in very 
different cultures that expose them to potentially complicated 
health environments, we are obligated to provide them with 
cutting edge health related research and progressive public 
health policies that will properly ensure they will be cared 
for.
    With lessons that we are still learning from Agent Orange 
in Vietnam and from the Gulf War Syndrome, we must take what 
history has shown us from modern day combat and ensure that our 
troops be protected by dedicating significant resources in our 
national health care infrastructure. A major investment in the 
Cancer Research Center of Hawaii would be an extraordinary step 
in that direction.

                           PREPARED STATEMENT

    We thank you, Senators, for your time this morning and for 
your consideration of this important facility. Simply put, a 
strong Cancer Research Center of Hawaii means that essential 
clues in this collaborative effort to fight cancer will be 
unlocked and it will help in controlling cancer in all 
Americans. And we thank you for your time.
    [The statement follows:]

                 Prepared Statement of Evan S. Dobelle

    Good morning Senator Inouye, Senator Akaka, and distinguished 
members of this committee. My name is Evan Dobelle and I have the 
privilege of serving as President of the University of Hawai'i, a ten-
campus public university system that serves 80,000 students and has an 
annual expenditure budget of nearly $1 billion.
    I am here this morning to provide testimony on the construction of 
the University's new Cancer Research Center, a state of the art 
facility that will have a profound impact on this country's ability to 
fight this deadly disease. The building of this new center should be of 
primary interest to the nation because Hawai'i provides a unique 
environment in which to conduct cutting edge research that will 
dramatically aid the fight in developing a cure to cancer.
    Let me start by putting this topic into a broader context. Every 
year over 1 million people in the United States are diagnosed with 
cancer. Last year alone the costs associated with fighting cancer in 
the United States were approximately $190 billion. This is a tremendous 
economic burden on our country as a whole and the individual citizens 
and their families who battle this horrible disease. One of the 
challenges this nation faces is how to effectively develop proper 
treatment care for those who live with cancer, and more importantly, 
how we can best find a cure.
    Statistics show cancer is the second leading cause of death in the 
state of Hawai'i as well as our nation, and it is the number 1 killer 
among Asian Americans and Pacific Islanders. There are over 12.5 
million Asian Americans currently living in the United States making 
them one of the largest ethnic groups in the country and the fastest 
growing minority.
    Why is it important that we consider race and ethnicity in our 
testimony this morning? The reason is differences exist in the 
incidence of cancer by race and ethnicity, but yet our country's 
approach to investigating cancer thus far has been insensitive to that 
fact. The reality is research can only be enhanced when race and 
ethnicity are taken into account, and it will help our government 
better formulate national health strategies relevant to the entire 
population of our country.
    Hawai'i being home to the most ethnically diverse population in the 
United States, it provides an ideal environment in which to investigate 
the causes and study the reasons behind this insidious disease. 
Examining a variety of racial and ethnic groups in a community such as 
in Hawai'i, where there is not a dominant ethnicity, will assist 
researchers in learning how genes, diet, environmental factors, culture 
and behavior affect cancer. This opportunity can only be found in 
Hawai'i because the diversity that exists can not be replicated 
anywhere in the world.
    The cancer experience among ethnic and racial groups varies widely 
across the world as well as here in the United States. The differences 
between groups may be related to a variety of factors including 
biology, heredity, environmental factors and behavior. It is critical 
to identify clues to cancer causation as well as ways of detecting 
these cancers early, treating them, and ultimately, preventing them. It 
also helps take into account differences in socio-economic status, 
education, and access to healthcare affecting cancer diagnosis and 
treatment throughout the world.
    It is also important to recognize our state has the largest 
proportion of ethnically mixed individuals in the country. More than 50 
percent of all marriages in Hawai'i are considered ethnically or 
racially mixed. This makes Hawai'i a vanguard of the U.S. population of 
tomorrow, thus understanding the health disparities that exist in 
Hawai'i today is of critical importance to the rest of the nation and 
the world.
    In addition to all these unique cultural aspects, Hawaii is also 
home to the U.S. Pacific Command, a unified command of all four 
branches of the military in the Asia-Pacific region. USPACOM oversees 
more than 300,000 military men and women, which represents 20 percent 
of all active duty personnel. With many of these soldiers deployed into 
remote foreign locales, they often face unknown health risks that 
contribute to a variety of illnesses, including cancer. Given that, it 
is critical to the health of our men and women in uniform in the 
Pacific that they have access to world class care for all diseases. Our 
new facility can provide that to our military.
    The Cancer Research Center of Hawai'i (CRCH) has been the only 
National Cancer Institute-designated cancer center in the Pacific 
region for more than 25 years. Thus it is strategically located to 
identify the lifestyle and genetic factors that contribute to cancer 
risk, to evaluate safe cancer therapies for ethnic group patients, and 
to design prevention programs that are culturally and socially 
appropriate. The Cancer Research Center of Hawai'i has a long history 
of committed faculty members who have dedicated their careers to 
studying the striking variations in cancer incidence and survival among 
ethnic populations in Hawai'i. This year alone CRCH faculty generated 
over $30 million in extramural research funds validating the importance 
of continued research of cancer patterns among ethnic populations.
    Although the Cancer Research Center of Hawai'i excels as a research 
unit conducting basic scientific research, population studies, 
education and community outreach to identify and communicate the causes 
and cures for cancer, it does not currently perform patient diagnosis 
and treatment. Incorporating direct patient care and putting research 
into practice will significantly enhance both innovation and research 
advancements. The location and diversity of CRCH offers our country an 
unprecedented opportunity to move beyond simply researching the disease 
and into clinical cancer care as it relates to ethnic populations and 
all people. With the addition of a clinical component, the CRCH would 
achieve the designation of a comprehensive cancer center by NCI.
    CRCH has excelled in studying the development of cancer but the 
time is here to accelerate the benefits of our research and put them 
into practice with an extraordinary physical structure. A new and 
expanded CRCH facility would allow for offering clinical trials with 
new drugs accelerating the pace of new discoveries thus leading to an 
ever-higher survival rate for cancer victims. Physically combined into 
our biotechnology complex in the Honolulu neighborhood of Kaka'ako with 
our John A. Burns School of Medicine and private industry, Hawai'i can 
truly develop a powerful and sustaining biotech industry, which only 
helps diversify our state's economy. This all fits in with the dominant 
recommendation from the Governor's Blue Ribbon Panel that calls for the 
establishment of a state-of-the-art multidisciplinary outpatient cancer 
care facility run by the UH Cancer Research Center in close cooperation 
with existing health care facilities.
    We have the knowledge that must now be translated into practice 
through clinical application, thus providing valuable and currently 
unavailable information for the nation on cancer in minority 
populations. The State of Hawai'i offers the only opportunity to 
successfully accomplish this in our country.
    Why should the Congress support such a project in the middle of the 
Pacific? Simply put: It is in the nation's best interest to do so. The 
benefits of cancer research in Hawai'i are limitless but we can only 
continue to progress and truly benefit society if we translate our 
science into practice by conducting cancer research as it directly 
relates to patient's disease. A new state-of-the-art facility located 
in Honolulu offers cancer researchers across the world that 
opportunity. This in not a project that just has impact on a local 
population; rather the research and care that happens here will have 
dramatic ripple effects throughout the entire global medical community. 
We already have strong partnerships with universities in Japan and Guam 
as well as mainland collaborations with the National Institutes of 
Health, the University of California System and Vanderbilt University.
    This program is particularly significant in an age where large 
numbers of our military will be fighting a global war on terrorism for 
many years to come. As we continue to send young men and women off to 
protect democratic values in very different cultures that expose them 
to potentially complicated health environments, we are obligated to 
provide them cutting edge health related research and progressive 
public health policies that properly ensure they will be cared for. 
With lessons that we are still learning from agent orange in Vietnam 
and from the Gulf War Syndrome, we must take what history has shown us 
from modern day combat and ensure our troops be protected by dedicating 
significant resources in our national health care infrastructure. A 
major investment in the Cancer Research Center of Hawai'i would be an 
extraordinary step in that direction.
    Thank you again for your time this morning and for your 
consideration of this important facility. Simply put, a strong Cancer 
Research Center of Hawai'i means that essential clues in this 
collaborative effort to fight cancer will be unlocked and it will help 
in controlling cancer in all Americans.

    Senator Inouye. Thank you very much, Dr. Dobelle.

STATEMENT OF DR. CARL VOGEL, DIRECTOR, CANCER RESEARCH 
            CENTER OF HAWAII

    Senator Inouye. May I now invite Dr. Vogel.
    Dr. Vogel. Good morning, Senator Inouye. Good morning, 
Senator Akaka, and members of the senate subcommittee staff. My 
name is Carl Wilhelm Vogel and I am the director of the Cancer 
Research Center of Hawaii at the University of Hawaii. I'm also 
grateful for the opportunity to share with you some of the 
exciting research opportunities for cancer here in Hawaii, as 
well as some of the challenges that we face in taking full 
advantage of these research opportunities.
    Our cancer center, as President Dobelle indicated, is one 
of currently 61 NCI-designated cancer centers and, therefore, a 
member of the most distinguished cancer centers in the Nation. 
We have reached membership in this elite group of cancer 
centers because of the ethnic diversity of our State which 
offers indeed unique research opportunities.
    Chart 1 shows the population by race and ethnicity of the 
State of Hawaii from the 2000 census. As most of you are 
familiar with, there is no majority group in Hawaii, with 
Caucasians, Hawaiians, Japanese, Filipinos, and Chinese 
representing the five major ethnic groups, and as much as 70 
percent of our population is made out of many other ethnicities 
from many Asian countries and very many Pacific islands. The 
ethnic levels of our State is unparalleled in this country and, 
for that matter, in the world.
    With regard to cancer research, it provides a unique 
opportunity because the incidence of cancer in different ethnic 
groups varies tremendously. As chart 2 shows, as an example, 
that is the breast cancer incidence in Hawaii, and it is the 
highest in our Hawaiian population and the lowest in our 
Filipino population; almost a factor of two.
    The next chart shows a similar graph showing male 
colorectal cancer in Hawaii. And here it is the Japanese 
population that is at the highest risk and our Chinese 
population is at the lowest risk. And one more example, a very 
dramatic example of incidence shown in the next chart, which 
shows thyroid cancer for which Filipino women are, by far, at 
the highest risk of developing this disease.
    Another very similar observation from our cancer center, as 
shown in the next panel, it relates to immigrants and cancer in 
immigrants. It shows that the incidence of breast cancer is 
relatively low in Japan, but higher in Japanese immigrants to 
Hawaii, and even higher in second generation Japanese born in 
Hawaii. It is still lower than if you are caucasian living in 
Hawaii.
    There is another aspect of cancer health disparities in our 
State which we address in our cancer center. The last chart 
shows the average rates for cancer incidence and mortality for 
the different ethnic groups. As you can see, Hawaiians have 
only the second highest incidence but the highest mortality of 
cancer, as Senator Akaka alluded to. Furthermore, whereas heart 
disease is the leading cause of death for most Americans, it is 
cancer that is the leading cause of death for Asian Americans 
and Pacific Islanders.
    Given the deficits in incidence of our different ethnic 
groups, our cancer center has excelled in the opportunity to 
study the causes of cancer. Is it genes? Is it diet? Is it 
other environmental factors? Is it culture? Is it behavior? And 
the research results relating to the understanding of the 
causes of cancer that we discover here are obviously of 
relevance for the entire U.S. population. However, we are 
severely restricted in conducting clinical cancer research as 
it directly relates to patients' disease and the study of new 
devices and therapies. Our limitations for clinical cancer 
research are a consequence of the fact that our cancer center 
is not involved in cancer care. Our limitations for conducting 
clinical cancer research are regrettable as we have the same 
unique opportunities in our State for clinical research. The 
greatest impediment for progress in cancer care is the 
translation of newly gained knowledge into clinical 
application.
    Dr. Andrew von Eschenbach, the Director of the National 
Cancer Institute, has clearly formulated the goals of the 
Nation's effort in addressing the cancer burden: Discovery, 
development and delivery. In order to translate newly gained 
knowledge, it needs to be developed into new procedures and 
drugs in a well-controlled clinical research setting in order 
to ultimately make better cancer care delivery available to all 
cancer patients.
    The NCI-designated cancer centers play a very crucial role 
in this translational research, a role that will become even 
more important with both a growing body of knowledge and a 
growing cancer burden. If there would be a state-of-the-art 
care facility in Hawaii, we could not only contribute to the 
important translational research effort of the Nation, but also 
contribute to insight and knowledge that could not be generated 
elsewhere, again due to our multi-ethnic population.
    Most clinical trials involving new drugs have been 
conducted in a caucasian patient population. However, different 
drugs have different therapeutic effects and different side 
effects in different populations. It is therefore very 
important that minority populations participate in the clinical 
trials of new drugs that emerge from the research pipeline. We 
would be able to enroll many patients of different minorities 
into these studies, as approximately three quarters of our 
population in Hawaii would present minorities from a mainland 
perspective.
    Conducting clinical trials with innovative drugs in Hawaii 
will not only have a benefit for the Nation's translational 
research efforts, it will also have a very tangible benefit for 
patients in our State. For more than 50 percent of our cancer 
patients we cannot offer any curative care at this point. The 
enrollment in a clinical trial, and particularly in a trial 
with a novel drug that emerges from the latest research, 
represents, in many cases, the only hope for a cure. And with 
an ever increasing body of knowledge, the emergence of 
rationally designed drugs that specifically interfere with the 
molecular disease process in a given cancer will increase, and 
it is only reasonable to anticipate that clinical trials will 
increasingly provide a chance for a cure.
    Unfortunately, in the absence of a dedicated cancer care 
facility that provides comprehensive cancer care in an academic 
setting, access to clinical trials, with novel drugs, will be 
very limited for cancer patients in Hawaii. As a consequence, 
some patients and their families who have the means to do so 
are traveling to the mainland to enroll in such clinical 
trials, with all of the burden and difficulties, financial and 
otherwise, that this travel means for the affected families at 
a time when family, life and work is already burdened with a 
life-threatening disease. And this is, of course, an option 
that is not available for most of our patients.
    Limited access to clinical trials was also identified by 
the Blue Ribbon Panel appointed by Governor Cayetano a few 
years ago and to build a comprehensive cancer center in the 
State of Hawaii was indeed a prominent recommendation of this 
panel.
    There's one last issue that I need to share with you with 
regard to the cancer burden in our State. Nationwide, the 
overall incidence of cancer is leveling off or even starting to 
show signs of decline. However, cancer is predominantly a 
disease of age. This fact has very important consequences for 
the cancer burden of our Nation in the future. As the life 
expectancy of Americans increases, the number of people 65 and 
older is constantly increasing. Given these demographics, it is 
predicted that the number of new cancer cases in the United 
States will double by the year 2050, from approximately 1.2 
million new cases per year to almost 2.5 million cases per 
year.
    Unfortunately, these numbers are even more dramatic for the 
State of Hawaii as the growth of our older population is 
outpacing that of the United States as a whole. The doubling of 
cancer cases for our State will be reached by the year 2030 
which will be within the lifetime of many of us in the room 
here today.

                           PREPARED STATEMENT

    We need to be prepared to address this growing burden of 
cancer in our State. As I am foremost a physician, I have been 
working very hard and will continue to do so to convince 
stakeholders within our State and at the national level that 
you must join forces to build a comprehensive cancer care 
facility in our State for our local patients and for the 
Nation's effort to combat this terrible disease.
    Thank you very much for the opportunity to testify this 
morning.
    [The statement follows:]

                Prepared Statement of Carl-Wilhelm Vogel

    Senator Inouye, Senator Akaka, distinguished members and staff of 
the Senate Subcommittee on Labor, Health and Human Services, Education, 
and Related Agencies.
    My name is Carl-Wilhelm Vogel. I am the director of the Cancer 
Research Center of Hawaii at the University of Hawaii. I am grateful 
for the opportunity to share with you some of the exciting research 
opportunities for cancer in the State of Hawaii, as well as some of the 
challenges that we face in both taking full advantage of these research 
opportunities and delivering the best possible care to our cancer 
patients.
    Our cancer center is one of currently 61 NCI-designated cancer 
centers and, therefore, a member of the most distinguished cancer 
research centers in the nation. We have reached membership in this 
elite group of cancer centers because outstanding cancer center faculty 
have taken advantage of the very unique research opportunities that 
exist in our state for cancer research.
    The basis for this unique research opportunity is the ethnic 
diversity of our state's population. Chart 1 shows the population by 
race or ethnicity of the State of Hawaii from the 2000 census. There is 
no majority ethnic group in Hawaii, with Caucasians, Hawaiians, 
Japanese, Filipinos, and Chinese representing the five major ethnic 
groups. The remaining 13 percent are made up of Koreans, Vietnamese, 
other Asians, African Americans, Samoans, and many other Pacific 
Islanders. The ethnic diversity of our state is unparalleled in the 
country and, for that matter, in the world.
    Whereas for all races combined, individuals in Hawaii generally 
have a somewhat lower cancer incidence compared to the United States as 
a whole, there is great variation in the incidence of different cancers 
in the different ethnic groups. Let me share with you some incidence 
data for selected cancer sites. Chart 2 shows that the incidence of 
breast cancer is the highest in Hawaiians and the lowest in Filipinos. 
Chart 3 shows the incidence of colorectal cancer in males where 
Japanese have the highest and Chinese have the lowest incidence. Chart 
4 displays data for prostate cancer where Caucasians have the highest 
and Hawaiians have the lowest incidence. Chart 5 shows a dramatic 
example of incidence differences for thyroid cancer which is by far 
most common in Filipino women. These data demonstrate the incredible 
differences of cancer incidence among our different ethnic groups. As a 
matter of fact, there is no major ethnic group in our state that is not 
at highest risk of developing cancer at a given organ site.
    Another seminal observation from our cancer center relates to the 
cancer incidence in migrants. Chart 6 shows that the incidence of 
breast cancer is relatively low in Japan, but higher in Japanese 
immigrants to Hawaii, and even higher in second generation Japanese 
born in Hawaii. This breast cancer incidence, however is still lower 
than that of Caucasians living in Hawaii. A reversed situation exists 
for stomach cancer where immigration to Hawaii reduces the incidence in 
Japanese. Collectively, the differences in incidence rates for 
different cancers in the different ethnic groups in our state provide 
for an unparalleled research opportunity to study the multifactorial 
causes of cancer: genes, diet, other environmental factors, culture, 
and behavior. This research opportunity is unparalleled, and research 
results relating to the understanding of the causes of cancer are of 
relevance for the entire U.S. population. As a matter of fact, our 
research concepts are being exported to the mainland. Dr. Laurence 
Kolonel of our Cancer Center follows a multiethnic cohort of over 
200,000 individuals, which includes African Americans and Hispanics in 
California.
    There is another aspect of cancer health disparities in our state, 
which our cancer center is addressing. Chart 7 shows the average rates 
of males and females for overall cancer incidence and mortality for the 
different ethnic groups. As you can see, Hawaiians have only the second 
highest cancer incidence, but by far the highest mortality due to 
cancer. Furthermore, whereas heart disease is the leading cause of 
death for most Americans, it is cancer that is the leading cause of 
death for Asians and Pacific Islanders in our country. This is more 
likely to reflect differences in socio-economic status, education, and 
access to health care. This is further illustrated by Chart 8 that 
displays the percentages of early stage versus late stage of colorectal 
cancer at the time of diagnosis among the different ethnic groups. As 
you can see, Hawaiians and Filipinos are more likely to be diagnosed 
when their cancer is already in an advanced state.
    Given this research opportunity our cancer center has excelled in 
studying the epidemiology of cancer with particular emphasis on diet 
and cancer, behavioral aspects of cancer, and genetics of cancer. 
However, we are severely restricted in conducting clinical cancer 
research as it directly relates to patient's disease, and the study of 
new devices and therapies. Our limitations for clinical research are a 
consequence of the fact that our cancer center is for all practical 
purposes a research center, and not involved in cancer care. Cancer 
patients do not come to our cancer center for diagnosis or therapy. As 
a consequence, it is not recognized as a comprehensive cancer center by 
the NCI. Our limitations for conducting clinical cancer research are 
regrettable as we have the same unique opportunities in our state for 
clinical research. As you are very well aware of, the greatest 
impediment for progress in cancer care is the translation of newly 
gained knowledge into clinical application. Dr. Andrew von Eschenbach, 
the director of the NCI, has clearly formulated the goals of the 
nation's efforts in addressing the cancer burden: discovery, 
development, and delivery. In order to translate newly gained knowledge 
it needs to be developed into new procedures and drugs in a well-
controlled clinical research setting involving cancer patients in order 
to ultimately make better cancer care delivery available to all cancer 
patients. The NCI-designated cancer centers play a crucial role in this 
translational research, a role that will become even more important 
with both a growing body of knowledge and a growing cancer burden. If 
there would be a state of the art cancer care facility in the State of 
Hawaii, we could not only contribute to the important translational 
research effort of the nation, but also contribute an insight and 
knowledge that could not be generated elsewhere, again due to our 
multi-ethnic population. Most clinical trials involving new drugs have 
been conducted in a Caucasian patient population. However, as all of 
you are aware of, different drugs have different therapeutic effects 
and different side effects in different populations and individuals. 
And much for the same reason that the different genetic makeup of 
different ethnic groups in our state contributes to the different 
incidence of cancer, it also contributes to the different efficacy and 
side effects of anti-cancer drugs. It is therefore important that 
minority populations participate in the clinical trials of new drugs 
that emerge from the research pipeline. If we were able to conduct 
clinical trials with innovative new drugs in phase I and phase II 
studies at a comprehensive cancer center in Hawaii we would be able to 
enroll many patients of different minorities into these studies as 
approximately three-quarters of our population represent minorities 
from a mainland perspective.
    Conducting clinical trials with innovative drugs in Hawaii will not 
only have a benefit for the nation's translational research efforts in 
cancer. It will also have a tangible benefit for patients in our state. 
In the area of cancer, enrollment in a clinical trial is almost 
considered the standard of care. For more than fifty percent of our 
cancer patients we cannot offer any curative care at this point. The 
enrollment in a clinical trial, and particularly in a clinical trial 
with a novel drug that emerges from the latest research, represents in 
many cases the only hope for a cure for many cancer patients. And with 
our ever increasing body of knowledge the emergence of rationally 
designed drugs that specifically interfere with the molecular disease 
process in a given cancer will increase; and it is only reasonable to 
anticipate that clinical trials in the future will increasingly provide 
a chance for a cure. Unfortunately, in the absence of a dedicated 
cancer care facility that provides comprehensive cancer care in an 
academic setting, access to clinical trials, with novel drugs will be 
very limited for cancer patients in Hawaii. As a consequence, patients 
and their families are traveling to the mainland to be enrolled in such 
clinical trials, with all the burden and difficulties, financial and 
otherwise, that this travel means for the affected families. And all 
this at a time when family, life, and work is already burdened with a 
life-threatening disease, at a time when you want to be as close to 
your family, your home, and support base as possible and not spend days 
or weeks on end in a hotel on the mainland. As difficult as it is for 
those patients and their families who have the education and the means 
to travel to the mainland to be enrolled in a clinical trial, this 
option is not available for the majority of our cancer patients in the 
state. Fragmented cancer care and limited access to clinical trials was 
also identified by a blue ribbon panel appointed to look into cancer 
care in the State of Hawaii by Governor Cayetano in 1999. Prominently 
among the recommendations that the members of the blue ribbon panel 
unanimously made in their final report to the governor was a 
recommendation to build a comprehensive cancer center in the State of 
Hawaii.
    There is one last issue that I need to share with you with regard 
to the cancer burden in our state. Nation-wide the overall incidence of 
cancer is leveling off or even starting to show signs of decline. 
However, cancer is predominately a disease of age. Whereas it can 
strike children and even fetuses, seventy-five percent of all new 
cancers occur in individuals 55 and older. This fact has very important 
consequences for the cancer burden of our nation in the future. As the 
life expectancy of Americans increases, the number of people 65 and 
older is constantly increasing. Given these demographics, it is 
predicted that the number of new cancer cases in the United States will 
double by the year 2050, from currently approximately 1.2 million new 
cases per year to almost 2.5 million cases per year. Unfortunately, 
these numbers are even more dramatic for the State of Hawaii as the 
growth of our older population is outpacing that of the United States 
as a whole. The doubling of cancer cases for our state from currently 
approximately 5,500 per year to well over 10,000 is predicted to be 
reached by the year 2030, which will be within the lifetime of many of 
us in the room here today. We need to be prepared to address this 
growing burden of cancer in our state. As I am foremost a physician, I 
have been working very hard and will continue to do so to convince 
stake holders within our state and at the national level that we must 
join forces to build a comprehensive cancer care facility in our state 
for our local patients and for the nation's effort to combat this 
terrible disease.
    I thank you very much for the opportunity to testify to your 
subcommittee. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inouye. Thank you very much, Dr. Vogel.
    I wish to commend both of you for taking the initiative in 
recommending that this project be approved by the Congress of 
the United States. Because I'm convinced that this center has 
the potential of being Hawaii's greatest contribution, with the 
help of our citizens, not just Hawaii but our Nation, and for 
that matter of the world.
    Dr. Dobelle, this is part of the university, is it not?
    Dr. Dobelle. Yes, sir, it is.
    Senator Inouye. Have you drafted design plans, or any 
plans?
    Dr. Dobelle. We are in the process of doing that now, 
Senator. Working with the facilities at the Kaka'ako site over 
the next 6 months, we will develop final siting plans and then 
the architectural renderings.
    Senator Inouye. In the drafting of this plan and design, 
have you been in consultation with the National Cancer 
Institute?
    Dr. Dobelle. I believe Dr. Vogel has been in conversation, 
we had the national health representatives out here this last 
week, with representatives from the University of California, 
Davis and Vanderbilt University. We've made a number of trips 
and Dr. Vogel has made many trips to the National Cancer 
Institute as well as NIH.
    Dr. Vogel. The National Cancer Institute review panel that 
we use at our cancer center at regular intervals has clearly 
identified the need to develop a clinical research component as 
the greatest one for our cancer center.
    Senator Inouye. Is there any cancer center with the 
potential of this project in the United States?
    Dr. Dobelle. No, sir, there is not.
    Senator Inouye. Anywhere in the world?
    Dr. Dobelle. No, sir, there is not.
    Senator Inouye. Assuming that everything goes well, when 
will your plans be ready for submission to the Congress?
    Dr. Dobelle. Senator, we can expedite those immediately. I 
would say within 6 months. It could probably be within 6 weeks, 
if that was critical?
    Senator Inouye. Do you have any estimate as to the cost 
involved?
    Dr. Dobelle. Somewhere in the proximity of $100 million?
    Senator Inouye. That is just construction?
    Dr. Dobelle. Yes, sir.
    Senator Inouye. What about equipment?
    Dr. Dobelle. That would include the laboratory, Senator, 
excuse me, that would include laboratory. It would not the 
desks and furniture, but it would include the physical aspects 
of the laboratory as necessary to conduct research.
    Senator Inouye. Well, I don't want to rush you because 
often times in rushing a project you make unnecessary mistakes. 
But if we are to consider this for funding in the next fiscal 
year, I would say that you would have to have your plans in our 
hands by the end of June at the latest. But, otherwise, we'll 
have to consider this for the following fiscal year?
    Dr. Dobelle. We will have it to you by the end of June, 
sir.
    Senator Inouye. Dr. Vogel, is your center ready to take 
over this world project?
    Dr. Vogel. We are, Senator.
    Senator Inouye. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to thank you for your statements, which were very 
revealing. President Dobelle, you mentioned in your statement 
that the Cancer Research Center of Hawaii will be physically 
combined into a biotechnology complex at Kaka'ako with the John 
A. Burns School of Medicine as well as the private industry. 
That is an interesting combination.
    My question to you is to ask you to inform the committee 
about the benefits that you will expect from this combined 
complex in Kaka'ako?
    Dr. Dobelle. Thank you, Senator. That goes to the heart of 
the question of leveraging taxpayers' resources, and this is 
something that not only does well in investigating disease but 
also in expanding and diversifying the economy of the State of 
Hawaii.
    The new John A. Burns School of Medicine under 
construction, the first building open in September 2004, the 
last building in 2005, would be adjacent to the Cancer Research 
Center and the Pacific biotechnology facilities of the 
University of Hawaii. There are, as you and Senator Inouye 
have, with your colleagues, given resources to the National 
Institute of Health where there's almost $23 billion a year now 
available for biotechnology research, when you add in the other 
monies that are available through cancer, heart funds, and 
Muscular Dystrophy, and other kinds of non profit 
organizations, there's approximately another $12 to $13 
billion, which leaves $35 billion in research available.
    If one were to use the term ``market share,'' the increase 
of the ability of the Burns School of Medicine, which produces 
$7 million in research annually today, along with the Cancer 
Research Institute, which produces $30 million a year at the 
present time, we expect that we would be able to have at least 
$200, $300, or $400 million a year more in research money being 
brought to Hawaii, at a minimum; and working with venture 
capitalists, this is a powerful enough university, and because 
of you and Senator Inouye, with the aid of the largest 
federally sourced research institute in the United States.
    Many people presume we need multi-universities to create a 
biotechnology world. You don't. People will look at 128 outside 
of Boston, look at all the universities, Harvard, and MIT, and 
others, Boston University, Boston College, look at the triangle 
in North Carolina, between North Carolina State--Duke, and 
Capitol Hill, the University of Texas--Austin alone, the 
University of California--San Diego alone, University of 
Washington in Seattle alone.
    The University of Hawaii alone, particularly reaching out 
to the Pacific to our partners in Japan, in China, in Guam has 
the capacity to be a powerful, powerful biotechnology industry 
for the world located here in Hawaii. And, therefore, the 
resources that are not only being given, perhaps by the 
government, to be able to find cures for cancer, particularly 
using the protocols of the Asian American population here, also 
has the capacity to hugely diversify the economy of Hawaii 
which right now is heavily dependent, as you well know, on 
tourism and on the military.
    Senator Akaka. Dr. Vogel, you mentioned in your statement 
what you've been doing. I'd like to ask you to describe just 
one of your innovative research projects that has been 
conducted by the Cancer Research Center of Hawaii, and 
especially how, having it done in Hawaii, makes a difference.
    Dr. Vogel. Well, there obviously have been many projects 
over many years, Senator Akaka. But one very large project that 
comes to mind that is conducted out of the leadership of Dr. 
Laurence Kolonel in our Cancer Center is a large multi-ethnic 
cohort. Dr. Kolonel and his colleagues here in Hawaii and in 
collaboration with the University of Southern California's 
Cancer Center have a cohort of over 215,000 individuals 
enrolled in a long-term study to track individuals over many 
decades and they're collecting a large biorepository of 
materials from these individuals so that in the future we can 
go back and analyze these and understand why or why not 
individuals may have developed cancer. That is the largest 
cohort, to my knowledge, in the United States, and probably for 
that matter in the world.
    Senator Inouye. Well, gentlemen, I thank you very much for 
your testimony and I'm certain you can sense our enthusiasm for 
it. And I can ensure you that your congressional delegation 
will do everything possible to make certain that this 
contribution of ours becomes a reality. I think this is a 
worthy project, worthy of Hawaii, and worthy of the scientific 
community. So I look forward to working with you.
    We'll have your design plans when?
    Dr. Dobelle. The first of June.
    Senator Inouye. First of June. Thank you very much, Dr. 
Dobelle and Dr. Vogel.
    Dr. Dobelle. Thank you for your leadership, Senator.
    Dr. Vogel. Thank you.

STATEMENT OF MS. DEW-ANNE LANGCOAN, VICE PRESIDENT, 
            HAWAII PACIFIC HEALTH

    Senator Inouye. Now may I call upon the vice president of 
the Hawaii Pacific Health, Ms. Dew-Anne Langcoan, and the 
president and chief executive officer of the Queen's Health 
Systems, Dr. Gary Okamoto, and Dr. Jonathan Cho.
    Ms. Langcoan.
    Ms. Langcoan. Thank you. Good morning, Senator Inouye and 
Senator Akaka, members of the committee and guests. My name is 
Dew-Anne Langcoan. I'm executive vice-president for Hawaii 
Pacific Health, which is the parent organization for Kapiolani 
Medical Center, Pali Momi Medical Center, Straub Clinic & 
Hospital, Wilcox Hospital, and Kaua'i Medical Clinic on the 
Island of Kaua'i.
    As we have already heard, the Cancer Research Center of 
Hawaii is already an important contributor to the national 
cancer scene. However, it has the potential to become a 
national role model in cancer research with expansion to 
comprehensive status and the addition of an outpatient clinical 
cancer facility. To understand the Cancer Center's full 
potential, we can look to the priorities set forth by the 
National Cancer Institute for 2004.
    The NCI plans to redouble its efforts to eliminate 
disparities in cancer research and treatment related to gender 
and race. Progress in the treatment of cancer will depend 
largely on the development of new drug therapies. The FDA has 
already begun to recognize the importance of studying such 
ethnic differences by often requiring ethnic diversity among 
clinical trials participants. Hawaii is a very unique location 
to conduct such clinical trials because of its ethnically 
diverse population which is also clustered in a close 
geographical area. It is just about the only place in the world 
where a physician researcher can simultaneously study the 
treatment of Japanese, Chinese, Filipino, Korean, or Hawaiian 
patients as compared with a larger population of caucasian 
patients. Expanded research capabilities in Hawaii would 
improve worldwide cancer treatment by customizing therapy to 
each patient's ethnicity.
    Another priority of the NCI is increasing the understanding 
of genes and the environment on the effective approaches to 
cancer. The study of family registries and environmental risk 
factors are high priorities. Researchers require a stable 
population in order to have a stable gene pool to study. 
Hawaii's population is very stable with low rates of in and out 
migration and often times multiple generations of the same 
family living in the same area. Next to Utah, Hawaii offers the 
most robust concentration of multi-generational families who 
have lived in the same environmental area. Both factors are 
critical to effective genetic cancer research.
    Next, the National Cancer Institute's vision is to more 
fully integrate discovery activity by bringing basic scientists 
and clinicians together to find the answers. The vast majority 
of cancer centers across the country are based in university 
hospitals with exclusive physician faculty groups. In such 
closed systems getting new treatments into the university's 
primary care clinics is relatively easy but the dissemination 
of that knowledge to private practitioners of the community is 
very slow and often impossible. Cancer centers struggle to get 
new discoveries and clinical trials into main stream medicine.
    Here, again, Hawaii is unique. Instead of a single dominant 
university hospital, Hawaii has adopted a community-based 
network of affiliated hospitals and teaching faculty 
physicians. With expansion into a clinical facility via a 
public/private partnership, the Cancer Research Center of 
Hawaii must develop a model that works within our community-
based framework. Rather than competing with private hospitals 
and physicians, the clinical facility can serve all providers 
and connect the community as a hub with many spokes into the 
cancer care delivery network. Few cancer centers across the 
country have achieved such close integration with community 
providers. Hawaii's comprehensive cancer center could serve as 
a template for a system that quickly moves new discoveries from 
the bench to the bed side.

                           PREPARED STATEMENT

    Finally, the NCI is interested in furthering the study of 
bioinformatics. The ability to capture electronic cancer 
medical data for an entire community, trend it and study it 
through disciplined research is unprecedented to date. Hawaii 
has a once in a lifetime opportunity to create such a community 
wide cancer data repository. Three of the largest health care 
providers in the state have independently selected the same 
vendor for their future electronic medical record needs. No 
other community in the country can boast a single information 
platform from which to collect cancer data. Hawaii could be the 
first.
    Hawaii is unique in so many ways, and its ability to 
contribute to cancer research throughout the country and the 
world is immense. Funding for an expanded research and clinical 
facility can provide the needed fuel to accelerate Hawaii's 
fulfillment of its potential.
    Thank you for the opportunity to speak today.
    [The statement follows:]

                Prepared Statement of Dew-Anne Langcoan

    Honorable Committee Chair, Members and Guests: The Cancer Research 
Center of Hawaii plays a vital role in cancer treatment today by making 
available cooperative clinical trials and research leadership to 
physicians and local hospitals. While already an important contributor 
to the national cancer scene as one of only 61 NCI designated cancer 
centers, the Cancer Research Center of Hawaii has the potential to be a 
national role model for cancer research with an expansion of the Center 
to comprehensive status and the addition of a centralized outpatient 
clinical cancer facility. To understand the tremendous research 
potential the Cancer Center has, we can look to the priorities set 
forth by the National Cancer Institute (NCI) for 2004.
    The NCI plans to redouble its efforts to eliminate disparities in 
cancer research and treatment related to gender and race. Hawaii can 
play an important role in accomplishing this goal via the study of the 
differences in effects of therapies and drug treatments between ethnic 
groups. Progress in the treatment of cancer depends largely on the 
development of new drug therapies, and the FDA has already begun to 
recognize the importance of studying such ethnic differences. 
Historically, the FDA approved drugs on the assumption that those found 
safe and effective in Caucasian males would be equally safe and 
effective in other humans including women, children and people of other 
ethnic origins. Today, however, it is widely accepted that a person's 
response to a medication does indeed vary according to gender, age and 
ethnicity. Increasingly, the FDA requires ethnic diversity among 
clinical trial participants. Hawaii is a unique location for such 
clinical trials because of its ethnically diverse population that is 
also clustered within a close geographical area. It is just about the 
only place in the world where a physician researcher can simultaneously 
study the treatment of Japanese, Chinese, Filipino, Korean, Hawaiian, 
or patients of other ethnic origin as compared with Caucasian patients. 
Expanded research capabilities in Hawaii would improve worldwide cancer 
treatment by furthering the customization of therapy to the patient's 
ethnicity.
    Another priority of the National Cancer Institute is increasing the 
understanding of genes and the environment on the effective approaches 
to cancer prevention, early detection, and treatment. The study of 
family registries and environmental risk factors for susceptibility of 
cancer genes are high priorities in the national cancer agenda. To 
accomplish such, researchers require a stable population in order to 
have a stable gene pool to study. Hawaii's population is very stable 
with low rates of in and out migration and often times multiple 
generations of the same family living in the same area. Next to Utah, 
Hawaii offers the most robust concentration of multigenerational 
families who have lived in the same environmental area--both factors 
are critical to effective genetic cancer research studies.
    Thirdly, the National Cancer Institute's vision is to strive to 
more fully integrate discovery activities by bringing basic scientists 
and clinicians together to find the answers. The vast majority of 
cancer centers in the country are based in university hospitals with 
closed faculty physician groups. While the translation of new 
discoveries into the university's own primary care clinics is 
relatively easy in such a closed system, dissemination of the knowledge 
to community based private practitioners is very slow and often 
impossible. Cancer centers across the nation struggle to get new 
discoveries and clinical trials into mainstream medicine in order to 
reach a large number of patients. Here again, Hawaii us unique. Rather 
than a single dominant university hospital, Hawaii has adopted a 
community-based network of affiliated teaching hospitals and physician 
faculty. With an expansion into a clinical facility via a public/
private partnership, the Cancer Research Center of Hawaii must develop 
a model that works within our community-based framework. Rather than 
competing with private hospitals and physicians, the clinical facility 
must serve all providers and connect the community as the hub with many 
spokes into the cancer care delivery network. Few cancer centers across 
the country have achieved such close integration with community 
providers. Hawaii's comprehensive cancer center can serve as a template 
for a system that quickly moves new discoveries into mainstream 
medicine for faster benefit to patients.
    Finally, the National Cancer Institute is interested in furthering 
the study of bioinformatics. The ability to capture electronic medical 
data for an entire community, trend it and study it through disciplined 
research is unprecedented to date. Hawaii has a unique, once in a 
lifetime, opportunity to create such a community-wide cancer data 
repository with three of the largest healthcare providers in the state 
having independently selected the exact same vendor for their future 
electronic medical record needs. No other community in the country can 
currently boast a single information platform from which to collect 
data. Hawaii could be the first. Additionally, a community-wide 
electronic medical record would make it even easier for primary care 
providers to access clinical trials from their desktops thus increasing 
the speed of getting the latest in scientific knowledge to the patient 
bedside.
    Hawaii is unique in so many ways, and its ability to contribute 
toward the advancement of cancer research throughout the country is 
immense. Funding for an expanded research and clinical facility can 
provide the needed fuel to accelerate Hawaii's fulfillment of its 
potential by pulling together, academic, clinical, research and 
community cancer providers as a team in the fight against cancer.
    Thank you for the opportunity to speak today.

    Senator Inouye. Thank you very much, ma'am.

STATEMENT OF DR. OKAMOTO, PRESIDENT AND CEO, THE 
            QUEEN'S HEALTH SYSTEMS

    Senator Inouye. Now may I call upon Dr. Okamoto.
    Dr. Okamoto. Good morning, Senator Inouye, Senator Akaka, 
and I'd like to acknowledge other distinguished guests and 
witnesses who are here today. Thank you for this opportunity to 
share my views regarding cancer care and its relationship to 
our national interest.
    Queen's roots go back to the mid-1800s when epidemics were 
decimating the indigenous Hawaiian population and were 
threatening the very existence of Hawaii as a sovereign nation. 
Seeking a strategy to restore the health of their people, Queen 
Emma and King Kamehameha IV founded Queen's Hospital in 1859.
    Now, 145 years later, Queen's Medical Center, its doctors 
and nurses, face the silent epidemic of cancer among the people 
of Hawaii that you have heard from preceding experts. Cancer 
clearly negatively affects several objectives of our broad 
national interest which are of great relevance to our 
discussion today: The health of our citizens, our economic 
productivity, and quality of life.
    My testimony, however, attempts to address these objectives 
of national interest from the standpoint of a community based 
strategy that builds on existing institutions and their core 
competencies in cancer care and at the same time respects the 
importance of having a comprehensive cancer designation for our 
Cancer Center that Dr. Vogel described.
    We propose that the Queen's Medical Center be designated as 
a comprehensive coordinator, a role, if you will, for cancer 
research, education, and service in Hawaii. In a collaborative 
relationship that builds upon our existing track record, the 
medical center leaders can bring together the Cancer Research 
Center of Hawaii, the John A. Burns School of Medicine, the 
University of Hawaii School of Nursing, the Tripler Army 
Medical Center, the Veterans Administration and Clinic Program, 
and other key providers, like Hawaii Pacific Health, who have 
demonstrated their expertise in research, education and 
clinical service.
    For Hawaii's small size and geographic isolation, such a 
programmatic approach would optimize finite resources and avoid 
wasteful duplication of facilities, technology and health care 
professionals. Our community-based model calls for a community-
based system of coordination among existing capable 
institutions and not for a model of centralization and 
redundancy.
    The proposed coordinated cancer program would have four 
broad inter-related objectives. First, integration: Existing 
providers of cancer care would be coordinated and integrated 
into a program that links clinical services with research and 
education. The integration must bring value to the person and 
family in their home and community and island culture.
    Second, economic sustainability: The program would need to 
be sustainable in the long run avoiding the duplication of 
capital intense resources and recognizing the critical 
shortages of many knowledgeable workers in health care. The 
program would set goals for individual institutions to build on 
their respective core competencies in cancer.
    Third, flow of research to provider: Research needs to be 
driven by patients and patient care, not the other way around. 
Across the Nation the finest comprehensive cancer programs, 
such as MD Anderson and The Mayo Clinic, have the patient as 
the focus of treatment. With appropriate Federal support, 
Queen's could build upon its existing relationship with the 
University of Hawaii and other local health care institutions 
to create a seamless flow between patient care and research.
    Fourth, access: Access to the highest quality of cancer 
care to community screening, to outreach workers linking at-
risk individuals to the appropriate physicians, nurses, 
resources and facilities as quickly as possible is our highest 
priority. We know that native Hawaiians have the highest 
mortality rates for cancer, for example, because they do not 
receive cancer care earlier enough. Early diagnosis and timely 
intervention is essential to cancer care and survival. We know 
that only the wealthiest among us have the economic means to 
travel to the Continental United States to access centers like 
Mayo and MD Anderson. And Queen's is determined to provide 
Hawaii's people with access to similar quality of care as the 
best centers in our Nation. To offer anything else would 
compromise the values of our Ali`i founders. And we would do 
that in coordination and integration with other leading health 
care providers.
    Through such a comprehensive cancer program that is 
community based, we believe that cancer care capacity of Hawaii 
would be expanded and strengthened to address national interest 
concerns, namely, access to health care, economic productivity 
and quality of life.
    Thank you for the opportunity to share my views.
    Senator Inouye. Thank you very much, Dr. Okamoto.

STATEMENT OF DR. JONATHAN K. CHO, A PRACTICING 
            COMMUNITY ONCOLOGIST

    Senator Inouye. Dr. Cho.
    Dr. Cho. Good morning, Senator Inouye, Senator Akaka, 
distinguished members of the audience. My name is Jonathan Cho 
and I'm a physician specializing in the care of cancer 
patients.
    For the past 12 years, I have been associated with the 
Cancer Research Center of Hawaii through its clinical trials 
program. This association has enabled my patients and I to 
actively participate in clinical trials. The Cancer Research 
Center of Hawaii has been the focal point of cancer research in 
Hawaii for many years. Their commitment to the promotion of 
clinical studies over the years has given hundreds of patients 
access to new cancer treatments.
    I'm here today to provide a practicing physician's 
perspective on having a comprehensive cancer center in Hawaii. 
I see several advantages for the establishment and development 
of such an institution. Unlike many other diseases, optimal 
care of the cancer patient requires a coordinated effort by 
many different disciplines. First, having a comprehensive 
cancer center would provide a setting in which such coordinated 
multi-disciplinary care would be delivered.
    Second, a comprehensive cancer center would provide cancer 
patients access to new and innovative cancer treatments. 
Presently, the majority of cutting edge cancer treatments are 
administered in academic centers and/or in designated cancer 
centers throughout the country. Patients cared for at these 
institutions have the opportunity to receive state-of-the-art 
treatment. The presence of a comprehensive cancer center here 
will make it much easier to attract and conduct such studies in 
Hawaii and thus give our patients similar opportunities.
    Third, a comprehensive cancer center in this community is 
likely to enhance the knowledge of the medical professional 
caring for cancer patients. Such an institution would attract 
notable researchers and academicians. This, in turn, may result 
in training programs for young physicians and paramedical 
personnel creating an environment which nurtures learning and 
research. Continued medical education programs would improve, 
all being focused, and hopefully resulting in enhancing the 
medical professional's knowledge base.
    Finally, and probably most important, Hawaii's unique and 
diverse ethnic population creates fertile ground for the study 
of cancer. According to the 2000 U.S. census, Hawaii leads the 
Nation with 41.6 percent of its 1.2 million people reporting an 
Asian heritage. This is significant because, as a small State, 
Hawaii has the fourth highest percentage of foreign-born 
residents in the United States.
    The National Cancer Institute's cooperative network 
institutions conducting cancer clinical trials is always 
interested in the treatment, responses and toxicity information 
contributed by Hawaii's ethnically diverse participants.
    The development of a comprehensive cancer center would 
generate clinical research information on ethnic differences in 
treatment responses and toxicities that would not be available 
elsewhere in the Nation and would thus have far-reaching 
implications both nationally and internationally.
    At this time I'd like to share the plight of a patient of 
mine. JM is a Laotian male of immigrant parents who attended a 
local high school and after graduation went on to attend a 
community college here in Honolulu. During his first year of 
college, JM was diagnosed with colon cancer. After the tumor 
was removed, he received 6 months of chemotherapy. At the 
completion of his treatment, he resumed his studies at the 
community college level. However, 8 months thereafter he 
developed a recurrence of his cancer. And despite receiving 
additional chemotherapy, his cancer progressed. Inquiries were 
made to several centers on the mainland and although JM was 
eligible for investigational therapy, he was unable to go due 
to financial and other psychosocial restraints. He received no 
further therapy. Now I really don't know if JM would have 
benefited from further investigational therapy, however, it is 
unfortunate that he did not have the opportunity to be treated.
    This case is but one example of many patients not having 
access to innovative and potentially beneficial treatment. For 
those who can afford such treatment, most would absorb the cost 
in time and money to seek out treatment outside of Hawaii.

                           PREPARED STATEMENT

    In closing, as a practicing community oncologist, I fully 
support any effort to establish and develop an NCI approved 
comprehensive cancer center in Hawaii as an extension of the 
Cancer Research Center of Hawaii. As I see it, the potential 
benefits clearly outweigh any potential risk. But, more 
importantly, we owe it to our patients who truly believe, and 
rightly so, that research brings them hope.
    Thank you very much for your attention.
    [The statement follows:]

               Prepared Statement of Dr. Jonathan K. Cho

    Thank you, very much, for giving me the opportunity to address your 
committee today.
    I am a physician, specializing in the care of cancer patients. For 
the past twelve years, I have been associated with the Cancer Research 
Center of Hawaii through its clinical trials program. This association 
has enabled my patients and I to actively participate in clinical 
trials. The Cancer Research Center of Hawaii has been the focal point 
of cancer research in Hawaii for many years. Their commitment to the 
promotion of clinical studies has given hundreds of patients, over the 
years, access to new cancer treatments.
    I am here today to provide a practicing physician's perspective on 
having a comprehensive cancer center in Hawaii. I see three major 
advantages for the establishment and development of such an 
institution. Unlike many other diseases, optimal care of the cancer 
patient requires a coordinated effort by many different disciplines. 
First, having a comprehensive cancer center would provide a setting in 
which such coordinated, multidisciplinary care would be delivered. 
Secondly, a comprehensive cancer center would provide cancer patients 
access to new and innovative cancer treatments. Presently, the majority 
of ``cutting edge'' cancer treatments are administered in major 
academic centers and/or designated cancer centers throughout the 
country. Patients cared for at these institutions have the opportunity 
to receive ``state of the art'' treatment. The presence of a 
comprehensive cancer center here will make it much easier to attract 
and conduct such studies in Hawaii and, thus, give our patients similar 
opportunities. Lastly, a comprehensive cancer center in this community 
is likely to enhance the knowledge of the medical professional caring 
for cancer patients. Such an institution would attract notable 
researchers and academicians. This, in turn, may result in training 
programs for young physicians and paramedical personnel creating an 
environment, which nurtures learning and research. Continuing medical 
education programs would improve, all being focused and, hopefully, 
resulting in enhancing the medical professional's knowledge base.
    Finally and probably most important, Hawaii's unique and diverse 
ethnic population creates fertile ground for the study of cancer. 
According to the 2000 U.S. Census, Hawaii leads the nation with 41.6 
percent of its 1.2 million people reporting an Asian heritage. This is 
significant because as a small state, Hawaii has the fourth highest 
percentage of foreign-born residents in the United States. The National 
Cancer Institute's cooperative network of institutions conducting 
cancer clinical trials is always interested in the treatment responses 
and toxicities information contributed by Hawaii's ethnically diverse 
participants The development of a comprehensive cancer center would 
generate clinical research information on ethnic differences in 
treatment responses and toxicities that would not be available 
elsewhere in the nation and would thus have far-reaching implications 
both nationally and internationally.
    Before closing, I would like to share a case of mine with you.
    JM is a Laotian male of immigrant parents who attended a local high 
school and after graduation went on to attend a community college here 
in Honolulu.
    During his first year in college, he was diagnosed with colon 
cancer. After the tumor was removed, he received six months of 
chemotherapy. At the completion of his treatment, he resumed his 
college education, but eight months later developed a recurrence of his 
cancer. Despite receiving additional chemotherapy, his cancer 
progressed. Inquiries were made to several cancer centers on the 
mainland. Although he was eligible for investigational therapy, he was 
not able to go due to financial restraints. He has received no further 
therapy.
    I don't know if JM would have benefitted from further therapy. 
However, it is unfortunate that he did not have the opportunity to be 
treated. This case is but one example of many patients not having 
access to innovative and potentially beneficial treatment. For those 
who can afford such treatment, most will absorb the cost in time and 
money to seek out treatment outside of Hawaii.
    In closing, as a practicing community oncologist, I fully support 
any effort to establish and develop an NCI approved comprehensive 
cancer center in Hawaii as an extension of the Cancer Research Center 
of Hawaii. As I see it, the potential benefits clearly outweigh any 
potential risk but, more importantly, we owe it to our patients who 
truly believe, and rightfully so, that research brings them hope.
    Thank you very much for your attention.

    Senator Inouye. Thank you very much, Dr. Cho.
    Dr. Okamoto, what is the nature of your relationship, the 
Queen's Health Systems relationship, with the Burns Medical 
School University of Hawaii and the cancer center?
    Dr. Okamoto. What is Queen's Health Systems relationship 
with the John A. Burns Medical School and the Cancer Center of 
Hawaii?
    Our relationship has been traditionally a committed one and 
going forward, also a committed one. We have a very close 
partnership with the University of Hawaii. We are a significant 
contributor to its teaching faculty. We have many joint 
programs in the recruitment of the best and brightest 
physicians and researchers. For example, together we are able 
to attract a Dr. Chang, of national reputation, to do research 
using a three test MRI, which will put Hawaii on the map as one 
of the few with that kind of technologic capability. We also 
have contributed a large sum of money to kick start the 
Department of Native Hawaiian Health, focusing on the health 
needs and disparity among Native Hawaiians. So, clearly, an 
active ongoing program and we have great confidence in its 
leader, Dean Cadman.
    In a similar vein, we have had a long-standing relationship 
with the Cancer Center of Hawaii. As you probably know, the 
Cancer Center has been on a long-term ground lease on the 
campus of the Queen's Medical Center for probably no more than 
a few dollars a year, if even that much.
    Our proposals to the cancer center have also been looking 
at some joint projects that will enable them to build their 
research capacity in land contiguous with the medical center 
taking advantage of the built-in clinical capability that we 
have presently on the campus.
    We are big supporters of the importance of research and its 
application to good clinical care.
    Senator Inouye. I assume that all three of you are 
supportive of the center, this project. Now have you had any 
working relationship in the planning and design of this new 
center?
    Ms. Langcoan. At Hawaii Pacific Health, we have been in 
active discussions with Dr. Vogel regarding what the center may 
look like, what it may be comprised of, and most importantly 
how it will partner with other health care providers in the 
community.
    Senator Inouye. Are you satisfied with the progress?
    Ms. Langcoan. Thus far, yes.
    Senator Inouye. Dr. Okamoto.
    Dr. Okamoto. We have not been. We have made a decision, 
Senator Inouye and Senator Akaka, that it is not in the public 
interest to create duplication of technology, to attract health 
care knowledge workers that are in extreme shortage in Hawaii, 
and that what we ought to do is to try harder, through good 
leadership and a program, and move away from the concept that 
the Cancer Center is brick and mortar, but to look at the 
concept that cancer is about a program that integrates existing 
providers through perhaps contractual and other business 
relationships to build on what we already have, and that way 
take the kind of research that Dr. Cho mentioned directly to 
the patients in their community as opposed to centralizing all 
of this at one site.
    Senator Inouye. Dr. Cho, am I correct to assume that the 
medical society in Hawaii is fully supportive of this project?
    Dr. Cho. We have the organization, the Society of Clinical 
Oncologists, that has actually had several discussions with Dr. 
Vogel. The Cancer Center leadership has been very sensitive to 
the feelings of the community physicians in terms of the 
development of a comprehensive cancer center.
    Hawaii is just very unique, as you know, in that it's a 
community-based clinical research organization in that the 
cancer center has kind of been the driving force. And again 
throughout--at least on several occasions, we've had 
discussions with Dr. Vogel in terms of planning and how best to 
incorporate a partnership between community physicians and the 
comprehensive cancer center.
    Senator Inouye. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Ms. Langcoan, in your statement you mention how unique 
Hawaii is and the kind of benefits that come about because of 
Hawaii. And you mentioned that next to Utah, Hawaii offers the 
most robust concentration of multi-generational families who 
have lived in the same environmental area over the years.
    Can you describe to this committee the significance of 
conducting genetic cancer research in an area such as Hawaii?
    Ms. Langcoan. Okay. I'll do my best. I'm not a scientist. 
But my understanding is that, in looking at some of the genetic 
links and the triggers that may cause a person's genetic makeup 
to result in a cancer where other individuals may not be; they 
may have been exposed to the same environment or same materials 
and not develop cancer, to understand the triggers you need to 
understand family histories and have multiple generations of 
mapping of their genes to understand which gene may be the weak 
link, so to speak. So you need to have control over as many 
different factors as possible in the study of participants 
environment, diet, and other activities.
    So families that all live in the same area, generally 
having the same diet structure, generally being exposed to the 
same environmental impact, have fewer variables for the 
researcher to study. And because of our geographic isolation, 
and the lack of in and out migration, we tend to have that in 
great numbers here? Many generations sometimes live in the same 
household not only in the same area. And to couple that with 
being able to get multiple generations within different ethnic 
groups, that does not exist anywhere else in the world, 
including Utah where you will have multiple generations maybe 
only in a single ethnic group.
    Senator Akaka. Dr. Okamoto, you mentioned about community-
based strategy that's in need of working together in 
communities. Can you describe the impacts that cancer is having 
on our communities and what needs to be done to improve access 
to early detection and treatment to help increase the survival 
rates for people affected with cancer? And I think you 
mentioned that the Hawaiians were one of these who didn't have 
early detection.
    Dr. Okamoto. Yes, Senator Akaka, I will be glad to. I don't 
know whether I can address all of the questions you've asked of 
me, but let me borrow on my direct experience at Queen's with 
Moloka'i General Hospital. It is a hospital that we own and 
operate. We assumed--acquired it from the community when its 
doors were about to close back in the late 1980s. As you know, 
Moloka'i has a large population of Native Hawaiians, I think 
more than 60 percent. But, with it, unfortunately, on that 
island there's a high degree of poverty. So to talk about 
health disparities and to talk about the at-risk population, I 
think Moloka'i meets those criteria.
    Our strategy on that island is really to emphasize the 
importance of primary care, to support those efforts that go 
into primary care, to work with the community on helping them 
understand the responsibility of families and individuals, 
employers, even ourselves at Moloka'i General Hospital, to 
embrace healthy lifestyles and to incorporate in that healthy 
lifestyle thinking and behavior, the idea that prevention and 
preventative tests are important. We are not there yet. We have 
a way to go to develop that infrastructure that really says to 
the community, and working with the community, that we are 
actually implementing that philosophy which we embrace.
    I think one of the problems that we have seen in Hawaii, 
not unlike other regions of the country, is that we have become 
very medicalized and we believe that having a medical 
establishment in terms of brick and mortar is one way to 
address any national interest on health. And when we look at 
the amount of our gross domestic product that goes into health 
care and our longevity, there is a disconnect because there are 
many nations around the world who have, I believe, addressed 
more basic fundamental health concerns that affect longevity 
and, in doing so, also promote the idea of early cancer 
detection and care.
    Senator Akaka. Dr. Cho, on accessing clinical trials, there 
has been difficulty of residents having their access to 
clinical trials. What is needed to expand access to these 
trials and the impact that expanding access would have on 
cancer research?
    Dr. Cho. Well, clinical trials have, as you know the 
background, the backbone of everything we do in cancer therapy 
and other aspects of cancer. And there are many obstacles to 
access in clinical trials. There's physician barriers, there's 
financial barriers, there's geographic barriers. And Hawaii, 
being small and somewhat isolated, creates a very unique 
situation in terms of neighbor islands, in terms of how 
community practice is done, and the lack of a comprehensive 
cancer center for patients to go to.
    So there are a number of barriers in Hawaii. But 
surprisingly, in terms of on a national level, we do fairly 
well in terms of accruing to clinical trials, but certainly 
well below what we should be attaining in terms of clinical--
access to clinical trials and studies.
    Senator Inouye. Thank you very much. And I'd like to thank 
all of you. Thank you.

STATEMENT OF HON. ED CASE, U.S. REPRESENTATIVE FROM 
            HAWAII

    Senator Inouye. Now it's my pleasure to call upon a very 
distinguished Member of the Congress of the United States who 
represents us, the Honorable Ed Case of the U.S. House of 
Representatives.
    Mr. Case. Senators Inouye and Akaka, it's good to see you 
here. Good to be home--I think we all feel that way--and spend 
some time with our mutual constituents. And members of the 
Senate Appropriations Subcommittee on Labor, HHS, and 
Education, Chair Specter, and ranking member Harkin and staff, 
it's good to have you here as well. Good morning and aloha.
    I know that I join all of Hawaii, and especially the 
600,000 citizens of our United States that I represent in 
Hawaii's Second Congressional District, in thanking you for 
coming to Hawaii, for bringing this crucial subcommittee to 
Hawaii, and for taking the time to see for yourselves what we 
need and also what we're doing.
    I have submitted to the subcommittee some extended 
testimony. It's too long for me to read. I would ask please 
that it be inserted into the read.
    Senator Inouye. No objection. So ordered.
    Mr. Case. But what I'd like to do here is just highlight 
some of the high points and try to give you a big picture 
overview of the jurisdiction of this subcommittee as I believe 
it impacts my Second District. And let me first of all paint a 
big picture which both of you know very well, as you have 
represented my district a lot longer than I have. It's part of 
your district as well. But perhaps for the subcommittee's 
edification, I'd like to put my remarks in context so you can 
understand why Federal assistance is so crucial in this area 
and why it has to be structured in a way that works in terms of 
the nature of delivery in the Second Congressional District.
    Of course, physically the Second Congressional District is 
not an urban district. It is a suburban and rural district. It 
encompasses all of Hawaii, with the exception of urban 
Honolulu. So most of this island's suburban and rural parts as 
well as the rest of Hawaii, all the way out to the northwestern 
Hawaiian islands--although I don't think the subcommittee has 
too much jurisdiction out there. But it is clearly, in that 
sense, not unlike other congressional districts in having 
suburban and rural constituents.
    However, there are distinguishing factors that we all need 
to understand about the Second Congressional District. First of 
all, a very simple fact. It is an island district, unlike many 
parts of our country, in fact most parts of our country. And 
because it is an island district, because it's geography 
creates some specific conditions and challenges, the delivery 
of services by our Federal Government to my district has to be 
a little bit different as well.
    Let me give you a perfect example of this in terms of how 
the Congress and the administration, 5,000 miles away, can 
sometimes have good intentions without actually understanding 
what we actually need in Hawaii.
    We are fighting again the battle over Essential Air 
Service. This is a provision of Federal law which assists rural 
isolated communities in ensuring air transportation services, 
and we, in Hawaii, benefit from that provision of Federal law.
    Last year there was an amendment introduced into the 
Congress which essentially had a good intention. It said that 
if an Essential Air Service hub was less than, I think, 100 
miles from a major transportation hub that essentially either 
EAS should not apply or it should be subsidized in some way. 
The idea was a good one. If you're close to a major 
transportation hub, why are you so isolated? Why are you so 
rural?
    But let's take the example of Moloka'i. Moloka'i, as the 
crow flies, is a distance of 40 miles from Honolulu 
International Airport. But, guess what? It's across water, so 
there's no other way of getting there. So you go to somebody in 
Kalaupapa, which is an EAS community, and say: Well, sorry, 
you're out of luck because you're 40 miles from Honolulu 
International Airport, you can get there some other way: It 
doesn't work.
    That kind of thinking applies throughout the Second 
Congressional District. Geography dictates how we deliver 
services in our district.
    The second unique quality of the Second Congressional 
District, which is true throughout Hawaii, but particularly in 
the Second Congressional District, it's already been made 
reference to, and that is just our ethnic diversity; one of the 
highest proportions of Americans of Asian ancestry, the highest 
number of Native Hawaiians, the highest number of Filipino 
Americans throughout any congressional district, and that also 
creates specific needs which have already been well addressed.
    Let me address, briefly, a couple of the areas within this 
committee's jurisdiction and just kind of provide a rapid tour 
of the universe as it affects my district.
    Let me talk about education first. And let me start out by 
saying, unequivocally, that I believe education is, to my 
constituents, on balance, the number one priority in our 
district. And I believe that it should be the number one 
priority in our district. And the challenges are many and the 
opportunities are many. I'll just mention a couple very 
briefly.
    First of all, the number one problem in education, in my 
district, I believe, is Federal mandates which are not fully 
funded. I'm referring to ``No Child Left Behind'' and the 
Individuals and Disability Education Act, both of which are 
Federal mandates, both of which are Federal laws, good Federal 
laws. I believe in these Federal laws.
    But the problem is that they are not fully funded. So it's 
of great concern to all of us that the administration again has 
short funded ``No Child Left Behind'' by $10 billion in its 
current budget. The IDEA share is now only 22 percent of the 40 
percent originally promised. This creates problems of funding, 
but it also creates major problems to our States, because our 
States still have to comply with the Federal laws and find 
other ways to do it that take resources away from other parts 
of education unfairly and from other parts of the funding of 
State operations.
    Also, the flexibility that is needed in the administration 
of ``No Child Left Behind'' is something that we have to use to 
adjust to local circumstances. Superintendent Hamamoto, earlier 
this year, had to deal with the problem of Kupuna, the great 
Kupuna program, having to comply with the dictates, or possibly 
having to comply with the dictates, of No Child Left Behind, so 
that you would have these great Kupuna who wanted to teach 
Native Hawaiian culture and affairs to the students and yet 
didn't meet the technical qualifications of ``No Child Left 
Behind'' because they weren't, quote, unquote, ``certified.'' 
They were great teachers but they just weren't certified. 
That's the kind of flexibility that we need with ``No Child 
Left Behind'' to make it work.
    School facilities is an incredibly important part that has 
already been made reference to. And I want to particularly 
mention the 3Rs program that Senator Inouye was so 
instrumental--and, Senator Akaka, you as well--in starting up 
and seeing through really to an operational level.
    The 3Rs program has been a very successful approach that we 
have tried to use collectively to provide for a much greater 
extent of contributions to our backlog in terms of facilities. 
One of the major successes over the last year, of course, has 
been the fact that the Native Hawaiian Education Act has been 
provided, through the Native Hawaiian Education Act, $1 million 
of funding for targeting school facilities that have a high 
population of Native Hawaiians in them. That is a tremendous 
result, a tremendous advance forward in terms of the 3Rs 
program that I commend both of you and certainly commit to 
following through as much as I can.

                            CHARTER SCHOOLS

    Let me mention charter schools because I think anybody who 
has been in charter schools understands both the needs and the 
opportunities available for public education in our State. And 
this is particularly important in those charter schools in the 
more rural areas and those that service Native Hawaiian 
populations. You can't help but go into some of the Native 
Hawaiian charter schools in our State and be absolutely 
impressed, absolutely awed by how much is done with so little.
    Clearly, our Federal Government has a role in assisting 
charter schools and I'm happy to say that this administration 
has supported that particular role with a maintenance of good 
solid funding for our charter schools. We all need to work on 
this. Charter schools, I think, are where the future public 
education lies in our State and in our country and we need to 
help them along.

                               IMPACT AID

    Impact aid, as you well know, Senators, has been a major 
challenge for us in Hawaii and other parts of our country which 
have large military facilities, large military presences. The 
whole idea of impact aid is a good and fair one, which is that 
as our Federal Government, through its military, utilizes our 
public schools, it also recognizes an obligation to contribute 
to the operation of those public schools. We have all spent a 
lot of time and effort trying to get that level of funding to a 
fair level of funding. We're getting there.
    Unfortunately, in the current budget, there is simply level 
funding provided, so it doesn't account for inflation, it 
doesn't account for the possibility of increased activity by 
our military in our public schools here. So this is something 
that I think we're all going to have to fight hard for. It 
certainly impacts the Second District in a community such as 
Wahiawa, which have a large military population.

                              HEALTH CARE

    Let me first say that I completely endorse the colleagues 
who spoke before me in their efforts to support the Cancer 
Research Center and other types of research in terms of health 
and needs for Hawaii in the Pacific to lead the way for our 
country. The Cancer Research Center, although located in the 
First Congressional District, is a Hawaii issue. It helps all 
of us in Hawaii. It is a tremendous asset to our State. We all 
need to support this, regardless of where we live. And I 
definitely want to add my endorsement of that.
    I also very much support the comments, especially by the 
previous panel, particularly Dr. Okamoto, on local delivery of 
health services. The centralized large hospital model which is 
prevalent and even depended upon in many large urban areas of 
our country, or even suburban areas with access to urban areas, 
doesn't work in a place like Hawaii, especially given the 
geography.
    In a place like Hawaii where you are--especially in my 
Second Congressional District--where you are dealing with 
geographical distance, where you are dealing with isolation, 
local delivery of health services, at least at a primary care 
level, is the way to go.
    The advances here have been in community health centers and 
other smaller primary care, preventative care-oriented types of 
delivery of health care services. The Waianae Coast is a 
perfect example. We spoke also about Moloka'i. We need to 
expand our community health center approach. We need to take 
them into places like West Hawaii, which now wants to develop a 
community health center, North Oahu and Hau'ula or Laie which 
want to develop a community health center. That's the way to 
develop health care as we go forward. And that is another area 
in which I'm happy to say that the administration has 
recognized the value in a substantial increase in funding in 
its current budget for community health centers, and I believe 
we very much collectively should be supporting that initiative 
by the Federal administration.
    I can't not mention, Senator Inouye and Senator Akaka, your 
great efforts on drug abuse and especially the discouraging of 
ice. It is a risk that we all face in letting that slip away 
from our public consciousness. We've achieved so much in the 
last couple of years collectively. We got the administration to 
agree to significantly higher levels of funding.
    Senior Inouye, you were instrumental in getting delivery of 
that to parts of the Second Congressional District, the Big 
Island. In expanding it, Senator Akaka, you also worked very 
hard on that and you should be recognized for that.
    We can't let this issue die. We have to keep going on this.
    So, here again, there is some great concern that the 
current administration's budget for fiscal year 2005 proposes a 
3 percent decrease in Department of Justice funding. That 
clearly would have an impact on some of the drug abuse programs 
that have been so instrumental in fighting drug abuse 
generally, and ice specifically, in Hawaii.
    Two other areas. In the area of human services, I have to 
stop and highlight the great efforts by our community action 
programs on all of the islands: The Big Island Community Action 
Program, MEO, Maui Economic Opportunity, and comparable 
programs on Kaua'i and Oahu. These are nationally recognized 
programs.
    It is important for us all in Hawaii to realize that we are 
on the cutting edge of community action programs in our entire 
community. MEO, just last year, was recognized as one of the 
top four community action programs in the entire national 
country. The Big Island Economic Opportunity Program, which I 
believe your subcommittee is visiting tomorrow, was just 
awarded one of just a few grants for developing overall 
strategies to get people off of government assistance. This was 
a grant that was hotly competed for. It came down to just a few 
of them. Big Island got it. So we obviously have something good 
going here that doesn't only work in Hawaii. It works for the 
entire country and we need to support that.
    Finally, I do want to endorse comments made earlier and the 
praise provided to Representative Abercrombie on his jobs fair. 
It is very important that we recognize that as employment 
opportunities look up in Hawaii, job training, workforce 
training is going to be key to keeping those jobs in Hawaii. 
The construction industry is a particularly important area to 
do that in.
    But I also want to highlight in the Second Congressional 
District the continuing effort to develop dual use technology, 
economic development, development that is headquartered around 
some of our military installations, PMRF on Kaua'i, Kihei on 
Maui, on the Big Island now in the increased military 
investment at Pohakaloa. These give us opportunities for dual 
use technology development in military research, defense 
communications, astronomy, and all of these areas. We need the 
same kind of approach in terms of workforce training, workforce 
development in these areas. So whatever we can do in Congress 
to provide Federal assistance for workforce training is 
something that is going to pay off big time in terms of 
productive jobs being retained in Hawaii.

                           PREPARED STATEMENT

    I've rushed it. I've got a lot to say. I'm sorry about 
that. The testimony is there. Again, I just simply want to 
thank both of you, Senators Inouye and Akaka, for caring. You 
have done such a tremendous job, along with Representative 
Abercrombie, in the areas under the subcommittee's 
jurisdiction. But we've got a long laundry list to continue to 
work on. We're half way along and we've got to keep it going. 
And I certainly stand ready, willing and able to help you in 
whatever way I can. Mahalo.
    [The statement follows:]

                   Prepared Statement of Hon. Ed Case

    Chairman Specter, Ranking Member Harkin, Senator Inouye, and 
Members of the Subcommittee: Aloha! I want first to extend a deep and 
sincere mahalo to the Senate Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies for holding 
this hearing here in our Hawai'i. Your Subcommittee's support of so 
many vital programs throughout Hawai'i over the years, your recognition 
and accommodation of our often unique needs, and your effort to travel 
so far to learn firsthand the impressive results of the programs you've 
funded and the many challenges we still face, is greatly appreciated by 
all of the 1.3 million citizens of the proud Fiftieth State.
    Overview.--I represent Hawai'i's Second District, which includes 
all eight of the major islands of Hawaii, as well as the Northwestern 
Hawaiian Islands. The only area of Hawai'i I do not represent is urban 
Honolulu.
    The Second District is predominantly suburban and rural, and much 
of it is also very isolated. In these characteristics, it is not unlike 
other such districts throughout our country, where federal assistance 
is often vital to assuring a basic quality of life to residents without 
access, physically or economically, to opportunities and services 
available in our country's urban cores.
    But Hawaii generally and my Second District specifically is also 
virtually unique in other ways. First, of course, Hawaii is one of the 
few regions of our country which is an archipelago, with its residents 
separated by water. This creates unique challenges requiring unique 
solutions.
    For example, Kaunakakai on the Second District's Island of Moloka'i 
is only about 40 miles from Honolulu, but the services available in 
Honolulu are not readily accessible to the people of Moloka'i. Incomes 
are low on Moloka'i and interisland flights are scarce and expensive. 
Therefore, Moloka'i residents are extremely dependent on locally 
available services in health care, education, and job training.
    Hawai'i generally and my Second District specifically are also 
among the most ethnically diverse in our entire country. Minorities 
make up more than half of our population, including the highest 
percentage of Asian and Pacific Islander populations in the nation. We 
have 20 percent of our population comprised of Native Hawaiians, our 
state's indigenous population. And Hawai'i ranks third of all states 
for the highest percentage of persons born outside of the United 
States. Thus, delivery of services by our federal government is most 
effective when designed with an understanding of language and cultural 
barriers that might exist. This Subcommittee has shown great 
sensitivity to this need in the past by funding targeted services to 
meet the special needs of Native Hawaiians, including the Native 
Hawaiian Education and Health Care programs.
    In this context, I am delighted to learn that Subcommittee staff 
has already taken the opportunity to visit our schools and health 
centers, as well as various programs at the University of Hawai'i. I am 
especially pleased to know that you will be visiting tomorrow my home 
Island of Hawai'i, where so many of the challenges as well as 
innovative solutions which offer examples for our entire country are 
centered.
    Priorities.--I would like to take this opportunity to outline what 
I see as priority areas for Hawai'i generally and my Second District 
specifically in the areas under your Subcommittee's jurisdiction.

                               EDUCATION

    Education should be, and is, our primary challenge and top 
priority. This is particularly true throughout the Second District 
because of the factors described above. Here are some of the primary 
areas where targeted federal assistance will make a huge difference.
    Native Hawaiian education.--Among the most exciting developments in 
the field of education is the evolution of an emphasis on Native 
Hawaiian education, which centers on Hawai'i's indigenous population, 
and the creation of programs uniquely tailored to meet the needs of 
this community.
    At the federal level, the Native Hawaiian Education Act, which 
currently consolidates six grant programs (Native Hawaiian Family-Based 
Education Centers; Native Hawaiian Curriculum Development, Teacher 
Training, and Recruitment; Native Hawaiian Gifted and Talented; Native 
Hawaiian Higher Education; Native Special Education; and Native 
Hawaiian Community-Based Education Learning Centers) is one of the most 
important contributions. I fully support and commend President Bush for 
requesting full funding at $33 million for fiscal year 2005, the same 
level funded in fiscal year 2004. Senator Inouye was instrumental in 
the Act's establishment and funding all these years. It is notable that 
we finally have the full support of the Department of Education.
    To assist the state in Hawaii's 3R's projects, the Native Hawaiian 
Education Act recently authorized $1 million to be used for 
construction repairs at public schools with significant numbers of 
Native Hawaiian children, many of which are located in my district. 
These funds are badly needed. I understand that out of 72 projects that 
the state is currently considering as part of its construction 
projects, 36 are in my district, including Wai'anae Intermediate, 
Nanakuli Elementary and High School, Blanche Pope Elementary, and 
Kaunakakai Elementary. Total costs for schools in my district would be 
$1,058,893 out of $2,292,482 statewide.
    I would also like to express my support for the University of 
Hawai'i Law School's efforts in developing a program in Native Hawaiian 
law. I understand that $300,000 has been appropriated as seed money. 
The program's objective is to provide outreach on Native Hawaiian 
rights to the community and schools at all levels, to promote the 
development of Native Hawaiian rights, and to provide an archive of 
Hawaiian records through digitalization in conjunction with Hamilton 
Library and other parties.
    Charter schools.--As an ardent advocate for Hawaii's charter 
schools, I fully support the President's fiscal year 2005 request for 
$219 million for charter schools funding. I was extremely pleased that 
President Bush's fiscal year 2005 budget requests $100 million for 
much-needed credit enhancements for charter school facilities.
    As I travel around my district, from Kanu O Ka 'Aina in Kamuela on 
the Big Island of Hawai'i to Kula Aupuni Ni'ihau A Kahelelani Aloha in 
Makaweli on the Island of Kauai, I hear two main concerns from the 
charter schools: (1) obtaining more assistance for facilities and (2) 
ensuring federal IDEA and Title I funds are properly dispersed to 
charters. Clearly construction funding is one of the greater challenges 
facing our charter schools locally and nationally. It is my hope that 
we can see increased federal funding for these projects and an 
extension of Hawaii's 3R's program to include charter school 
construction projects.
    I am also very excited about the state's new and innovative public-
private partnerships law, which I cosponsored as a state legislator, 
that will allow qualified nonprofits such as Kamehameha Schools to 
partner with various charter schools to help more Native Hawaiian 
children. This new partnership allows conversion charter schools, such 
as Waimea Middle School, to receive much-needed funding and 
instructional support from Kamehameha Schools. As you can see, Hawai'i 
is building on Congressional support for charter schools and continues 
to seek innovative ways to support the creation and success of these 
schools.
    NCLB/IDEA.--I would also like to take this opportunity to express 
my strong support for the goals of the No Child Left Behind (NCLB) Act 
and for the federal commitment to provide 40 percent of the total cost 
of the Individuals with Disabilities Education Act (IDEA). However, I 
believe that there has been a severe short-funding of these two 
critically important laws that creates a terrible burden on states and 
leaves true education reform out of reach.
    I am disappointed that the President's fiscal year 2005 budget 
proposes to fund NCLB at $9.4 billion under authorized levels. Since 
NCLB was signed into law, it has been underfunded by $26.5 billion or 
21.7 percent. I am also very dismayed that the budget only requests an 
increase for IDEA of $1 billion, which does get the federal government 
more than halfway to full funding (40 percent) for our special needs 
children, but still more than $36 billion short of full funding. While 
the budget represents a small increase in education funding, I would 
strongly urge the Subcommittee to substantially increase NCLB and IDEA.
    Besides being an unfunded mandate, NCLB and its one-size-fits-all 
regulations, formulated 5,000 miles away from Hawaii, do not always 
work in my district. There needs to be more flexibility for rural areas 
such as Hana, an extremely isolated community on Maui that qualifies 
for Essential Air Service because of its remoteness. Teacher retention 
is a big issue for Hana Elementary and High School and all my schools, 
and NCLB further exacerbates the problem. As you know, under NCLB a 
teacher who has a degree in only one content area is not considered to 
be ``highly qualified'' to teach more than that particular content 
area. This should not apply to a rural isolated school with a limited 
amount of teachers that is forced to use one teacher to teach a 
multitude of subjects.
    Impact Aid.--As you travel around Hawaii, you will undoubtedly note 
our large military population. As military action continues in 
Afghanistan and Iraq, and with Hawaii a major component of the 
military's transformation into a quick response unit, it is now more 
important than ever to give the necessary support to our military 
families and to strengthen the Impact Aid program to directly reimburse 
the state for the loss of traditional revenue sources due to the 
military presence.
    I was dismayed that the President's budget calls for level funding 
in fiscal year 2005, which will not account for inflation, and will 
likely jeopardize services and programs for these families. I would 
strongly encourage the Subcommittee to support our state and our 
military families by increasing funds for Impact Aid.

                                 HEALTH

    Challenges we face in regard to healthcare are as unique as each of 
our islands. We share the concerns of other rural areas in our nation 
in terms of healthcare access, delivery, and quality. However, we must 
again take into account our geographic isolation, not only from the 
contiguous United States but also from our neighbor islands to the 
Island of O'ahu, as well as our multicultural population which deserves 
culturally sensitive and linguistically appropriate healthcare.
    Community health centers.--We all know that community health 
centers improve the health of our nation by providing comprehensive 
primary and preventive health care services to underserved populations, 
regardless of their ability to pay. Our community health centers play 
an even larger role in our rural communities where options and access 
are severely limited.
    I support President Bush's fiscal year 2005 budget request of $219 
million to help our community health centers extend services to an 
additional 1.6 million individuals. New health centers in remote 
communities need our continued support, and I am hopeful that such 
funds could aid in the establishment of community health centers in 
areas like West Hawai'i and North O'ahu or further the development of 
Moloka'i 'Ohana Health Care.
    I appreciate that the Senate Appropriations Committee has 
recognized that federal community health center funds are often not 
available to small, remote communities in Hawai'i because our 
population base may not be large enough to meet particular 
requirements. I agree with the Committee's recommendation that the 
Health Resources and Services Administration examine its regulations 
and application procedures to ensure that they are not unduly 
burdensome and are appropriately flexible to meet the needs of our 
distinctive communities. I further join the Committee in supporting 
increased use of telemedicine to maximize resources and collaborative 
communication.
    Minority healthcare.--It has been empirically demonstrated that 
minority populations across our nation disproportionately lack access 
to quality healthcare. For example, minority groups are less likely to 
have health insurance and are less likely to receive appropriate 
healthcare services. These communities are also significantly 
underrepresented in our healthcare workforce. I am fully committed to 
the elimination of racial and ethnic disparities in healthcare access, 
quality, and in our healthcare workforce, because we all deserve equal 
treatment when it comes to our health. I believe that the Cancer 
Research Center of Hawai'i serves as a shining example of how we can 
nationally strive to better serve our multicultural populations.
    I would like to especially commend the Senate Appropriations 
Members and staff for their efforts on Native Hawaiian health care. I 
know that fiscal year 2004 saw a welcome increase in funding of $12 
million for the Native Hawaiian Health Care Program. I hope that this 
level of funding is either maintained or increased for fiscal year 
2005. Health education, disease prevention service, and primary care 
services for Native Hawaiians is a key objective, and Papa Ola Lokahi 
has done an excellent job in employing a culturally appropriate 
strategic plan in cooperation with the Native Hawaiian health care 
systems that serve the Hawaiian community on all of the islands in the 
state. An important component of the Act is the Native Hawaiian Health 
Professionals Scholarship Program, which seeks to increase the number 
of Native Hawaiians in health care professions. I believe that this is 
consistent with national efforts to increase the number of 
underrepresented minority populations in health professions.
    Drug/ice abuse.--General drug abuse, of course, has plagued many of 
our communities for decades. We know that the roots of drug abuse lie 
largely where educational and economic opportunity are lacking and the 
social and community fabric are torn. Thus, in the big picture and long 
term, our best efforts to stamp out drug abuse lie in fixing our 
economy, improving our schools, and strengthening our families and 
communities.
    I commend the work of this Subcommittee in providing assistance for 
a major rural health concern: fighting our crystal methamphetamine 
epidemic. We all know that the true solution to the scourge of ice lies 
in supporting the efforts of our law enforcement officers, preventing 
drug use through education, and providing local rehabilitation options 
to treat the disease of addiction. I agree that it is up to our federal 
government to take the lead on this issue as it is the only entity with 
the full resources and ability to coordinate this indispensable multi-
pronged approach to stamping out drug abuse.
    Most encouraging, whole communities are rising up across our state 
to say: yes, ice is our problem, and we must all be part of the 
solution. Kahaluu on the Island of O'ahu was the first community to 
hold ``ice breaker'' meetings and start sign-waving efforts. My own 
home island, the Big Island of Hawai'i, will soon be holding its third 
islandwide ``Hugs Not Drugs'' sign-waving campaign, which in the past 
has had the support of over one thousand citizens from twenty-three 
communities and neighborhoods. I am also happy to report that the 
Coalition for a Drug-Free Lana'i, the North Hawai'i Drug-Free Coalition 
Network, and the West Kaua'i Community Coalition are all recipients of 
grants provided under the Drug-Free Communities Support Program in 
2003.

                             HUMAN SERVICES

    My district also has a large population of financially 
disadvantaged families, all of whom have great needs ranging from job 
training to transportation to child care. Hawai'i's geographic makeup 
is in and of itself a barrier to seeking employment in other states or 
other islands.
    Community action programs.--However, Hawai'i's Community Action 
Programs are doing a tremendous job servicing the needs of the entire 
community and are making lives better through job training, Head Start 
centers, even offering a local bus service. We currently have four 
extremely successful Community Action Programs; Honolulu Community 
Action Program (HCAP), Maui Economic Opportunity (MEO), Hawai'i County 
Economic Opportunity Council (HCEOC), and Kaua'i Economic Opportunity 
(KEO).
    MEO was recently awarded the ``Award for Excellence in Community 
Action'' by the National Action Partnership. This prestigious award, 
which is given to the top four Community Action Agencies in the nation, 
demonstrates MEO's excellence through the many programs that improve 
Maui's communities and help people change their lives.
    HCEOC has also been extremely successful in obtaining funds to meet 
the community's needs, so much so that it was recently awarded a 
Department of Labor grant for $4.2 million to develop new strategies to 
get people off of government assistance and back to work. There were 
only a handful of these competitive grants awarded and HCEOC was among 
this select group.
    These Community Action Agencies depend on federal support to meet 
the growing needs of the communities they serve. I encourage the 
Subcommittee to fund programs that these agencies rely on at the 
highest possible level. They do pay off!
Labor: Defense and Information Technology-Related Workforce Training
    Many of us have long believed in the potential synergy between our 
nation's increasing military presence in Hawaii and private sector 
research and development in defense and related industries. If and as 
we can realize that synergy, we can ensure development of sustainable 
industries and quality employment, especially on Islands other than 
O'ahu.
    There are already two examples of this potential coming to 
fruition. On the Island of Kaua'i, our country's Pacific Missile Range 
Facility is the largest employer. But now we also see increased 
development of private industry clustered around and servicing as well 
as accessing the facilities of PMRF. Similarly, on the Island of Maui, 
private development centered in Kihei around military-related 
investment has created a solid base of quality employment for that 
island's constituency.
    In large part to this end, for years our state and local 
governments have committed resources to nurturing high tech, 
particularly information technology, development in Hawai'i. In 
response to the aggressive support of our high tech sector, Hawai'i now 
has 19 enterprise zones and a similar number of industrial and 
technology parks. The islands have produced leading edge research in 
genetics, energy, astronomy, oceanography, photovoltaic, and 
climatology.
    As with any state, however, we also have an equal number of 
challenges. Hawai'i generates fewer patents than 45 other states, and 
the level of industry research and development activity trails 41 
states. These challenges are particularly burdensome on Hawai'i's 
military and related industries, which depend on a high tech workforce. 
The military's research facilities include Pearl Harbor, the Maui Space 
Surveillance System on Haleakala, the Maui High Performance Computing 
Center in Kihei, and PMRF on Kaua'i--the worlds largest instrumented, 
multidimensional testing and training range.
    These military research and testing centers depend upon a vibrant 
local workforce. The federal government needs to build long-term 
relationships with our local school and universities, with special 
attention to community colleges on the Neighbor Islands that are eager 
to help educate the next generation of local born and bred high tech 
workers to service defense facilities on their islands.
    Without adequate support, the federal government, and the military 
in particular, will not be able to realize the full potential of their 
operations in Hawai'i, nor the full fruition of the benefits to local 
communities from fully diversified economies. I thus strongly urge the 
Subcommittee to support increased funding for local job training and 
vocation education programs that the President has proposed to cut by 
$316 million for fiscal year 2005.

                               CONCLUSION

    Again, for all of us in the Second District and throughout Hawai'i, 
I express to the Subcommittee my deep appreciation for coming to our 
islands for this hearing and for the support you have given us over the 
years. We look forward to working with you to allow Hawai'i to show the 
way for our entire country in the vital matters within your purview.
    Mahalo, and aloha!

    Senator Inouye. Thank you very much, Congressman. I can 
assure you that your full text will be made part of the record 
and I will be studying and reading that.
    I must commend you for your statement. It was a 
comprehensive one. And when I closed my eyes, I thought I was 
listening to a presidential candidate.
    Mr. Case. Senator Inouye, my ambitions are very direct this 
year. They lie in a different sphere.
    Senator Inouye. I congratulate you on your statement.
    Mr. Case. Thank you.
    Senator Inouye. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to say aloha to our brother Case. Thank you so much 
for your comprehensive statement.
    Mr. Case. Thank you, Senators.
    Senator Inouye. Thank you.
    Now may I call upon the superintendent of the State of 
Hawaii Department of Education, Ms. Patricia Hamamoto, the 
chairperson of the Hawaii 3R's program, Mr. Bruce Coppa, and 
the principal of Kaimuki High School, Mr. Dennis Manalili.

STATEMENT OF PATRICIA HAMAMOTO, SUPERINTENDENT, STATE 
            OF HAWAII DEPARTMENT OF EDUCATION

    Senator Inouye. I first call upon the superintendent, Ms. 
Hamamoto. Before I do, congratulations on your historic 
achievement in addressing the joint session.
    Ms. Hamamoto. Thank you.
    Senator Inouye. Very few of us have had that privilege.
    Ms. Hamamoto. It was an honor. Thank you.
    Good morning, Senator Inouye and Senator Akaka, and 
distinguished guests. Let me begin by first saying mahalo and 
we appreciate this opportunity to testify in front of you in 
living color. It makes a difference being able to do it here in 
Hawaii as opposed to traveling such a far distance to be able 
to convey to you many concerns we have as well as to express 
our appreciation in all that you've done to ensure that Hawaii 
is taken care of.
    This morning my part will be to talk about the 3R's, and 
specific to the 3R's will be the authorization of the $1 
million that now extend to the Native Hawaiian Act to allow 
those schools that have a high impact of Hawaiian children to 
have a facility that we can ensure that we can maximize our 
educational opportunities.
    As you know, the Department of Education is very 
appreciative of the Federal grant given to the Hawaii 3R's to 
repair the military dependent impacted schools. And as it 
began, and we all know the history very well, what began as a 
way to provide the extra support for the military impacted 
schools has provided, for the Department of Education, and vis-
a-vis the State of Hawaii, the flexibility to use resources to 
help other schools in many other areas.
    As time progresses--and I won't go into the details of the 
3R's program because Mr. Coppa is much more articulate and much 
more versed and has quite a lot of expertise and experience, 
and I think he does a better job of explaining the program than 
I could ever do. But for us in the school part, for the 
department, it has allowed us that flexibility to reallocate 
much of our resources to help other schools. It means that we 
continue to put our fair share in helping the military schools 
to achieve that level of safety, of the well being for their 
child, and to ensure that our children, as well as our faculty 
and our parents, are provided with that kind of learning 
environment that will support teaching and learning. It also 
allows us then to provide for our other schools that are not 
heavily impacted by the military presence a sense of 
flexibility that we will have those resources to take care of 
the immediate needs.
    I think when 3R's started, while we understand that it 
deals very heavily and relies on volunteers, it's a partnership 
between the local school, community, the people who work at the 
school, the parents, and most importantly the significant part 
comes from the private or the nonprofit; in this case it may be 
labor unions who provide the expertise and the skills, as well 
as the community and the businesses, and in most instances, the 
military which provides not only the sweat equity but also the 
resources.
    Perhaps--and I don't want to--I refer to it as an 
unanticipated positive outcome but what it has done is it has 
solidified and strengthened the partnerships with the military 
organization and the Armed Forces. It has created that 
connection between the military who do a lot of traveling with 
the home community and it has provided the roots. For our 
children and for the citizens of Hawaii, it has given us a much 
broader and inclusive as well as a very diverse view to share 
with the partners that come in from out of State. And for us, 
in a global society, the ability and the opportunity to 
interact, to engage in the many diverse cultures that come to 
Hawaii make for us a much richer and more robust experience. I 
think it adds value to what we talk about when we talk about 
the aloha spirit and how Hawaii is very unique and what it can 
do and what it has done. And that was also referred to earlier 
by our previous panelists.
    With that, we also understand that with the strong support 
from the military, we have been able to increase the actual 
benefits to the school approximately two and one half times the 
actual monetary grant. And, as you know, this comes in the way 
of the sweat equity, it comes in by donations and contributions 
from the community and the labor unions as well as from private 
businesses. One can of paint goes a long way and one can of 
paint that is donated makes for another can of paint that we 
can use somewhere else.
    The exterior painting project, for instance, at Pearl 
Harbor Kai, and, Senator, you were there. I think it was about 
a year and a half ago. We were both there at that time. The 
renovation of the Quonset hut auditorium project at Hickam 
Elementary and the exterior painting project at Pope 
Elementary. These are just a few of the many, many, many, many 
examples of the benefits provided by Hawaii 3R's and its 
volunteers.
    The Hawaii 3R's program enlisted over 250 volunteers to do 
the work at that one time in Pearl Harbor Kai. And, as we now 
know, with the extension or the authorization of the $1 million 
via the Native Hawaiian Act, we now have approximately--of our 
250 DOE schools, we have over 120 schools that we have 
identified with a native population of more than 25 percent 
that will benefit by what we are now being able to use.
    So as we move down the road into the future, we see the 
3R's program of not having minimum benefit but continue to be 
able to benefit Hawaii and to sustain that kind of ownership 
that the parents, the community and the partners have in the 
school. It primarily is, as you said on that occasion at Pearl 
Harbor Kai--and I don't have the exact quote, but as I remember 
you remarked that the foundation of American democracy was a 
sense of citizenship and volunteerism that makes America as 
strong as it is. And I believe the 3R's program is the example, 
is exemplary, in actually living what citizenship and 
volunteerism is in Hawaii.

                           PREPARED STATEMENT

    With that, I would like to close my portion and turn it 
over to Mr. Coppa who can elaborate more on the 3R's program. 
Thank you.
    [The statement follows:]

                Prepared Statement of Patricia Hamamoto

                           PURPOSE OF HEARING

    To discuss the expansion of the Cancer Center of Hawaii; increasing 
Hawaii's trades program to meet the demand brought about by the 
privatization of military family housing; and the 3Rs program's recent 
authority to utilize Native Hawaiian education funds to repair those 
public schools with significant numbers of Hawaiians.

                         DEPARTMENT'S POSITION

    The Department of Education (DOE) is very appreciative of the 
federal grant given to Hawaii 3Rs to repair the military dependent 
impacted schools. Hawaii 3Rs has made this into a valuable and 
productive program.
    Hawaii 3Rs actively solicited and got the strong support of the 
business and public communities for this program. With its strong 
support and the support from the military, they have been able to 
increase the actual benefits to the schools approximately by two-and-
one-half times the actual monetary grant.
    The exterior painting project at Pearl Harbor Kai Elementary, the 
renovation of the quonset hut (auditorium) project at Hickam 
Elementary, and the exterior painting project at Pope Elementary 
exemplify the benefits provided by Hawaii 3Rs and the volunteers. 
Hawaii 3Rs enlisted 250 volunteers to do the work at Pearl Harbor Kai. 
The $1 million grant from the Native Hawaiian Education Act will enable 
Hawaii 3Rs to extend their impact to other schools. Based on their past 
successes, DOE is looking forward to working with Hawaii 3Rs to 
leverage this grant and improve our schools further.

    Senator Inouye. Thank you very much, Ms. Hamamoto.

STATEMENT OF BRUCE A. COPPA, CHAIR, HAWAII 3R's PROGRAM

    Senator Inouye. May I now call upon 3R Coppa.
    Mr. Coppa. Good morning. Aloha, Senator Inouye and Senator 
Akaka. Thank you so much for coming to Hawaii and having this 
hearing. I'm the executive director of Pacific Resource 
Partnership. Today I'm here as Chair of the 3R's program.
    You know, we also, at Pacific Resource Partnership, along 
with the Hawaii Business Round Table, do a poll on a quarterly 
basis. And in the summer of 2003, the poll indicated clearly 
that education was the top of the line for the citizens of 
Hawaii.
    But, more importantly, the number one issue that people 
were concerned about was our facilities, the repairing and the 
rebuilding of our school facilities, the number one issue. And 
the second issue was our textbooks. So I think it's so 
appropriate that we would be in a library today and also one of 
our projects for 3R's.
    My final comment, just before I get started, you know, I 
was sitting in the chair and I was looking up at that schedule 
up there and it reminded me, as a student in public school, 
that from eight o'clock to two o'clock when you're in public 
school it seemed like a lifetime before the day would end. What 
I wouldn't do today to have a two o'clock day end of the work 
day.
    Anyway, let me just say that it was about 4 years ago the 
State legislature and the Governor and the Department of 
Accounting and General Services was struggling with a mounting 
problem in our schools. It was related to repairs and 
maintenance. We had $640 million of backlog in repairs. That's 
not including what we were looking at in terms of new schools.
    It was at that time that, Senator Inouye, through your 
leadership, we've come up with the program the 3R's. And, 
really, it's a simple concept. We take sweat equity, we take 
the community, as Superintendent Hamamoto pointed out, and we 
capitalize it. We match some money to it. And what we're able 
to do is get almost three times the match for each dollar 
that's donated.
    Let me share with you some of the projects and some of the 
dollars that are being put forward. Since 2001, Hawaii 3R's was 
awarded over $2.3 million for 72 projects statewide, completing 
$5.7 million worth of projects. So, clearly, you can see the 
dollar matched with the sweat equity and the donations from the 
community, whether it's from the churches or from the military, 
clearly, we're able to maximize our capacity.
    Hawaii 3R's has awarded eight grants to Maui schools, four 
to Kaua'i schools, six to Hawaii schools, and two to Moloka'i 
schools. Oahu schools have received 52 grants. Over 1,000 
community members and organizations have participated in the 
Hawaii 3R's projects and continue to contribute to ongoing 
school projects.
    Let me just say at this time, the military, even through 
this time of crisis in the world where they're having to be 
deployed from Hawaii, they continually come up to the plate and 
maximize their ability to help with the school repairs and 
maintenance. Every project we go on you see somebody from the 
military, whether it's at Pope or at Pearl Harbor, they're 
there supporting us. It's amazing to see these young guys and 
girls or women picking up these wheelbarrows of concrete and 
moving it around. It's really a sight to see.
    The State of Hawaii, last year, gave $148,000 to Hawaii 
3R's program with the help of the State legislature, who has 
been very supportive of our program and again maximizing the 
dollar.
    From the Federal side, the military has contributed over 
$600,000 in 2002 and $1 million in 2003 and has pledged another 
million in 2004. So, clearly people, are getting on board. 
We're now going after the private funds because they also see 
the ability to capitalize on their dollar.
    Senator Inouye, I can't thank you enough for that million 
dollars that's coming to the Native Hawaiians and where schools 
of 25 percent or more we're going to be able to expand this 
program. This continuing effort where everyone is working 
together, as the superintendent pointed out, we're clearly able 
to maximize our dollar and put our sweat equity where it really 
goes.

                           PREPARED STATEMENT

    The construction industry has benefited from all of the 
structures we have built here on Hawaii. It's our time to try 
to give back, and if we can do that through sweat equity and 
volunteerism we'll be there. And, again, thank you for your 
leadership, Senator Inouye, Senator Akaka, and members of the 
subcommittee.
    [The statement follows:]

                  Prepared Statement of Bruce A. Coppa

    Good Morning Mr. Chairman: My name is Bruce A. Coppa and serve as 
the Chair of Hawaii 3R's, an organization that serves public schools 
throughout Hawaii by funding repair and maintenance of their 
facilities. I am also the Managing Director of the Pacific Resource 
Partnership and have been in the construction industry for over 30 
years.
    I am here today to first of all thank you for your leadership, 
vision and support of this program. I vividly recall how in 2001 we all 
came together to create Hawaii 3R's to tackle the estimated $640 
million repair and maintenance backlog that faced Hawaii's public 
schools. Because of your support through the Joint Venture Education 
Forum (Department of Defense), and State and private funding, Hawaii 
3R's has awarded over $2.3 million for 72 projects statewide--
completing $5.7 million worth of projects since August 2001.
    Hawaii 3R's has awarded eight grants to Maui schools, four to Kauai 
schools, 6 to Hawaii schools, two to Molokai schools, and 52 grants to 
Oahu schools. More than giving out grants, Hawaii 3R's has been able to 
bring together over 1,000 community members and organizations to 
complete these necessary repairs to their neighborhood schools.
    What makes this program unique is its successful partnership with 
almost every educational stakeholder, from parents to businesses and 
especially the State. Hawaii 3R's works because everyone is working 
together to accomplish the same goal of providing better learning 
environments for our children.
    I would like to highlight the State's involvement. We not only have 
the full support of the State Department of Education, but we also have 
the help of a full-time Department of Accounting and General Services' 
Coordinator. His specific duties and tasks are to make sure that Hawaii 
3R's and the State are working in the most effective and efficient way 
possible.
    In summary, we have done a lot of work in the last few years, but 
we still have a lot to do. The impact of the federal dollars has been 
felt statewide and will continue to help the schools that need it most.
    I would like to thank you for the newly passed legislation through 
the Native Hawaiian Education Act. The $1 million shall be used for the 
renovation and maintenance of schools with a 25 percent or more Native 
Hawaiian students. There are 122 schools that have the potential to 
receive grants from Hawaii 3R's.
    Again, I would like to thank you for your unyielding support of 
public schools through Hawaii 3R's. With your help, we can continue to 
make a difference in the lives of our young people and give them the 
learning environments that they deserve.
    Together we can Repair, Remodel, and Restore Hawaii's public 
schools. Thank you.

    Senator Inouye. Thank you very much, Mr. Coppa.

STATEMENT OF DENNIS MANALILI, PRINCIPAL, KAIMUKI HIGH 
            SCHOOL

    Senator Inouye. Now may I call upon the principal of this 
school. And before I do, I thank you very much for the use of 
your facility. Mr. Manalili.
    Mr. Manalili. Senator Inouye, Senator Akaka, members of the 
subcommittee. I appreciate the opportunity to testify before 
you today in support of the Hawaii 3R's program. I am Dennis 
Manalili, principal of Kaimuki High School. We're honored and 
proud that our school was selected for this hearing. On behalf 
of students, faculty and community, thank you for giving us 
this opportunity.
    Kaimuki High School was built over 50 years ago. Like many 
50 year old buildings, there is a need to repair, remodel and 
restore our school to meet present standards. Our students need 
to learn in a facility that is on a level playing field as 
newer facilities or facilities that have been constantly 
maintained and improved.
    In September 2003, we had a backlog of over 100 projects. 
Although this number is extremely high, there has been 
significant progress in the past few years. To help deal with 
the shortage of State funds, there have been several 
initiatives to reduce this backlog. One of them is the State 
accounting--Department of State Accounting, DAGS, to renovate 
the classroom, the other is the Hawaii 3R's program.
    I have learned that money saved is like money earned. 
According to the 3R annual report, projects completed through 
Hawaii 3R's saved the State $2.5 million. Money saved from 
these projects could be used to provide quality facilities for 
quality instructors to run quality programs.
    For example, at Kaimuki High School, we have one librarian 
and two science teachers who are nationally board certified. To 
provide our librarian and science teachers with quality 
facilities, about $1 million has been appropriated to prevent 
water leaks by replacing and relocating the air conditioners on 
the roof and to establish a science learning center. The 
millions that are saved from Hawaii 3R's could be applied to 
other schools.
    This morning, members of the appropriations committee 
visited projects that were coordinated by Hawaii 3R's. These 
projects included the painting of the school cafeteria, the 
swimming pool utility room, and the music building in 2003, and 
the painting of the ROTC/ESLL building, and nearby portable 
classrooms in 2002. If not for Hawaii 3R's in which there is 
approximately a 3:1 sweat to dollar ratio, only one third of 
the projects would have been possible.
    According to research conducted by Edmonds and Lezotte, 
effective schools are relatively safer, relatively cleaner, 
relatively more orderly, relatively quieter, and so on. The 
differences between effective and ineffective schools were 
relative: The incidence of broken windows does not discriminate 
but the time it takes to fix the window does. It is clear that 
broken windows do not cause either elevated or depressed 
achievement. The relevance of the window is that it's a stand-
in for adult attention to environment. A broken window that 
goes on for a long time without being repaired gives a message 
to everybody that the people who are responsible for the place 
don't care very much about it.
    Well, last year nearly 100 volunteers for our Hawaii 3R's 
project showed that they care and many of them continue to 
support our school. For example, as you enter the library, to 
the right was a display case. That display case was built with 
sweat equity and funds from the Kaimuki High School alumni and 
the Kaimuki High School Foundation and what they have there are 
priceless works of Stuart Mederios who started school here when 
it was built about 50 years ago.
    When I think of the Hawaii 3R programs, I think of a 
television commercial. Cost of refreshments: $50. Cost of 
bentos for lunch, provided by Representative Nishimoto: $500. 
Cost of paint and other supplies, maybe $5,000. But the cost of 
life-long supportive partnerships within the school, with our 
school superintendents, with our legislatures, with our 
governors, and with our national delegation, partnership that 
actively support public education in achieving its vision: 
Priceless.

                           PREPARED STATEMENT

    Mr. Chairman, members of the subcommittee, on behalf of 
Kaimuki High School and other schools and communities, thank 
you for your priceless support to achieve our dream of making 
Hawaii's public schools something that we can be proud of. 
Thank you.
    [The statement follows:]

                 Prepared Statement of Dennis Manalili

    Senator Inouye, Senator Akaka and Members of the Subcommittee, I 
appreciate the opportunity to testify before you today in support of 
the 3R's program's recent authority to utilize Native Hawaiian 
education funds to repair those public schools with significant numbers 
of Hawaiian children. I am Dennis Manalili, principal of Kaimuki High 
School. We are honored and proud that our school was selected for this 
hearing. On behalf of the students, faculty, staff and community, thank 
you for giving us this opportunity.
    Since becoming principal of Kaimuki High School last January. I 
learned that the school's was population was ethnically diverse. About 
70 percent are Asian or Pacific Islanders, and in this group is the 
Hawaiian/Part Hawaiian population, which is about 18 percent, or nearly 
250 students. I also learned that this school was built over fifty 
years ago. Like many fifty year-old buildings, there is a need to 
repair, remodel and restore our school to meet present standards. Our 
students need to learn in a facility that is on a level playing field 
as newer facilities, or facilities that have been constantly maintained 
and improved.
    In September 2003, we had a backlog of over one hundred projects. 
Although this number is extremely high, there has been significant 
progress over the past few years. To help deal with the shortage of 
State funds, there has been several initiatives to reduce this backlog. 
One of them is using State Department of Accounting Personnel (DAGS) to 
renovate classrooms. The other is the Hawaii 3R's Program.
    I have learned that money saved is like money earned. After the 
first year, the projects completed through Hawaii 3Rs saved the state 
about 2.5 million dollars. Moneys saved from these projects could be 
used to provide quality facilities for quality instructors to run 
quality programs. For example, at Kaimuki High School, we have one 
librarian and two science teachers who are nationally certified. To 
provide our librarian and our science teachers with quality facilities, 
about one million dollars has been appropriated to prevent water leaks 
by replacing the air conditioners on the roof and to establish a 
science learning center.
    This morning, members of the Appropriations Committee visited 
projects that were coordinated by Hawaii 3R's. These projects included 
the painting of the school cafeteria, the swimming pool utility room 
and the music building in 2003, and the painting of the ROTC/ESLL 
building and nearby portable classrooms in 2002. If it was not for 
Hawaii 3Rs, in which there is a 3:1 ``sweat to dollar'' ratio, only one 
third on the projects would have been possible.
    According to research conducted by Edmonds and Lezotte, effective 
schools are relatively safer, relatively cleaner, relatively more 
orderly, relatively quieter and so on. The differences between 
effective and ineffective schools were ``relative'': the incidence of 
broken windows doesn't discriminate, but the time it takes to fix the 
windows does. It's clear that the broken windows don't cause either 
elevated or depressed achievement: the relevance of the window is that 
it's a stand in for adult attention to environment. A broken window 
that goes on for a long time without being repaired gives a message to 
everybody that people who are responsible for the place don't care very 
much about it. Well, last year, nearly one hundred volunteers for our 
Hawaii 3Rs project showed that they cared, and many of them continue to 
support our school.
    When I think of the Hawaii 3Rs program, I think of a television 
commercial. Cost of refreshments: $50.00. Cost of bentos for lunch: 
$500.00. Cost of paint and other supplies: $5,000.00. Cost of lifelong 
supportive partnerships that actively support public education in 
achieving its vision: priceless.
    Mr. Chairman, Members of the Subcommittee, honored guests: On 
behalf of Kaimuki High School and other schools and communities, thank 
you for your priceless support to achieve our dream of making Hawaii's 
public schools something we can all be proud of.

    Senator Inouye. After that, why should I ask any questions.
    Well, I want to thank the panel very much for what you're 
doing for us.
    Mr. Coppa, as you pointed out, our prime concern, our first 
priority, are the children of Hawaii. And what you're doing is 
helping to bring this about.
    Mr. Coppa. Thank you, Senator, and thank you for your----
    Senator Inouye. And thank you, Ms. Hamamoto. Thank you very 
much.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I, too, want to congratulate all of you for what you are 
doing, and I'll be working together with Hawaii 3R's and our 
public school system and want to wish you all well.
    Mr. Coppa. Thank you, Senator.
    Mr. Manalili. Thank you.
    Senator Inouye. Thank you very much.
    With that, I'd like to call a 5 minute recess. In 5 
minutes, we'll have the gavel.

STATEMENT OF NEIL ABERCROMBIE, U.S. REPRESENTATIVE FROM 
            HAWAII

    Senator Inouye. And now it's my great pleasure to call upon 
a very energetic, very powerful colleague, Congressman Neil 
Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman. Mr. 
Chairman, with your kind permission I would like to submit 
formal testimony and then speak a bit more informally at this 
time.
    Senator Inouye. Your full statement will be made part of 
the record.
    Mr. Abercrombie. Thank you very much, indeed, Mr. Chairman.
    Mr. Chairman, thank you for the opportunity to testify 
before the Senate Appropriations Subcommittee on Labor, Health 
and Human Services, Education, and Related Agencies. I'm here 
today to present information on workforce development and 
training from my perspective as the Honorary Chairman of the 
Hawaii Jobs Summit. I'm proud to contribute to the effort to 
prepare Hawaii's workforce for what is projected to be dramatic 
economic growth.
    Mr. Chairman, the people in this room represent the broad 
cross section of people who are involved in this economic 
growth as part of the long-term Federal development strategy 
for the State of Hawaii, which you, as the Dean of our 
Delegation, has lead and which Mr. Case, myself, former and now 
much lamented departed Patsy Mink, and Senator Akaka have 
played a role.
    On September 13, 2003, the Army RCI signing commemorated 
the increasing Federal investment in Hawaii. A celebration 
ensued, and through conversations there with Jim Tollefson, 
Bennette Evangelista, and Bruce Coppa, the idea of a Jobs 
Summit was born. The Chamber of Commerce and the Pacific 
Resource Partnerships shared my desire to act on the community-
wide concern that Hawaii's labor pool may not be ready to 
fulfill the demands of upcoming Federal, State, county, and 
private construction projects. Another shared concern was the 
recruitment, training and availability of skilled seafaring 
labor for Norwegian Cruise Lines new American flagged ships.
    Since the new federally based jobs were driving this new 
demand, I asked the Chamber of Commerce, Pacific Resource 
Partnership and the Hawaii Institute for Public Affairs, the 
acronym for which is HIPA, to convene a summit. Which is, in 
effect, Mr. Chairman, a community audit, a community audit 
which was deemed an essential first step to accurately assess 
Hawaii's capabilities to absorb this new work. This audit would 
include an inventory of public and private sector projects and 
a projection of current and future labor supply and demand.
    A community leadership group from the business, labor, 
education, training, and government sectors was organized to 
contribute to the process. Organizations represented on the 
Jobs Summit Advisory Committee include, but are not limited 
to--and, Mr. Chairman, I have literally dozens that are 
involved from Norwegian Cruise Lines through the General 
Contractors Association, Winners at Work, HGEA, the Hawaii 
Hotel and Lodging Association, Minority Business Development 
Center, selected members of the State legislature, et cetera.
    Dr. Sang-Hyop Lee, a University of Hawaii labor economist 
formulated the highly specialized original research on the 
construction industry's expected demand. For a broader 
perspective, Dr. Burt Barnow, Associate Director for Research 
at the Institute for Policy Studies at John Hopkins University, 
assisted the group by researching the national construction 
scene and prepared a presentation on policies used by other 
States to handle new workforce demands generated by large 
projects.
    At the January 20, 2004 Jobs Summit, Dr. Lee and Dr. Barnow 
presented their research and data to over 175 community 
stakeholders. I will submit all the Jobs Summit presentations 
for the record, with your permission, but let me provide a few 
highlights that have significant indications.
    Dr. Lee's combination of historical survey research 
indicates that over the next 5 years 7,325 new workers will be 
required in the construction industry alone. Now you 
understand, parenthetically, Mr. Chairman, that we're 
concentrating now on the federally dominated construction and 
maritime jobs creation and related Federal activity. This, of 
course, then has to blend in and meld with existing private and 
other public county and State efforts.
    Mr. Bob Kritzman of Norwegian Cruise Lines suggested he is 
seeking 3,000 ship board employees, 2,000 of which will be 
needed by mid-2004.
    The University of Hawaii's Mike Rota used DLIR projections 
to conclude that we will need more than 21,000 new workers per 
year to sustain Hawaii's entire economy through 2010.
    Bruce Coppa provided Pacific Resource Partnership's public 
and private construction projects outlook for the fiscal year 
2004. They included 16 large private construction projects 
already under development.
    You can see, Mr. Chairman, that this is a perfect storm of 
opportunity for us and that this is a challenge and a problem 
that we would have been delighted to try to address sooner but, 
as a result, I believe, of the efforts of the delegation over 
the past decade this is now coming to fruition.
    The construction projects cited by Mr. Coppa include 
everything from Coco Palms, which I know we're delighted is 
being resuscitated after all these years, to Gentry Ewa Makai, 
Kapolei Senior Project, Crescent Heights, 16 of them just in 
his estimation.
    The Federal projects: Billions of dollars, of course, in 
military construction, privatization housing projects. $350,000 
million in other DOD projects. Ford Island development, and 
over $400,000 million in other Federal projects, for example, 
the new NOAA building that will be built over the next 5 years. 
State projects: At least $100,000 million in the various UH 
campuses. The Department of Accounting and General Services 
capital improvement projects are listed at more than $375,000 
million. We expect more than $300 million in Department of 
Transportation projects. And, of course, many millions of 
dollars in supplemental budgets for repairs and maintenance of 
schools, parks and harbors.
    The Jobs Summit program also included expert panels on 
workforce development and training and the spillover effects in 
such areas as Hawaii's real estate markets, wages and the 
social impacts on families and the community. The Jobs Summit 
break-out sessions gave the participants an opportunity to 
discuss the challenges that need to be addressed, the 
opportunities to be seized and what activities and resources 
were needed to meet Hawaii's workforce demand.
    The outcome of this important community input brings me to 
why I am here before the subcommittee today. There is more work 
which needs to be done. The Jobs Summit was just the beginning. 
The conveners of the Hawaii Jobs Summit propose that this 
effort evolve into a Hawaii jobs initiative with a time frame 
of 12 to 18 months. Additional research will be undertaken, 
data will be collected and analyzed, collaborative discussions 
will continue with appropriate groups, and an action plan will 
address the areas of shortfall, assignment of responsibility 
and criteria for evaluation. This is not theory. This is full 
participation and an action plan, Mr. Chairman.
    HIPA has submitted a $212,000 funding request to the Hawaii 
State legislature. Initial discussions are taking place with 
local governments and the private sector to request their 
continued support. I would like to work with you, Senator 
Inouye, Senator Akaka, and all the members of the Labor, Health 
and Human Services, Education, and Related Areas Subcommittee, 
my good friends there, to work for an appropriate mechanism to 
provide $1 million in Federal funding for this effort.
    The strategic plan that is under development includes 
additional research in the following areas: Type of demand by 
workforce category; current training programs and their ability 
to expand; current and future worker supply; demographic 
profile of people needing workforce training; project 
timelines; housing demand, rental and single family; and 
private construction demand over the next 10 years.
    Our problem, Mr. Chairman, is this. There are a great many 
individuals and groups, most of whom are represented in this 
room today, who have a great deal of information but it is not 
necessarily coordinated yet, it is not necessarily put together 
in the kind of plan that all of us who want to put our 
intentions forward are going to be able to actually carry 
forward in a plan that we can operate with. That's what this 
proposal and initiative is about.
    Although Hawaii's geography presents unique challenges, 
people will continue to seek out information from other States 
that have experienced large workforce demands. Research and 
data must be facilitated and gleaned from further collaborative 
discussions of the spillover effect on housing, family and the 
community; wages, education and training. The results of the 
additional discussions would be presented in a second summit in 
November of 2004--we're not going to string this out. We're 
going to move expeditiously, with your assistance--where an 
action plan for legislative and administrative action would be 
presented.
    We think we can cut through the politics on this, Mr. 
Chairman. We think that we can make sure that this is not seen 
as a partisan advantage one way or another or an ideological 
clash, that this would be action plan for legislative and 
administrative action cooperatively.

                           PREPARED STATEMENT

    In summary, Senator Inouye and Senator Akaka, I share your 
commitment to supporting the long-term economic vitality of 
these islands. And through today's hearing, I believe we can 
focus our work on making sure Hawaii's families share and 
prosper in the economic growth that lies ahead. Mahalo nui loa 
for the opportunity to testify before you today.
    [The statement follows:]

              Prepared Statement of Hon. Neil Abercrombie

    Mr. Chairman, I am honored to be here today in my role as 
Representative of the First District of Hawaii, as well as in my 
position as Honorary Chairman of the Hawaii Jobs Summit. I am proud to 
have played a part in the conception and direction of the Hawaii Jobs 
Summit. And, I am equally thrilled to contribute to the effort to 
prepare Hawaii's workforce for what is projected to be dramatic 
economic growth.
    This projected growth is a part of a long term federal development 
strategy for the State of Hawaii in which Senator Inouye has played a 
major part. One of the events commemorating the federal investment in 
Hawaii was the Army Residential Community Initiative signing ceremony, 
on September 13, 2003. It was at this ceremony that the idea of a Job 
Summit was born. Jim Tollefson and Bennette Evangelista of the Chamber 
of Commerce of Hawaii and Bruce Coppa of Pacific Resource Partnership 
shared my desire to act on the community-wide concern that Hawaii's 
labor pool may not be ready to fulfill the demands of upcoming federal, 
state, county, and private construction projects. Another shared 
concern was the recruitment, training, and availability of skilled 
seafaring labor for Norwegian Cruise Lines new American flagged ships.
    Since the new federally based jobs were driving this new demand, I 
asked the Chamber of Commerce, Pacific Resource Partnership and the 
Hawaii Institute for Public Affairs (HIPA) to convene a summit and 
prepare the factual information. A community audit was deemed an 
essential first step to accurately assess Hawaii's capabilities to 
absorb this new work. This audit would include an inventory of public 
and private sector projects and a projection of current and future 
labor supply and demand.
    A community leadership group from the business, labor, education, 
training, and government sectors was organized to contribute to the 
process. Organizations represented on the Jobs Summit Advisory 
Committee include, but are not limited to: Norwegian Cruise Lines, 
Actus Lend Lease, Fluor/Hunt Development, Hawaii Military Communities, 
the Building Industry Association, Hawaii Carpenters Union, Hawaii 
State AFL-CIO, Electrical Workers Local 1186, Laborers' Union Local 
368, Building and Construction Trades, Associated Builders and 
Contractors, General Contractors Association, Swinerton Pacific, Dick 
Pacific, Hawaiian Dredging, Nanakuli Housing, Central Pacific Bank, 
Bank of Hawaii, Oahu Workforce Investment Board, the University of 
Hawaii (UH), Hawaii Department of Business, Economic Development and 
Tourism (DBEDT), Hawaii Department of Labor and Industrial Relations 
(DLIR), Winners at Work, Hawaii Business Roundtable, U.S. Small 
Business Administration, Hawaii Government Employees' Association 
(HGEA), Job Corps Hawaii, Alu Like, Inc., Hawaii Hotel and Lodging 
Association, military RCI and PPV project managers, Minority Business 
Development Center of Honolulu and selected members of the Hawaii State 
Legislature.
    Dr. Sang-Hyop Lee, a labor economist at the University of Hawaii 
Department of Economics, formulated the highly specialized, original 
research on the construction industry's expected demand. To give a 
broader perspective, Dr. Burt Barnow, Associate Director for Research 
at the Institute for Policy Studies of Johns Hopkins University, 
assisted the group by researching the national construction scene and 
preparing a presentation on policies used by other states to handle new 
workforce demands generated by large projects.
    At the January 20, 2004 Jobs Summit, Dr. Lee and Dr. Barnow 
presented their research and data to over 175 community stakeholders. I 
will submit all the Jobs Summit presentations for the record but let me 
provide a few highlights that have significant indications.
  --Dr. Lee's combination of historical and survey research indicates 
        that over the next five years, 7,325 new workers will be 
        required in the construction industry alone.
  --Bob Kritzman of Norwegian Cruise Lines suggested that he is seeking 
        3,000 ship board employees; 2,000 are needed by mid-2004.
  --The University of Hawaii's Mike Rota used DLIR projections to 
        conclude that we will need more than 21,000 new workers per 
        year to sustain Hawaii's entire economy thru 2010.
  --Bruce Coppa provided Pacific Resource Partnership's public and 
        private construction projects outlook for fiscal year 2004. 
        Other than 16 large private construction projects under 
        development; federal projects include the multi-billion dollar 
        military housing projects, Ford Island development, $350 
        million in Department of Defense projects, and $400 million for 
        other federally appropriated projects. State projects amount to 
        $100 million in improvements to UH system campuses, $375 
        million Department of Accounting and General Services 
        construction improvement projects, $300 million in Department 
        of Transportation improvements, and the Governor's multi-
        million dollar supplemental budget proposal for repairs and 
        maintenance of schools, parks and harbors.
    The program also included expert panels on workforce development 
and training; and the spill-over effects on Hawaii's real estate 
market, wages and the social impact on families and the community. 
Another important component of the Jobs Summit was the break-out 
session workgroups. Using their professional expertise and the research 
presented at the summit, these groups discussed challenges that need to 
be addressed; opportunities to be seized; and what activities and 
resources were needed to meet Hawaii's workforce demands.
    The outcome of this important community input brings me to why I am 
here before the subcommittee today: There is more work to be done. The 
Jobs Summit was just the beginning.
    The conveners of the Hawaii Jobs Summit propose that this effort 
evolve into a Hawaii Jobs Initiative with a time frame of 12 to 18 
months. During that time, additional research will be undertaken, data 
will be collected and analyzed, collaborative discussions will continue 
with appropriate groups and an action plan will address the areas of 
shortfall, assignment of responsibility and criteria for evaluation.
    The Hawaii Institute for Public Affairs has submitted a $212,000 
funding request to the Hawaii State Legislature for this work. 
Additionally, initial discussions are taking place with local 
governments and the private sector to request their continued support. 
I would like to work with Senator Inouye to find the appropriate 
mechanism to provide $1 million in federal funding for this effort.
    The strategic plan that is under development includes additional 
research in the following areas:
  --Type of demand by workforce category;
  --Current training programs and their ability to expand;
  --Current and future worker supply;
  --Demographic profile of people needing workforce training;
  --Project timelines;
  --Housing demand (rental and single family); and
  --Private construction demand over the next 10 years.
    While acknowledging that Hawaii's geography presents unique 
challenges, HIPA will continue seeking out information from other 
states that have experienced large workforce demands. Additionally, 
research and data must be facilitated and gleaned from further 
collaborative discussions of the spillover effects on housing, the 
family and the community, wages, education and training. The results of 
the additional discussions would be presented at a second summit in 
November 2004 where an action plan for legislative and administrative 
action would be presented.
    In summary, Senator Inouye, I share your commitment to supporting 
the long term economic vitality of these islands. Through today's 
hearing, I believe that we can focus our attention on making sure 
Hawaii's families share and prosper in the economic growth that lies 
ahead. Mahalo nui loa for the opportunity to testify before you today.

    Senator Inouye. I thank you very much, Congressman, and I 
want to commend you for taking the initiative in convening the 
summit. I think it means much not just for today but for the 
future. Listening to you, I can just imagine what may be going 
through the minds of our colleagues from other States, they're 
worried about exporting American jobs and here we are, we're 
training our own here.
    Mr. Abercrombie. We're creating jobs. I want to say 
particularly, Senator, if you'd allow me, and I know that this 
is something that was a long time in coming and I was pleased 
to participate from whatever efforts we could make from the 
House side in the creation of a cruise industry that's creating 
jobs in the United States, in Hawaii to be sure, but in the 
United States as well. And I think this is going to be an 
enormous advantage in terms of economic prosperity and growth, 
not just for jobs but in terms of diversifying the travel and 
tourism industry in a way that's going to bring great 
prosperity to the State. That's why we emphasize that 
particular aspect in terms of the overall job requirements.
    Senator Inouye. This cruise line business, as you know, has 
had many obstacles, starting off with 9/11 and bankruptcy, the 
sinking of the ship, but as you know----
    Mr. Abercrombie. Yes. Apparently, they have no weather 
forecasters in Germany.
    Senator Inouye. But it's floating now?
    Mr. Abercrombie. Yes.
    Senator Inouye. But listening to you, I'm impressed that it 
takes two to tango, and I think that's the secret of Hawaii, 
that we've been able to work together, the Governor, the 
congressional delegation, the State legislature and the 
community, and for just one mission, the improvement of Hawaii. 
And so I'm pleased to listen to your testimony and I thank you 
very much for your initiative and leadership.
    Mr. Abercrombie. Thank you for your courtesy, Senator.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
hand my accolades to you, my friend, and commend you for what 
you're doing for Hawaii and also commend you for the 
significant aloha spirit that you carry while you're up there 
in Washington, D.C., and I want to commend you for that.
    Mr. Abercrombie. Thank you.
    Senator Akaka. Thank you very much for your testimony.
    Mr. Abercrombie. Just may I conclude, Mr. Chairman, by 
saying that while I'm pleased to be working with the wonderful 
individuals and groups that I have cited, I can assure you that 
they are carrying the burden of all of the work effort here, 
particular mahalos to Jim Tollefson, and Bennette Evangelista, 
and Bruce Coppa, and Bill Kaneko and the staff work associated 
with that. I can't begin to tell you what an enormous 
undertaking it has been and the cooperation of all of the 
groups listed in making this happen is, believe me, proof 
positive of your point that we do in fact have the aloha spirit 
here.
    Our diversity in Hawaii defines us, it does not divide us. 
Maybe that division exists in other parts of the United States 
and indeed in the rest of the world but here in Hawaii that 
diversity is our crowning glory of the aloha spirit. Thank you 
very much.
    Senator Inouye. Thank you.

STATEMENT OF LINDA LINGLE, GOVERNOR, STATE OF HAWAII

    Senator Inouye. Now it's my great pleasure and privilege 
and honor to call upon the Governor of Hawaii. But before I do, 
I'd like to welcome her back to Hawaii and to thank her and 
commend her for representing us in Iraq and I'm certain all 
people were very happy to see you, Madam Governor. Welcome 
back.
    Ms. Lingle. Thank you very much, Senator. And good morning, 
Senator Akaka, Senator Inouye, Mr. Abercrombie, and the people 
of Hawaii.
    I'm very pleased to be here to participate in this hearing 
for the U.S. Senate Appropriations Subcommittee on Labor, 
Health and Human Services, and Education.
    After enduring the years of economic stagnation, the State 
of Hawaii is on the horizon of an exciting period of growth, 
development and prosperity.
    The impending boom in the construction and housing industry 
brought about as a result of the multi-billion dollar contract 
with the military has catapulted government, businesses, 
unions, educators, and the community to forge greater 
partnerships and collaboration on the development and execution 
of solid strategic plans to meet the demand this wave of 
opportunity brings for all of the citizens in Hawaii.
    The situation has compelled each sector to reexamine 
traditional methods of finding and training skilled workers and 
nurturing a workforce through job training and continued and 
remedial education to develop skills that will help individuals 
obtain gainful employment. It has surfaced issues and problems 
that we have been trying to deal with for many years and is now 
forcing all of us to think creatively to work together and 
build a solid platform not only to ensure today or tomorrow's 
success but also the long-term future of Hawaii. There is no 
one group or entity that can do this alone. We need to work in 
partnership in this great new beginning for Hawaii's economic 
success.
    There is a great sense of urgency within the community to 
move, act, and take whatever steps are necessary to seize this 
opportunity. We can do this but it will take the effort and 
commitment of each one of us to build a strong labor and 
economic foundation for the State of Hawaii, its citizens, our 
children, and future generations. There are several challenges 
we face that will take innovative and creative solutions to 
work through, however, none are insurmountable.
    First I want to speak about the availability of workers. A 
major challenge in projecting needed workforce is the lack of 
specific numbers of workers to be hired for the upcoming 
military construction projects.
    At a recent meeting between the Department of Labor and 
Industrial Relations and the training coordinators of 
construction trades, it was reported that recruitment of a 
sufficient number of candidates for apprenticeship programs 
would not pose a major problem in the near future. All trades 
reported that their recruitment efforts would produce 
sufficient numbers of qualified candidates. For example, the 
carpenters reported have 300 workers on the bench right now, 
although they have scheduled another recruitment for 
apprentices in April 2004 in anticipation of a hiring increase. 
This is encouraging information.
    However, Hawaii's aging population also has significant 
ramifications on the State's workforce. The 2000 Census 
reported that 38 percent of our population is 45 years of age 
or older. The baby boomers' impending mass retirements will 
strain the supply of labor in our State while increasing labor 
demand in the health-medical and social service industries.
    Young workers who rapidly advance into mid and upper level 
positions due to labor shortages will need accelerated training 
to fill these jobs. Hawaii has traditionally imported workers 
to meet the State's labor shortages. However, the median cost 
of housing in Hawaii is almost $400,000, which places our State 
at a disadvantage when competing for these workers with our 
neighboring States. In Nevada, Arizona and California 
construction is also expected to increase over the next 10 
years and housing there is significantly more affordable. This 
will likely mean that our historical labor stream may be less 
available to us.
    I want to talk about education reform now. Historically, 
there are 21,000 annual job openings in Hawaii, 12,000 of those 
jobs, construction included, require education past high 
school. Yet of the 13,616 public and private students who 
enrolled in the ninth grade in the fall of 2001, only 64 
percent are expected to graduate on time this year. A large 
portion of this population is expected to pursue post-secondary 
education or opportunities outside of Hawaii, leaving 
industries to compete for a smaller pool of new workforce 
entrants who are capable of basic math and reading at an eighth 
grade level.
    In 2002, the National Center for Public Policy and Higher 
Education produced a national State-by-State assessment. In 
this report only 16 percent of Hawaii's eighth graders were 
proficient in their grade level math and 19 percent in their 
grade level reading. Most disturbingly, only 8 percent of 
eighth graders from low income families were found to be 
proficient in their grade level math.
    The experience of the carpenters has been that 40 percent 
of their applicants failed a written test that is required for 
all applicants to be accepted into their apprenticeship 
training program. This 40 percent failed a test because they 
cannot satisfactorily complete eighth grade math and reading.
    To compound the problem, half of those who do pass will 
fall out of the training program due to failed drug tests or 
being ill prepared to handle the rigors of the training 
program.
    The very foundation of a strong skilled and successful 
workforce is education. Hawaii is blessed with students who can 
learn, teachers who can teach, principals who can lead, and 
communities that want to support their schools. Even so, the 
public education system is not performing at an acceptable 
level. Study after study has concluded that this is not a 
people problem, it is a structural problem. That is why I have 
proposed a series of education initiatives to restructure the 
public school system in Hawaii.
    The Department of Labor and Industrial Relations, through 
its Workforce Development Council and Division, has 
continuously partnered with the State's construction trades, 
local Workforce Investment Boards, community colleges, and 
other public and private agencies to aggressively promote trade 
and apprenticeship programs and assist with recruitment 
efforts. These recruitment efforts are conducted by 14 One-Stop 
Centers for workforce assistance located throughout the State. 
The One-Stops provide job seekers and employers with access to 
electronic job matching services, resource facilities, business 
equipment, Internet access and job and career counseling 
services. These centers collectively contain the largest data 
bank of approximately 48,000 job seekers in Hawaii. All centers 
are gearing up to intensify recruitment efforts and enhance 
their services and programs.
    The State is also participating in numerous job fairs and 
outreach activities to reach more people in the community and 
promote the numerous workforce development programs and 
services that are available. The Workforce Development 
Division, in partnership with private businesses, other 
government departments and agencies, and trade industries, 
produced an annual job fair in Honolulu in January which drew 
over 3,000 job seekers and included almost 100 employers. Some 
trades reported they received hundreds of applications for 
apprenticeship programs. Another job fair is scheduled for May 
2004 and is projected to attract even more job seekers due to 
high school and college graduations occurring at that time.
    The Department of Labor, in collaboration with the neighbor 
island Workforce Investment Boards, community colleges and 
trades is also launching a pilot program called the Pre-
Apprenticeship Program through the Workforce Development 
Council. The pilot project, funded by the Workforce Investment 
Act Discretionary Fund, is intended to provide remedial 
training in math and reading that will significantly increase 
the success rate of Hawaii applicants for apprenticeship jobs 
in construction and in other industries facing a lack of 
skilled workers.
    The University of Hawaii's community colleges will design a 
curriculum and select instructors from programs at community 
colleges and community schools for adults. The curriculum will 
be aligned with the specific entry requirements of the 
employers and be transportable for use by other entities 
throughout the State. The pilot will include participating 
employers, unions and at least 100 people who have been unable 
to pass the entry apprenticeship test. Local Workforce 
Investment Boards in each county will collect data to track and 
monitor each participant's progress and evaluate the success of 
the pilot. Advertising for first recruitment of this pilot will 
take place in March. Beginning in May, local Workforce 
Investment Boards in each county will work with trade 
organizations to steer applicants to these pre-test refresher 
or remedial courses.
    Another effort being spearheaded by the University of 
Hawaii, Honolulu Community College, is developing arrangements 
with the Department of Education for the implementation of a 
pilot project to be implemented in the summer where high school 
students can earn credit for vocational training at the 
college. We fully support this innovative project because it 
will eventually lead toward a stronger and more consistent 
vocational technical curriculum across all public high schools. 
It is also directly in line with President Bush's recent State 
of the Union address in which he pledged to increase financial 
support to the community colleges to enable them to better 
train individuals in industries that are creating the most new 
jobs.
    Better linkages between a secondary school, working world 
and post-secondary education will be promoted and supported to 
improve students awareness of construction trades and encourage 
their selection of the trades as vocational choices. A major 
outreach event is tentatively planned for late summer or early 
fall to promote and educate youth, schools and job seekers 
about apprenticeship programs, with focus on the construction 
trades.
    Federally funded employment and training programs for 
adults and youth, such as those under the Workforce Investment 
Act which are administered by our Department of Labor and 
Industrial Relations will increase their focus on construction 
trades and look towards equipping their participants for 
possible entry into these jobs.
    The State continues to seek Federal funding to effectively 
support, facilitate and drive many of these ongoing efforts I 
have described today.

                           PREPARED STATEMENT

    Thank you for allowing me the opportunity to testify. And I 
would also like the privilege to introduce the director of our 
Department of Labor and Industrial Relations, Nelson Befitel, 
for all of the work that he has done on these initiatives for 
all of his outreach with both labor unions as well as the 
business community. And thank you again for this chance to 
participate.
    [The statement follows:]

                   Prepared Statement of Linda Lingle

                               GREETINGS

    Good morning Senator Inouye, Congressman Abercrombie and honorable 
members of the committee. I am pleased to participate in this hearing 
for the Senate Appropriations Subcommittee on Labor, Health and Human 
Services, and Education.

                         IMPROVING THE ECONOMY

    After enduring years of economic stagnation, the State of Hawaii is 
on the verge of an exciting period of growth, development and 
prosperity. There is an impending boom in the construction and housing 
industry brought about as result of multi-billion dollar contract with 
the military.
    This has catapulted government, private businesses, workers' 
unions, educators and the community to forge greater partnerships. 
They're collaborating on development and execution of solid, strategic 
plans to meet the demands this wave of opportunity brings for all our 
residents.
    This situation compels each sector to re-examine traditional 
methods of finding and training skilled workers. Involves nurturing a 
workforce through job training and continued and remedial education to 
develop skills that will help individuals obtain gainful employment. 
Brings to the surface issues and problems we have been trying to deal 
with for many years. Forces us all to think creatively and work 
together to build a solid platform, not only to ensure today or 
tomorrow's success but to ensure long-term prosperity.
    There is no one group or entity that can do this alone. We need to 
work in partnership in this great, new beginning for Hawai`i's economic 
success. Great sense of urgency within the community to take whatever 
steps necessary to seize this opportunity.
    We can do this, but it will take the effort and commitment of us 
all to build a strong labor and economic foundation.

               CHALLENGES IN PROJECTING WORKFORCE DEMANDS

    There are several challenges that will take innovative and creative 
solutions to work through. However, none are insurmountable. Lack of 
specific numbers of workers needed in different trades may result in 
inaccurate projections for recruitment and training. This increases the 
possibility that workers who are selected may be unemployed for long 
periods while waiting for jobs to materialize.
    Conversely, there's the equally disturbing prospect of an 
insufficient number of qualified workers for jobs in demand. Because 
subcontract specifications for the military construction projects had 
not been released, projecting workforce needs was a major challenge.
    However, at recent meeting between Department of Labor and 
Industrial Relations and training coordinators of construction trades, 
it was reported that recruitment of sufficient number of candidates for 
apprenticeship programs would not pose a major problem in the near 
future. All trades reported their recruitment efforts will produce 
sufficient numbers of qualified candidates.
    Carpenters reported having 300 workers on the bench right now, 
although they have scheduled another recruitment for apprentices in 
April 2004 in anticipation of hiring increase. Should their projections 
prove inaccurate, more workers will be unemployed until the jobs are 
created.

                EFFECTS OF AGING POPULATION ON WORKFORCE

    Hawaii's aging population also has significant ramifications on 
state workforce. 2000 Census reported that 38 percent of our population 
is 45 years of age or older.
    Baby boomers' impending mass retirements will further strain the 
supply of labor in this state while increasing labor demand in the 
health-medical and social service industries. Young workers who rapidly 
advance into mid- and upper-level positions due to labor shortages will 
need accelerated training to fill these jobs.
    Hawai`i has traditionally imported workers to meet labor shortages. 
However, median cost of housing in Hawai`i is $400,000, which places 
our state at a disadvantage when competing for imported workers with 
our neighboring states.
    In Nevada, Arizona and California, construction is also expected to 
increase over the next 10 years and housing there is significantly more 
affordable. This will likely mean that our historical labor stream may 
be less available to us.

                         EDUCATIONAL CHALLENGES

    Historically, there are 21,000 annual job openings in Hawai`i. 
Twelve thousand (12,000) of those jobs, construction included, require 
education past high school.
    Yet of the 13,616 public and private students who enrolled in the 
ninth grade in the fall of 2001, only 64 percent are expected to 
graduate on time this year.
    A large portion of this population is expected to pursue post-
secondary education or opportunities outside of Hawai`i. This means 
industries will compete for a smaller pool of new workforce entrants 
who are capable of basic math and reading at an eighth-grade level.
    In 2002, the National Center for Public Policy and Higher Education 
produced a national state-by-state assessment. In this report, only 16 
percent of Hawai`i's eighth graders were proficient in their grade-
level math and 19 percent in their grade-level reading.
    More disturbingly, only 8 percent of eighth graders from low-income 
families were found to be proficient in their grade-level math. This 
education gap creates a problem for construction and other industries, 
because these eighth graders will enter the workforce in the second and 
third years of the initial period of the military housing construction 
projects.
    The experience of carpenters has been that 40 percent of applicants 
fail the written test required for acceptance into the apprentice-
training program. They fail the test because they cannot satisfactorily 
complete eighth-grade math and reading. To compound the problem, half 
of those who do pass the written test will fall out of the training 
program because they fail drug tests or are ill-prepared to handle the 
rigors of the training program.

                       NEED FOR EDUCATION REFORM

    All this points out the need for education reform in our state. The 
very foundation of a strong, skilled and successful workforce is 
education.
    Hawai`i is blessed with students who can learn, teachers who can 
teach, principals who can lead, and communities that want to support 
their schools. Even so, the public education system is not performing 
at an acceptable level.
    Study after study has concluded that this is not a people problem--
it is a structural problem. We need to act with a sense of urgency to 
help our children succeed in the classroom and later in the workplace, 
in whatever career they choose.

                     WHAT WE'VE BEEN DOING TO HELP

    Department of Labor and Industrial Relations, through its Workforce 
Development Council and Division, partners with construction trades, 
local Workforce Investment Boards, community colleges and other public 
and private agencies.
    The department aggressively promotes trade and apprenticeship 
programs and assists with recruitment efforts. These recruitment 
efforts are conducted at fourteen (14) One-Stop Centers for Workforce 
Assistance located throughout the state.
    The One-Stops provide jobseekers and employers with access to 
electronic job matching services, resource facilities, business 
equipment, Internet access and job and career counseling services.
    These centers collectively contain the largest data bank of 
approximately 48,00 job seekers in Hawai`i. All centers are gearing up 
to intensify recruitment efforts and enhance services and programs.
    My administration has undertaken several initiatives to deal with 
the ``projected'' shortage of skilled workers. In many cases, my 
administration serves as a facilitator to numerous groups and agencies 
engaged in efforts to help this situation.
    State also participating in numerous job fairs and outreach 
activities to promote numerous workforce development programs and 
services that are available. Workforce Development Division--in 
partnership with private businesses, other government departments and 
agencies, and trade industries--produced an annual job fair in Honolulu 
in January.
    This event drew over 3,000 jobseekers and included almost a hundred 
employers, and some trades reported receiving hundreds of applications 
for apprenticeship programs. Another Job Fair is scheduled for May 2004 
and is projected to attract even more jobseekers due to high school and 
college graduations occurring at that time.

                    PRE-APPRENTICESHIP PILOT PROGRAM

    Department of Labor--in collaboration with Neighbor Island 
Workforce Investment Boards, community colleges and trades--is 
launching the Pre-Apprenticeship Program.
    This pilot program is offered through the Workforce Development 
Council and funded by the Workforce Investment Act Discretionary Fund. 
The program is intended to provide remedial training in math and 
reading that will significantly increase the success rate of Hawai`i 
applicants for apprenticeship jobs in construction and in other 
industries facing a lack of skilled workers.
    University of Hawai`i's Community Colleges will design the 
curriculum and select instructors from programs at Community Colleges 
and Community Schools for Adults. The curriculum will be aligned with 
the specific entry requirements of employers and can also be used by 
other entities throughout the state.
    This pilot program will include at least 100 people who have been 
unable to pass entry apprenticeship tests, along with participating 
employers and unions.
    Local Workforce Investment Boards in each county will collect data 
to monitor each participant's progress and evaluate the program's 
success. Advertising for the first recruitment of this pilot project 
will take place in March.
    Beginning in May, local Workforce Investment Boards in each county 
will work with trade organizations to steer applicants to these pre-
test refresher or remedial courses.

                 PILOT PROJECT FOR HIGH SCHOOL STUDENTS

    Another effort being spearheaded by the University of Hawai`i, 
Honolulu Community College, is developing arrangements with the DOE for 
implementation of a pilot project to be implemented in the summer. High 
school students will earn credit for vocational training at HCC.
    We fully support this innovative project because it will eventually 
lead to stronger and more consistent vocational technical curriculum 
across all public high schools. It is also directly in-line with 
President Bush's recent State of the Union address in which he pledged 
to increase financial support to community colleges to enable them to 
better train individuals in industries that are creating the most new 
jobs.
    Better linkages between secondary school, working world and post-
secondary education will be promoted and supported to improve students' 
awareness of construction trades and encourage their selection of the 
trades as vocational choices.
    A major outreach event is tentatively planned for late summer or 
early fall to promote and educate youth, schools and jobseekers about 
apprenticeship programs, with focus on the construction trades.

                            FEDERAL FUNDING

    Federally funded employment and training programs for adults and 
youth, such as those under the Workforce Investment Act administered by 
the DLIR, will increase their focus on construction trades to equip 
participants for possibly entry into these jobs.
    The State respectfully requests assistance with federal funding to 
effectively support, facilitate and drive many of these ongoing 
efforts.
    Automation of existing manual processes, functions, data collection 
and certification identification is critical to ensure rapid response, 
quality support and service delivery. We also need funding to increase 
our capabilities to provide Internet-based programs and information to 
the community. High demands for outreach activities will also require 
additional funding to fully promote construction trades and educate 
students, school faculty and jobseekers about these industries.
    Thank you for allowing me the opportunity to testify. I will be 
happy to answer any questions you may have.

    Senator Inouye. Governor, I thank you very much for your 
most thought provoking and challenging statement. It is obvious 
that there's much to be done, and I'm certain I speak for the 
congressional delegation that we stand ready to work with you 
to come up with solutions.
    Ms. Lingle. Well, thank you, Senator Inouye and Senator 
Akaka, for your continued friendship and support for these 
efforts. And my bottom line message is: The challenge is a big 
one, we are up to it, and the State will be successful. Thank 
you.
    Senator Inouye. Thank you very much.

STATEMENT OF DONNA KIM, VICE PRESIDENT, HAWAII STATE 
            SENATE

    Senator Inouye. And now it's my privilege to call upon the 
vice president of the Senate of the State of Hawaii, the 
Honorable Donna Kim. Senator Kim.
    Ms. Kim. Aloha. Senator Inouye, Senator Akaka, members of 
the Senate Appropriations Subcommittee, on behalf of our Senate 
President Robert Bunda, I express our senate's gratitude for 
your efforts to bring more Federal dollars to Hawaii and to 
assist and train our local construction workforce.
    In about 3 minutes our senate president will hit the gavel 
and our session will be beginning. And so, in that light, I 
will keep this testimony short and so please allow me to 
paraphrase.
    I don't have to tell you that Hawaii's construction 
industry is only now recovering from a decade of recession. The 
number of workers in the industry declined from a high of 
35,000 to less than 20,000 by the end of the 1990s. During this 
time, revenues for public and private sector construction fell 
from an aggregate of more than $4 billion a year to half that 
volume. Our trade unions lost thousands of members to other 
careers or to better opportunities on the mainland, not to 
mention retirement.
    On a personal note, my father and brother both were 
carpenters, so I knew all too well how difficult it was during 
the recession when they were out of work and sitting on the 
bench.
    Today, we have the potential to equal our best years ever 
as major projects are initiated, including that of the military 
with the new national defense priorities and the aging 
conditions of existing buildings and military housing.
    The interest rates are low and our people are buying new 
homes before they are even completed. Our trade unions are 
aggressively training a new generation of skilled tradesmen and 
women to give them the ability to meet the market demands, and 
assistance from you and from Washington will only reenforce 
this effort. This will also assure contractors that we have a 
ready, steady, able, and trained workforce.
    Military presence is essential to our economy. And in my 
senatorial district from Kalihi to Aiea, I have a few military 
installations. Upgrading of the military housing stock in our 
neighborhood is vital to keeping our military 'ohana in decent 
housing and not competing with our local residents for rental 
units during this very tight housing market.
    We appreciate you being here. I appreciate the opportunity 
to testify in front of you. And, again, we thank you for your 
efforts on behalf of Hawaii and our construction industry.
    Senator Inouye. Senator, I thank you for your very generous 
comments. It's always been a pleasure to work with the 
legislature.
    Ms. Kim. We appreciate that.
    Senator Inouye. I think, as the Governor indicated, working 
together and nothing is impossible.
    Ms. Kim. Thank you.
    Senator Inouye. Thank you very much.

STATEMENT OF SYLVIA J. LUKE, VICE SPEAKER, HAWAII STATE 
            HOUSE OF REPRESENTATIVES

    Senator Inouye. Now may I call upon the Vice Speaker of the 
Hawaii State House of Representatives, the Honorable Sylvia 
Luke.
    It's always good to see you.
    Ms. Luke. Thank you.
    Senator Inouye. How are your babies?
    Ms. Luke. One baby. Thank you for your----
    Senator Inouye. You're not having another one?
    Ms. Luke. Well, it's a toll with a 1\1/2\ year old. You 
know how it is. But thank you for your concern.
    Senator Inouye and Senator Akaka, members and staff of the 
Senate Appropriations Subcommittee, my name is Sylvia Luke, 
Representative from the 26th house district and vice-speaker of 
the Hawaii House of Representatives.
    You had a tremendous amount of speakers and they said all 
great things, and in order to keep my comments short you have 
my written testimony and I will summarize my testimony, if 
that's okay.
    Senator Inouye. Your full statement will be made part of 
the record.
    Ms. Luke. Thank you. House Speaker Calvin Say asked me to 
convey his apologies for not being here. And, you know, I would 
say that I'm lucky, you know, because he wasn't here I was able 
to be here and speak to you and I find this a great pleasure to 
be with you today. And on behalf of the House, we really thank 
you for holding this hearing in Honolulu and for inviting all 
of us to share our thoughts with you on labor, health and 
education issues that confront our State.
    We were asked to share with you our perspective on our 
State's relationship with the military and, in particular, the 
State's ability to meet the demand for quality and qualified 
workers to construct military housing. We are grateful for all 
that the military brings to our State, from emergency 
assistance programs to the many jobs that simply would not 
exist were it not for the military's presence in our islands.
    As you know, Mr. Chairman, I chaired a committee on war 
preparedness last session and it was actually during that 
process that the house members were truly able to appreciate 
the positive impact the military has on our community. And 
whether it was through partnership with the Department of 
Education or the economic impact it would have on deployment, 
it was the first time that the house members were truly able to 
appreciate all that the military does in our State, and we 
again thank you for coming to testify in front of that 
committee.
    Two of the things most important to military families in 
Hawaii are quality educational programs for their children and 
reasonably priced housing. In response to these needs, we're 
currently considering bills that would establish a full time 
military liaison in the Hawaii State Department of Education 
and to establish a position for the military on our statewide 
board of education. We're also considering a bill this session 
that would streamline regulatory approvals for military 
construction projects.
    In recent years, we've passed legislation to allow the 
Department of Education to enter into agreements with Federal 
agencies to construct, repair and renovate schools on military 
bases. We also passed legislation that defines ``State 
resident'' to help local individuals and companies qualify for 
bid preferences already written into Federal law.
    We further authorized $10 million per year to support the 
Workforce Investment Act and an additional quarter million 
dollars per year to fund the Workforce Development Council.
    Hawaii's housing and educational issues are critical to all 
of us, both military and civilian. We've gained from the 
perspectives of military families and the perspectives they 
have shared with us based on their experiences with educational 
systems around the world. We also know the addition of new and 
upgraded housing for military personnel will not only create 
added employment for our residents but new housing for the 
civilian markets as well.
    The leadership of our State house believes a strong bond 
between the military and civilian communities in Hawaii benefit 
all of us, and we're committed to supporting those programs and 
initiatives that will make the bond even stronger in years 
ahead.

                           PREPARED STATEMENT

    I thank you again for this opportunity and having this--
holding this hearing in Honolulu. And I must apologize, we do 
have session at noon, so I will be leaving early, if that's 
okay.
    [The statement follows:]

                  Prepared Statement of Sylvia J. Luke

    Senator Inouye, Senator Akaka, members and staff of the Senate 
Appropriations Subcommittee: My name is Sylvia Luke, Representative 
from the 26th house district and Vice-Speaker of the Hawaii House of 
Representatives. House Speaker, Calvin Say, asked me to convey his 
apologies for not being able to be with you today. He specifically 
asked that I convey his thanks to you for holding this hearing in 
Honolulu and for inviting all of us to address you on the labor, health 
and education issues that confront our state. You have a long agenda 
today and many fine speakers, so I will keep my comments brief.
    We were asked to share with you our perspective on our state's 
relationship with the military and, in particular, the State's ability 
to meet the demand for qualified workers to construct military housing. 
In military circles Hawaii has long been known as a high-cost duty 
station, but one where military people feel comfortable and welcome. 
Hawaii is known as a place that cares about the military presence in 
our community and tries to do what is right for its military residents. 
In turn, we are grateful for all that the military brings to our state, 
from emergency assistance programs to the many jobs that simply would 
not exist were it not for the military's presence in our islands.
    Two of the things most important to military families in Hawaii are 
quality educational programs for their children and reasonably priced 
housing. In response to these needs, we are currently considering bills 
that would establish a full-time military liaison in the Hawaii 
Department of Education and establish a position for the military on 
our state-wide Board of Education. We are also considering a bill this 
session that would streamline regulatory approvals for military 
construction projects.
    Educational reform is high on our legislative agenda this year. In 
the House we are looking at a range of initiatives to address the needs 
of educators at the school level. We know that the foundation for a 
bright educational future for our state--and its workforce--rests with 
what we do in the classroom at individual schools across our state. 
Educators, parents and students are ready to go if we just untie their 
hands and give them the tools to prove what they are capable of.
    In recent years, we've passed legislation to allow the Department 
of Education to enter into agreements with federal agencies to 
construct, repair and renovate schools on military bases. We also 
passed legislation that defines ``state resident'' to help local 
individuals and companies qualify for bid preferences already written 
into federal law. We've further authorized $10 million per year to 
support the Workforce Investment Act and an additional quarter million 
per year to fund the Workforce Development Council.
    You'll be hearing from others today about their actions and ideas 
to improve the day-to-day relationships between our communities and our 
military. You, no doubt, will hear of the many programs our trade 
unions and construction industry have initiated to prepare workers for 
the growing number of federal construction projects. These include 
expanded enrollments in apprenticeship training programs, institution 
of refresher courses and continuing education programs for journey 
workers, and active recruitment of new members to address estimated 
manpower requirements.
    The Hawaii House of Representatives has and will work with such 
groups to address needs that require state government involvement. 
Hawaii's housing and education issues are critical to all of us, both 
military and civilian. We've gained from the perspectives military 
families have shared with us based on their experiences with 
educational systems around the world. We also know the addition of new 
and upgraded housing for military personnel will create not just added 
employment for our residents, but new housing options in civilian 
markets as well.
    The leadership of our State House believes the strong bond between 
the military and civilian communities in Hawaii benefits us all, and we 
are committed to supporting those programs and initiatives that will 
make the bond even stronger in years ahead.
    Mahalo and aloha.

    Senator Inouye. I'd like to thank you on behalf of the 
military, if I may, a senior member of the defense committee. I 
certainly would be most pleased to learn of your support and 
your friendship. Thank you very much.
    Ms. Luke. Thank you, Senator Inouye.
    Senator Akaka. Thank you very much for coming. Please 
convey our aloha to the Speaker and to the House.
    Ms. Luke. I will.
    Senator Inouye. Thank you.
    Ms. Luke. Thank you again.

STATEMENT OF DR. CLYDE M. SAKAMOTO, CHANCELLOR, MAUI 
            COMMUNITY COLLEGE

    Senator Inouye. Now may I call upon the Chancellor of the 
Maui Community College, Dr. Clyde Sakamoto, and the Chancellor 
of Honolulu Community College, Mr. Ramsey Pedersen.
    Chancellor Sakamoto.
    Dr. Sakamoto. Senator Inouye, Senator Akaka, members of the 
committee, thank you for being here. I am Chancellor of Maui 
Community College, Clyde Sakamoto, and have the privilege of 
responding to some of the interests that the Senators and 
Congress has had in rural economic diversity, economic 
diversification and workforce development in rural Hawaii.
    I'm also representing two other institutions in rural 
Hawaii, Kaua'i and Hawaii Community Colleges which serve, along 
with Maui Community College, on Moloka'i and Lana'i as well 
serving some 6,000 students in the credit programs.
    I'm also principal investigator of the Rural Job Training 
Act and also the Rural Development Programs. And these programs 
have, with your support, touched over 6,000 lives in rural 
Hawaii finding a whole range of various kinds of workforce 
development activities.
    I have an extensive testimony that I would request to be 
read into the record, with your permission.
    Senator Inouye. So ordered.
    Dr. Sakamoto. And would like simply to speak to some of the 
kinds of issues that we're confronting in economic 
diversification and development in rural Hawaii. And they are 
complex, in part, because many of our communities are small 
communities, as you well know, and ones that are remote and 
have very few economic development alternatives. And so we are 
working to leverage what resources exist in terms of assets 
that these items have on Maui, as an example, assets related to 
our Maui high performance competing center, the work that's 
emerging relative to the Department of Defense and its 
relationship with Haleakala. On Kaua'i, with the Pacific 
missile firing range and the kinds of developments that are 
occurring around that particular facility with private 
contractor's requiring workforce that are skilled in scientific 
technological skill sets.
    With the smaller islands of Lana'i and Moloka'i, the 
challenges are even more significant, as you well know. The 
ability to leverage economic alternatives depends upon the 
economic cycles, as you're well aware. And we have, on Moloka'i 
and Lana'i, have had great challenges as we have had in other 
parts of the State.
    The solutions that we've undercovered are ones that are 
grounded in a concept that relies upon the infrastructure of 
our rural community colleges working with private/public 
sectors in the community to create sustainable economic 
development and diversification solutions.
    I can tell you that one of our most recent successes 
represents a very complex arrangement, to address the oral care 
requirements in rural Hawaii. The public health director, 
district director Dr. Pang informed us about 2 years ago that 
the situation on Maui was such that over a third of Maui and 
Maui counties in the State's population went unserved in terms 
of dental care services. We then responded with the help of 
landowners who had a facility, with the help of a dentist who 
had recently vacated a facility with fiber opatories to create 
a dental assistant program that has a 170 client-waiting list 
in the community. And this has, in turn, leveraged some 
resources from the Catholic charities with about $270,000 worth 
of a dental care van being attributed to the college. And also 
leveraged contributions from the State's Department of Human 
Services with $150,000 grant and training that's resulting in 
Medicaid reimbursements to sustain the entire effort.
    So it's a complex set of partnerships and collaborations 
that have occurred in partnership with dentist professionals, 
with the State, with the county, as well as with the Rural 
Development Project, all of which goes right to the heart of a 
workforce development.
    As you know, with problems in oral care, workers are not 
able to present themselves effectively before any company or 
any possibility of employment. And so it goes really to the 
heart of employment, as does the challenge with drugs.
    On the Big Island, we have a partnership with the Hawaii 
Police Department, and that partnership involves one of 
acquiring equipment to support the Hawaii Police Department's 
drug lab. And it is in this regard that we're seeking support 
in terms of flexibility for the implementation of the resources 
that are coming to us from the Department of Labor in allowing 
us the flexibility to suggest that there's certain strategies, 
such as acquiring drug lab equipment, that go to the heart of 
the workforce development pipeline that will allow us to 
address the issue of drug analysis that will allow the Hawaii 
Police Department to then be able to analyze what the drugs may 
be so that the criminal justice system is able to function in a 
fashion to contribute to the rehabilitation of some of the 
folks who have been arrested and who then require treatment.
    Without the drug equipment, we have not been able to 
correct that situation and would like flexibility from the 
overseers of the grants that we've received out of the 
Department of Labor to allow this kind of scenario to emerge. 
And so we're seeking that assistance.
    We're also seeking assistance for several other areas in 
terms of resources that would allow some of the smaller kinds 
of initiatives that come from places like Lana'i that involve 
web site development, as an example, that's been successful and 
smaller initiatives that are extremely unique to the rural 
parts of Hawaii, and we would be grateful for that kind of 
assistance.
    We are also, as community colleges in rural Hawaii, 
supportive of the workforce that goes to the heart of our 
health programs, our business programs, our needs in the 
community in terms of criminal justice, and the trades as well. 
And it's in the trades area that we are working with colleagues 
in Honolulu to anticipate the kinds of demands that Honolulu is 
going to experience in terms of workers from Maui in the 
construction area potentially migrating to Honolulu. And so we 
are in the process of examining what the dimensions of this 
migration may be and working with our apprenticeship programs 
on each of the islands to determine what the requirements will 
be to address what we foresee will be a work shortage, a 
workforce shortage, on the neighbor islands in terms of the 
construction area.

                           PREPARED STATEMENT

    We are prepared with our rural development--the development 
resources to address some of these requirements and look 
forward to working with our colleagues in Honolulu, working 
with Representative Abercrombie and others in the Jobs Summit 
to collaboratively bring about some workforce kinds of 
solutions in rural Hawaii as well as in Honolulu.
    So, we thank you for the opportunity to testify before you 
and appreciate all of the support that we've gotten from 
Congress on our rural development initiatives in the Hawaii 
Community Colleges. Thank you.
    [The statement follows:]

              Prepared Statement of Dr. Clyde M. Sakamoto

    Thank you for the opportunity to address the Labor, Health and 
Human Services and Education Appropriations Subcommittee.
    The Rural Development Project was initiated by support from the 
U.S. Department of Labor's Secretary Pilot and Demonstration funding. 
This category of resources has permitted Maui Community College (MCC) 
to explore and examine the development of a labor force in rural Hawaii 
through strengthening the local higher education infrastructure and its 
partnerships with the private, public and nonprofit sectors. To 
leverage these invaluable resources, MCC created partnerships with 
Hawaii and Kauai Community Colleges in two other rural counties in the 
state.
    Maui (including the islands of Molokai and Lanai), Hawaii, and 
Kauai counties have, therefore, initiated projects to address the 
development of a workforce in the rural communities of the state. The 
range of projects continues to respond to remote communities isolated 
by major bodies ocean from the economic center of the state in Honolulu 
on Oahu. More recently, projects have also begun in rural communities 
on Oahu. The projects require and have benefited from flexibility in 
developing and supporting rural economic and career options.

        RURAL DEVELOPMENT PROJECT/RURAL JOB TRAINING INITIATIVE

Program Summary
    The Hawaii Rural Development Project began in 1997 with a grant to 
assist with the transition of agricultural workers on Lanai into the 
hotel and resort industry. The discretionary funding for this pilot and 
demonstration project was released by the Secretary of the U.S. 
Department of Labor. The project has increased in scope to serve all of 
rural Hawaii.
    The University of Hawaii is the recipient of this grant. 
Implementation is supported through the University's rural community 
colleges, which have infrastructure for education and training on each 
of the islands. This project has components located on the islands of 
Hawaii, Kauai, Lanai, Maui, Molokai, and Oahu. Advisory committees in 
collaboration with the respective community colleges from each of the 
islands help guide the decision making process for the use of these 
funds.
    The core goal of the project is to provide technically up-to-date 
infrastructure and to develop and implement programs that are designed 
to help residents of Hawaii's rural communities, the unemployed/
underemployed and also the hardest-to-employ welfare recipients acquire 
skills, work experience and resources necessary to find and keep jobs. 
Opportunities to train for new and persistent position vacancies will 
also be considered.
    Evaluation of the effectiveness of this pilot and demonstration 
project will focus on clients identified, employers enlisted, training 
and education provided, placements made, new business (entrepreneurs) 
start-ups, resources from other sources that are leveraged, and 
infrastructure created that will outlast the life of the federal funds 
for this grant.
    Critical workforce shortage areas are being addressed. Programs in 
progress include nurse training, healthcare worker training, teacher 
training and preparation, principal/vice principal and DOE 
administrator recruitment and retention, educational assistant 
training, dental assistant training, custodian training, dental 
services for low income and underserved populations, leadership 
training, small business support, computer literacy, farm management 
training as well as a variety of community education and workforce 
development initiatives throughout the state.
    Diversification of the economy and training the workforce to 
accommodate emerging industries are necessary for Hawaii to develop 
alternatives to the visitor industry as an economic base.
    The grant allows for the development of new initiatives to support 
such diversification. It will also support the continuation of 
successful existing training services. Demand and shortage areas 
targeted by the Community College component will include training in 
the following sectors: Technology, health care, diversified and 
specialty agriculture, entrepreneurial development, and biotechnology.
    A number of programs will focus on very specific needs. Kauai 
Community College will provide specialized training in network hardware 
and software, hazardous waste management, electronics, and supervisory 
and management skills required by the Pacific Missile Range Facility. 
Specialty training will be provided by Maui Community College for 
emergency medical personnel serving remote communities that will 
enhance the level of available service using a combination of 
telemedicine and conventional healthcare practices. Unexploded Ordnance 
Certification training has been provided to Hawaii residents to allow 
for employment and participation in the ordnance removal program on the 
island of Kahoolawe. Workforce shortages in the community health care 
sector will be addressed by developing a training program for community 
worker case managers. Skilled worker shortages in the metal trades will 
be alleviated by the new machine shop program at Hawaii Community 
College in Hilo.

                        NEED FOR DIVERSIFICATION

    Clearly there is a need to diversify Hawaii's economy and reduce 
the dependence on tourism and big agriculture. Over the past decade, 
there have been successful efforts by the University, state government, 
and private industry to promote economic diversity and expand into a 
wide range of areas including diversified agriculture, technology, 
aquaculture, biotech, medicine, and education.
    The Rural Development Project reinforces this effort to diversify 
and provides a comprehensive program to address workforce training and 
economic development needs in rural Hawaii. The program utilizes 
existing University and Community College faculty, programs, labs, 
equipment and other infrastructure to deliver services identified to 
increase employment and enhance the economic vitality of rural Hawaii 
communities.

               COMMUNITY COLLEGE AND UNIVERSITY COMPONENT

    The Community College component is designed to take a local 
approach to address workforce and economic development needs on each of 
Hawaii's Neighbor Islands. Each island has a community advisory 
committee that works closely with the island project director. This 
component addresses the following identified needs: Economic 
diversification, leadership development, small business support and 
development, diversified agriculture training, computer literacy and 
specialty training, just-in-time training and workforce shortage skills 
identification and training, and teacher and nurse shortage training 
programs. Additionally, several community colleges are considering 
moving in the direction of offering bachelor's degrees to support a 
high tech-based economic diversification fueled by State and County 
priorities.

                         OAHU RURAL DEVELOPMENT

    Violence, drugs, gangs, vandalism, and other forms of crime are 
facets of deeper underlying problems within rural Oahu communities. 
Economics, the breakdown of families, and other community issues 
contribute to these problems. The Oahu Rural Development Project 
focuses its efforts on providing leadership development and 
occupational skills training for low-income and socially 
disenfranchised youth and adults. This program is community-based, 
culturally sensitive, and designed to facilitate the reintegration of 
these youths and adults into mainstream society.

            PACIFIC MISSILE RANGE FACILITY TARGETED TRAINING

    Information Technology offers some of the greatest opportunities in 
Hawaii. Without the need for transportation costs, Hawaii is well 
situated to establish design and software development companies and 
teams due to the great broadband connections and the high quality 
workforce (Source: HighTechHawaii). The Pacific Missile Range Facility 
at Barking Sands on Kauai and its sub-contractors employ over 650 
individuals involved in high-tech. There is a need to provide specialty 
high-tech training to match employer needs on Kauai with locally 
trained employees. This training will improve retention rates for 
existing employees and alleviate the need for PMRF and its contractors 
to recruit from the mainland.

                 COMMUNITY WORKER CASE MANAGER TRAINING
 
   Community Health Centers and Native Hawaiian Health Care Systems 
depend heavily on community outreach workers and case managers. Such 
workers play a large and irreplaceable role in helping medically 
underserved people overcome cultural, linguistic, bureaucratic and 
economic barriers to health care. Because they usually understand and 
come from the community served, they are often more effective than 
other more expensive health care professionals--such as physicians, 
nurses, social workers and public health specialists--in educating 
clients, making effective referrals, ensuring ``compliance'', and 
identifying contingent issues (such as domestic violence or drug use) 
that affect health. Community workers are also highly cost-effective, 
with salaries substantially lower than masters--or doctorate--level 
providers.
    Yet most training for community workers is ad hoc and piece meal. 
Unlike health professions, this complex and challenging work has little 
in the way of structured curricula or training programs that can help 
agencies prepare individuals to be community case managers. 
Considerable case management expertise does reside in the health 
centers, but mostly through an informal network of mentors and in-
service training. The demanding nature of community case management 
certainly warrants a more systematic and conscious approach to 
training.
    In addition, Hawaii Community Health Centers and Native Hawaiian 
Health Care Systems anticipate a significant increase in the demand for 
community case managers over the next few years. Oral health, elderly 
care, mental health, and chronic disease management are all areas 
slated for significant expansion, by federal and state governments, and 
all four areas will require community-based case management to ensure 
appropriate and cost-effective care.

              MAUNA KEA SCIENCE RESERVE SPECIALTY TRAINING

    Mauna Kea on the island of Hawaii is home to the most powerful 
collection of astronomical observatories on the surface of the earth. 
The summit offers an exceptional platform for astronomy. In the past 
three decades the Mauna Kea Science Reserve has evolved into the 
world's premier astronomy complex. Mauna Kea's observatories are known 
worldwide for their advanced technologies, excellent viewing 
environment, and the discoveries that have been made with these 
facilities. The development of this complex has not come without its 
costs. The roadway that was installed for the testing and construction 
of the first telescopes has opened the mountain to all. Physical 
development, foot and vehicular traffic, and the byproducts of man's 
use of the mountain have all left temporary and permanent impacts on 
the mountain.
    The responsibility of managing an area as broad and as remote as 
Mauna Kea must take into account the types of people who regularly 
access its summit. Scientists, technicians and support staff attached 
to the observatories; visitors (both local and tourists); hunters, 
hikers, skiers and other recreational users; Hawaiian cultural 
practitioners; media crews; and commercial tour operators are some of 
the primary users of the mountain. There is a need to provide specialty 
training to field ranger/guides who will be responsible for the safety 
of users and visitors and see that the policies of the Science Reserve 
are followed.
    The large astronomy community on Mauna Kea requires significant 
local support services. One of the key support industries is the metal 
trades/machine shop sector. Custom parts, repairs, and other services 
supplied by the metal trades are in demand. There are more than 138 
businesses involved in the metal trades and machine shop industry on 
the island of Hawaii. Often, these businesses have to recruit their 
workforce from the mainland or other islands as there is no formal 
training program offered on island. Hawaii Community College is now 
offering formal training in the metal trades and machine shop sector. 
Offering on-island training in the metal trades/machine shop sector 
will allow Hawaii island residents to obtain employment in a workforce 
shortage area.

                 NURSE AND HEALTH CARE WORKER TRAINING

    This program targets current hospital staff, new nursing school 
graduates, and residents in rural communities. It provides training for 
individuals in multiple levels of the health care field focused on 
placing individuals on a career ladder in health care. The programs 
will lead to job advancement and retention, and to placement of new 
nurse grads into entry-level positions. This program provides for 
curriculum development that will be permanently established once 
created. HHSC has agreed to continue the New Graduate Nurse Training 
Program after the successful completion of the first pilot program. The 
preceptor training will leave qualified preceptors in place to allow 
continued training and mentoring beyond the life of this grant.
    Since its inception, 334 nurses and health care workers have 
participated in Hawaii Health Systems Corporation Nurse and Health Care 
Worker Training Programs (HHSC) including Nurse Aid and New Nurse 
Trainee Programs, Preceptorships, Specialty Nursing Programs and a 
pilot project designed to assist employees who hold nursing degrees 
from foreign universities to become licensed Registered Nurses in 
Hawaii. By supporting our public hospitals, health care facilities and 
their invaluable employees, all residents of the State of Hawaii 
benefit from better health care and enhanced services.

   RURAL TEACHER, PRINCIPAL/ADMINISTRATOR, AND EDUCATIONAL ASSISTANT 
                                SHORTAGE

    In order to increase the number and retention of certified 
teachers, the state will need to strengthen its current system of 
support for teacher candidates during their student teaching, broaden 
their recruiting efforts, formalize preparation programs for the 
difficult qualifying exams, and develop training for supporting 
entities such as principals and educational assistants. The Department 
of Labor and Senator Inouye recognize these areas of need for our 
public school education at the state level and are allocating a portion 
of the funds requested in this grant for the development of programs 
for teacher preparation, principal training, and training for 
educational assistants.
    The Rural Teacher Training program will address the teacher 
shortages in the state, by continuing the support for University of 
Hawaii College of Education (COE) providing assistance to the most 
rural communities, seeking both to develop and to retain local 
teachers. The grant will fund distance education infrastructure and 
curriculum development, more support for recruitment of local future 
educators and preparation for PRAXIS testing.
    The State of Hawaii Department of Education (DOE) employs 
approximately 4,000 Educational Assistants (EAs). The Federal ``No 
Child Left Behind'' (NCLB) act mandates that all EAs have at least an 
AA or AS degree or a minimum of 48 credits of college level course work 
completed by February, 2006. These funds will be used to assist the DOE 
in their efforts to address this workforce need.

              SCHOOL MAINTENANCE WORKFORCE SKILLS SHORTAGE

    Currently, many of the public school facilities have fallen into 
disrepair. Additional support to the school systems is needed in area 
of maintenance and repair. At this point, custodial workers in the 
system are qualified only to do light maintenance and repair work and 
often do not have the certification required to deal with the more 
problematic carpentry, plumbing, and electrical jobs that occur. Rather 
than continue to have schools contract out for this work, often at a 
prohibitively high cost to the school, the skills of custodians can be 
upgraded through credential programs in carpentry, plumbing, 
electrical, and painting. The training will result in: decreased 
maintenance costs, increased efficiency of facilities management, and 
enhanced employability for the trained custodians.

                       CUSTODIAN SKILLS TRAINING

    This program will upgrade the skills of custodians currently 
working in Hawaii's Public Schools so that they may enhance their 
employability credentials with both the school district and with the 
construction industry. The training provided will also facilitate the 
completion of a substantial backlog of repairs and maintenance required 
at facilities throughout the statewide school system. This specialized 
training program will be coordinated with the trade unions, the 
community colleges, and the Department of Education and will focus on 
carpentry, electrical, plumbing, and painting.

           FIRE FIGHTER AND EMERGENCY/FIRST RESPONSE TRAINING

    This program will provide both higher-level skills training for 
incumbent and entry level training for rural community residents. The 
program will work with the Hawaii State Fire Council to implement a 
Fire Fighter Specialty Training program for incumbent firefighters in 
the state of Hawaii, saving the departments the cost of sending their 
personnel to the mainland for this specialized training. A Wild Fire 
Training component will provide entry level training to rural community 
residents for fighting land wild fires both in Hawaii, and on the 
mainland during fire season. In addition to these skills, residents 
will have the opportunity to receive entry level emergency/first 
response training that will prepare participants in basic fire 
fighting, traffic control, emergency medical techniques, lifeguard, 
crime scene, and disaster preparedness.
    These state-based projects focus on efforts to train individuals in 
specialty areas to prepare Hawaii's workforce for current and 
anticipated job openings and to increase the number of individuals with 
specialized skills needed by the community. These projects seek to 
sustain our employment and employee base in Hawaii, removing the need 
for importing workers from the mainland while at the same time 
benefiting our community welfare.

           HAWAII COUNTY POLICE DEPARTMENT DRUG LAB TRAINING

    One of the unique needs that relates to workforce development is 
the request for drug lab equipment. Hawaii County has a backlog of 
cases assigned to its crime lab averaging six months. An article 
published in West Hawaii Today dated August 22, 2001, claims, and ``The 
backlog of cases slows the process for charging criminals, giving 
criminals opportunity to commit more crimes.'' There are also no 
forensic science programs available on the island. This program will 
purchase much needed equipment that will enable the lab to process 
cases on a timely basis. Without this equipment, the deterioration of 
the criminal justice system on the island will further deteriorate. 
Unless substances recovered within a few days of the perpetrators' 
arrests are properly and accurately identified, the alleged violators 
must be released creating a revolving door and an exacerbation of the 
drug challenge on the island.
    The equipment and the lab personnel will also be utilized to 
introduce students to law enforcement and forensics. In summary, 
increased and enhanced resources will reduce lab-testing time, 
resulting in quicker charging decisions and opportunity for swift 
prosecution, offender treatment or punishment, reducing recidivism. The 
quality of life in the community should improve with the overall 
reduction in not only drug crimes, but also the reducing the number of 
crimes of violence and property crimes usually driven by drugs. This 
liaison between Hawaii Community College and the Hawaii County Police 
Department should increase the number of students choosing law 
enforcement as a career and help address a chronic shortage of local 
applicants for job openings available to Hawaii County law enforcement 
agencies.

                  LONG-TERM CARE (LTC) WORKER TRAINING

    Life expectancy statistics have inched higher in the past decades: 
people are living longer. As the baby booms age the numbers of people 
who needing care in their later years is rising. The increase in the 
number of assisted living facilities around the nation and an increase 
nation-wide of in-home health care needs has prompted certification and 
specialized training in elder care and long-term care as well as a 
growing demand for more workers.
    The RDP will provide support for workforce training targeted 
specifically towards the needs of the Long Term Care industry. Maui 
Community College will work closely with the state hospital system and 
the Hawaii Long Term Care Association to provide entry-level training 
for Certified Nurse Aides specializing in LTC. Training for Care Home 
Operators will also be supported, along with specialty training for 
RNs.

                        MAUI ORAL HEALTH CENTER

    The Maui Oral Health Center (MOHC) is a partner with the Maui 
Dental Collaborative. Maui Community College's Nursing Program in 
partnership with the County of Maui established the MOHC in response to 
the critical need for oral health services and dental auxiliary care 
providers. MOHC serves as the classroom and clinical site for the Maui 
Community College Dental Assisting Program and provides affordable and 
accessible oral/dental health care to the underserved, low-income and 
uninsured families of Maui.
    During 2003 the Maui Oral Health Center (MOHC) was able to expand 
their dental staffing from 4 hours a week to 40 hours a week with the 
addition of two part-time dentists and one part time dental hygienist. 
The Dental Hygienist provides periodontal care for pregnant women 
through a grant funded by March of Dimes. She also provides fluoride 
treatments and sealants for children.
    In response to the significant dental needs of adults that are not 
covered by Medicaid, the Hawaii Department of Human Service Benefit, 
Employment and Support Division implemented a demonstration project for 
recipients. This project is designed to demonstrate that meeting Oral 
Health needs of individuals will assist them in returning to school or 
work. The project will begin early in 2004 and will provide $500/per 
recipient for dental care not covered by Medicaid.

                        VIDEO STREAMING PROJECT

    The video streaming project allows faculty to record and digitize 
classroom instruction and activities for delivery over the Internet. 
The MCC Nursing Program is delivering four courses via video streaming 
technology during the Spring 2004 semester. NURS 253 Psychiatric/Mental 
Health Nursing and NURS 253 Issues and Trends in Nursing II are part of 
the Associates Degree Nursing Program. NURS 261, Advanced 
Electrocardiogram Interpretation and PHRM 203, General Pharmacology are 
elective courses. The Pharmacology course has 93 students enrolled from 
Hilo, Kona, Kauai, Maui and Oahu. The Pharmacology course is required 
for a number of health careers including: dental hygiene, bachelors in 
nursing, radiology technician. All nursing faculty members are 
utilizing WEBCT for on-line student participation and delivery of the 
video stream via an Internet link. Faculty will be experimenting with 
the format and will soon begin to include ``call in'' questions from 
students who access the class via Internet from their homes.

              ELDER CARE/PERSONAL CARE ATTENDANT TRAINING

    The Elder Care/Personal Attendant Training was created to address a 
shortage of elder care professionals on Maui. The Maui Community 
College Center for Entrepreneurship facilitated the program and has 
trained 55 participants.

      APPLIED BUSINESS AND INFORMATION TECHNOLOGY PROGRAM SUPPORT

    This grant will enhance Maui Community College's capacity to 
contribute to the economic diversification and development in Maui 
County and throughout the State by continuing to support the 
development of Maui Community College's first four-year degree, the 
Applied Business and Information Technology (ABIT) Bachelor of Applied 
Science Degree. ABIT will provide workforce training, targeting the 
needs of the growing business and information technology industries 
that are leading economic diversification in Maui County.
    MCC administrators are also in the process of finalizing the 
details on the ``Sustainable Technology'' partnership between Maui 
Community College and Maui Electric Company to introduce renewable 
technologies and related curricula and upgrade the electrical/power 
infrastructure and install and demonstrate renewable energy 
technologies. The upgrade is one of the steps administrators are taking 
to streamline the University's expenses and reallocate these savings to 
cover ABIT development costs. Other cost-saving measures developed 
include moving the college to a paperless environment and improving the 
distance learning delivery system to capture the largest audience 
possible.

                       DISTANCE LEARNING SUPPORT

    A vital component in the growth and development of an educated work 
force throughout rural Hawaii is the ability to reach an audience of 
students from all areas of the state--including the large remote 
areas--by providing instruction through distance learning. While the 
University system has implemented a distance-learning platform through 
the Hawaii Interactive Television System (HITS), the delivery system 
and services need to be improved and expanded upon to provide an 
elevated level of value and service to distance learning students. This 
is imperative as the University prepares to develop accessible 
workforce training in new identified industries and established 
professions such as teaching and nursing.
    The RJTI grant will help the University develop and streamline the 
current system in order to expand statewide enrollment. In identifying 
future demands on the University, the new learning platform needs to 
better utilize professors' time, provide trouble-free, uninterrupted 
service, be user-friendly for all, and increase the perceived 
educational value in the eyes of the students. Administrators and 
faculty will continue to search out and identify new effective, user-
friendly distance learning delivery systems--such as streaming video on 
the internet that would reduce University expenses and help move the 
system to sustainability. It is these new approaches that will provide 
a flexible teaching format for future students facing educational 
barriers such as full-time jobs, living in rural area far from the 
colleges, or family responsibilities--barriers that keep students from 
the traditional campus-restricted environment.

                           JUST IN TIME NEEDS

    RJTI staff will work closely with the local Workforce Investment 
Boards and Workforce Development Division (WDD) One-Stop Centers on 
each of the islands. As job-training needs are identified, RJTI staff 
will work to meet these needs. One of the steps to diversifying 
Hawaii's economy is actively identifying emerging employment trends and 
opportunities and training a workforce to fill the jobs. One area of 
continuing support by RJTI is the state fire fighting community's 
training and workforce needs. When potential future employers look at 
Hawaii to build a business, they need the necessary skilled workforce 
to make the investment viable. The funds from RJTI will allow the 
University system the flexibility to assist these potential employers 
with their needs by developing specialized training courses. While 
identifying potential employers, RJTI will consider providing 
assistance in circumstances where needs match the objectives of this 
grant.
    While assisting new employers is critical to diversifying the 
economy, it is also important to work with established growing 
businesses in Hawaii on developing current and future workforce needs. 
By working in collaboration with local businesses, State leaders, and 
University facility, a community effort will be established that will 
develop a desired business environment and adaptable workforce in 
Hawaii that will attract mainland or international companies.

                             BIOTECHNOLOGY

    One of the economically divergent industries making a comeback in 
Hawaii is the agricultural industry. And one of the biggest debates in 
many communities is the issue of biotechnology. With continuing 
education, a growing segment of society is accepting the genetic 
alteration of crops, but the education and research needs to continue. 
Most of Hawaii's food is imported. The need for self-sufficiency is 
more important today than ever because some of the factors that affect 
the tourism industry (terrorism, political unrest, labor strikes, 
weather, etc.) can affect the arrival of outside supplies to Hawaii.
    Biotechnology will become an important segment of Hawaii's 
agricultural industry and a trained workforce is needed to continue the 
research as well as implement new changes in production.
    RDP will develop a program to train and assimilate biotech workers 
into the agricultural industry to meet the growing demand. It will also 
partner with other state and county organizations to positively 
influence the specialized research needed to move the biotechnology 
products into mainstream produce production. The effect will be a 
diversified and enhanced industry better equipped to meet the demands 
of an isolated populace.

                            TRADES WORKFORCE

    The carpentry and other trades continue to grow in Hawaii. Demand 
for carpentry laborers, finish carpenters, and other construction 
workers continue to rise as the demand for updated infrastructure and 
housing increases throughout the State.
    The Department of Defense recently announced a military housing 
privatization initiative in Hawaii that will allocate two billion 
dollars to renovate seventeen thousand aging military homes on Oahu 
over the next fourteen years. An undertaking of this size will require 
an extensive carpentry and construction-related workforce. In addition 
to the carpentry jobs, the housing project will need to be maintained 
and managed over the long-term which will lead to other local work in 
the trades as well as jobs in landscaping, repairs and maintenance.
    Funds from RJTI will focus on this employment opportunity by 
adapting training programs that will help local carpentry industry 
employees to qualify for these jobs. Since there will be a large exodus 
of workers from the outer islands to relocate and work on the Oahu 
project, these island communities will experience the depletion of 
their construction labor force. This construction worker shortage will 
need to be addressed. RJTI will identify each islands carpenter and 
other trades-related labor needs and design training programs to fill 
the demand and keep local men and women employed.

                       GUARDIAN AD LITEM PROGRAM

    Each year in the State of Hawaii, the Judiciary courts appoint 
Guardian Ad Litem (GAL) representatives for children in over 3,000 
cases involving charges of abuse and neglect. In recognition of the 
importance of providing quality based representation of children within 
the budgetary limitations of the state, the 2002 Legislature requested 
a study of the practices that exist in Hawaii and on the mainland in 
respect to GAL ``to determine if a more effective and less costly model 
can be identified''.
    The extensive review of systems resulted in five recommendations, 
one of which was that a pilot project that encourages flexibility in 
the use of resources. The Legal Aid Society of Hawaii (LASH) has been 
providing GAL services under contract to certain courts for the last 
six years. LASH proposes a model that includes flexibility in the 
staffing, training, recruitment, and coordination of all GALs and those 
working with them including staff and lawyers. An 18 month timeframe is 
estimated for the development and implementation of this proposed 
project which would result in more experienced and willing providers 
working in a cost-effective framework as recommended by the Legislative 
report.

                             TECH MENTORING

    For the last 25 years, the high technology industry has been 
considered the best solution to the quest for a diversified economy. 
This is the only industry (other than tourist items) that produces a 
product light enough and easy enough to be shipped out of the state and 
still be profitable. While many of the high tech component 
manufacturing has moved to the mainland for a number of reasons, the 
training of a high tech workforce that can provide the quality needed 
without importing people from out-of-state is a goal recognized as 
essential by everyone. This would reduce the ``brain drain'' of 
Hawaii's young people moving to the mainland by providing higher 
salaried jobs for them here, provide products requiring almost no 
shipping costs (software, video, films) that would put us in parity 
with most of the world, and better meet the needs of Hawaii's 
businesses for quality Information Technology workers.
    The training will mentor youth with business professionals 
resulting in a connection between classroom learning and real-world 
projects. Partners for this program include non-profits with education 
missions in high technology and non-profits working with displaced 
youth such as Goodwill Industries. This mentoring will improve student 
retention and guide them into high tech courses, reach out of school 
youth resulting in GED completion and high tech vocational training, 
and result in a better trained workforce able to meet the needs of 
Hawaii's businesses and the IT industry.

               OAHU ANTI-ICE HPD JUNIOR OFFICER TRAINING

    For years, two factors have been actively creating a social and 
criminal peril to the people in communities on Oahu. The first is the 
drain of police officers from the Honolulu Police Department (HPD) by 
police departments on the mainland, mostly from the western coastal 
states. These departments actively recruit trained police officers from 
Oahu using higher pay, more benefits, and a lower cost of living as 
incentives. This has prevented HPD from maintaining full staffing and 
adequately protecting society. The second factor is the steady rise in 
the use of the drug ``ice'' in many communities. Now Oahu has a very 
serious ice epidemic without the sufficient police resources to fight 
it.
    The Anti-ice HPD Junior Officer Training program will work to 
attract high school and post-high school young adults to careers with 
HPD. The greater emphasis would be to include high school students in 
community training and community watch programs to help the police 
monitor the actions of ice and other criminals. This would help to 
interest the students in a career in police force or to continue their 
education with that career as a goal. For post high school youth it 
would provide them with exposure to the police resources and on-the-job 
experience as a way to encourage them to enter a career in public 
safety.
    The effects of this training would be an increased police force 
and, at the same time, the safety of the public will be increased.
       criteria for assessing the viability of rdp/rjti proposals

Real Long-Term or Compelling Community Need
    Health care and public education are viewed as both long-term and 
compelling needs. The initiatives in these areas seek more lasting 
impact than the period of resource might suggest. Such examples as 
supporting the creation of nursing preceptorship curricula to address 
the current and impending nursing shortage and to be implemented by the 
public hospitals in future and addressing existing and projected 
teacher shortages in rural communities through ``bootstrap'' software 
to allow residents to meet teacher preparation admission criteria 
through perpetually licensed online software and mentor assistance 
present longer term approaches to endemic problems.

Jobs, Training and Work Experience
    Some of the projects will identify training, work experience and 
jobs in rural communities that may be relatively small in number but 
essential to the communities' economic and often resident health. 
Especially on the islands of Lanai and Molokai, whose populations are 
particularly small, such services as preparing nurses for dialysis 
treatment permit residents to obtain relief at home without the expense 
and risk of a regular flight schedule to Honolulu. Such training 
creates community capacity to prepare future trained personnel from 
within the organization and community. While such job creation may be 
especially costly in small communities, the presence of such critical 
infrastructure elevates the possibilities for workers with such 
afflictions to access employment opportunities.

Effectiveness of Short- and Long-Term Strategies
    Proposals are additionally evaluated for the feasibility of the 
solutions for continuing services and programs beyond the life of the 
RDP grant. Short-term training projects must demonstrate the immediate 
job availability. Regarding longer-term proposals, the cooperating 
employer or agency must commit to perpetuating proposed project 
outcomes through identifying a future funding source or some other 
answer to continuing the service or program. Such commitments might 
also include an employer's willingness to match the RDP investment to 
assure the continuation of services.

                 COST-EFFECTIVE--REASONABLE PERSON TEST

    At stake in the rural communities of Hawaii are the interacting 
factors of: (1) small economies, markets, and workforce; (2) 
susceptibility of these economies to national, regional and 
international disruptions; (3) concern for the environment; (4) 
preservation of the Hawaiian Culture; (5) desire to stimulate economic 
development and upward mobility; (6) search for some level of social 
equity to sustain a sense of an island community whose disparities do 
not result in growing alienation between local residents and new 
immigrants. Among these factors, the cost relationship to the outcomes 
must consider all of these criteria to reinforce the sustainability of 
the proposed initiative.

Contribution to Sustainable Economic Development and Diversification
    Although economic developments may not be reliably predicted, 
marketing trends; business, social, technological, and scientific 
directions will be analyzed to judge the future viability of each 
project. The extent of each project's ability to diversify rural 
Hawaii's economy will also be an important focus.

Sustainability of Initiative
    Details of the proposal's sustainability will be presented and 
reviewed wherever appropriate. In some cases such as training for a 
specific number of positions, the sustainability requirement may not be 
applied. However, opportunities to explore some matching employer 
contribution for future training will be undertaken. In most cases, a 
reasonable approach of between five to ten years to continuing RDP-
initiated services and programs will be sought. Details of the source 
and strategy for perpetuating such initiatives will vary with each 
project.

UH, State, Federal Rules and Regulations Compliance
    All RDP projects must meet all of the project-related regulations 
governing the grant as well as UH and state requirements.
    Just-in-Time Education & Training.--The project will continue to 
expand ``just-in-time'' education and training designs that identify 
and prepare under-employed and unemployed residents for projected 
vacancies due to retirements and turnover in cooperation with existing 
private and public sector employers.
    Employment Opportunities.--The project will continue to work 
towards identifying and addressing employment and training 
opportunities with other businesses, entrepreneurial enterprises and 
government employers.
    Capacity Building.--The project will continue to explore and 
address needs for capacity and infrastructure building in Hawaii's 
rural communities.
    WIB.--The project will continue to develop and maintain 
relationships with the Workforce Investment Boards on each island.
    Partnerships.--RDP will continue to develop and maintain employment 
and training initiatives with other partners and resources that can be 
used in conjunction with the Department of Labor grant funds and 
continue to apply these resources to a comprehensive array of services 
to all residents in need of employment and youth in need of workforce 
awareness preparation and training.

Enhancing UH System Economic Development Capacity
    One of the primary objectives of the RDP & RJTI grants is to 
enhance the University of Hawaii System and specifically, UH rural 
community colleges' capacity to provide education, training, workforce 
development services, and economic development support to the rural 
communities in the state of Hawaii. Towards this end, all programs 
implemented must support this objective. Although sub-contractors may 
be utilized as partners and support for programs when necessary, they 
will only be used to provide services that are not available and/or not 
considered practical to be offered by the UH System.

               HAWAII ISLAND NEEDS AND PROGRAM HIGHLIGHTS

    The Big Island Rural Development Project (RDP) is challenged by the 
needs of Hawai'i County's diverse rural communities. Hilo and Kona 
serve as main ports of call and as a result are more enhanced in terms 
of economic activity as compared to other major regions on the island. 
The demise of sugar plantations, once a consistent contributor to the 
island's economy has mired economic opportunities in the Hilo-Hamakua, 
Puna, and Ka'u regions. Hundreds of residents in these areas faced 
drastic lifestyle changes, which also affected a variety of prosperous 
businesses that served both the industry and its employees. The effects 
of these closures still linger.
    The RDP has begun to identify and support ways to diversify the 
island's economy to create job opportunities and to assist with 
preparing the workforce for anticipated job openings. Through the 
expertise of the Hawai'i Island Community Advisory Committee, other 
community-based leaders and their respective agencies and 
organizations, they have helped to address and support strategies to 
carry out these goals. Some emerging industries identified include 
astronomy, forestry, agriculture, biotechnology, environmental science, 
computer technology, tourism, entrepreneurial development, education 
and health and safety. RDP has looked at ways to assist with 
entrepreneurial development and to train or retrain residents to 
qualify for jobs and new careers.
    Support of community leadership training and community-capacity 
building would assist organizations with addressing economic 
development from a community-based perspective. Opportunities will be 
provided through programs such as: Community Connection, Family 
Leadership Circle, State Rural Health Conference, and the Emergency 
Response Academy.
    In the Puna district, the Backyard Awa Project and Backyard Noni 
Project provides opportunities for families to utilize their land to 
begin a small business in one of the most desolate areas of the Big 
Island. In the Hilo and Puna districts, a Farmer Training (Hydroponic 
Vegetable) Program will also support utilization of available land to 
begin small agricultural businesses. Island-wide, the Pork and Beef 
Utilization Project will enhance the agricultural industry through 
training for value added product development by utilizing secondary 
parts. Other island-wide projects address the shortages in the nursing 
and education industries through credited workforce training and 
retention programs.
    Partnerships and leveraging of resources with community entities 
and the Workforce Development Division have been developed to provide 
workforce training. Computer basics and advanced classes have been 
conducted in these areas to address computer literacy needs as well as 
job specific skills training. Other similar efforts have been 
identified to continue addressing economic and workforce training on 
the island. To provide entrepreneurial opportunities to residents in 
the Hilo-Hamakua district, the continued partnership with Hawai'i 
County Economic Opportunity Council Honoka'a Ohana Incubator Kitchen 
has increased its capacity by making available more enhanced equipment 
to encourage more diverse usage of the facility. We will continue to 
build upon this model and assist other incubator kitchens through 
dissemination of information and sharing of resources.

                   LANAI NEEDS AND PROGRAM HIGHLIGHTS

    The Lanai RDP was instituted to empower the residents of the Island 
of Lanai with the support they need to succeed in today's economy. They 
have a proven to be very effective in this capacity as is evidenced by 
the success of the Community Computer Training Facility and Lanai 
Online web page. New programs will be used to enhance the usability of 
these existing facilities and to take advantage of the career 
opportunities offered by the Lanai Company, the largest employer on the 
island. The summer Teen Advantage Program has allowed high-school 
students to gain valuable work experience that leads to unsubsidized 
employment.
    New programs will focus on the following:
  --Culinary arts
  --Specialty computer lab training
  --Development of a digital media production center
  --Trades training
  --Online e-commerce market place.
    The goal of all projects is to provide the rural community of Lanai 
with the skills and resources to enter the workforce, retain 
employment, or to succeed in an independent business.

                   KAUAI NEEDS AND PROGRAM HIGHLIGHTS

    The Kaua'i Rural Development Project (RDP) is a community driven 
partnership between the U.S. Department of Labor and Kaua'i Community 
College. The RDP is supported by various government agencies, service 
organizations, and businesses on the Island, through its Community 
Advisory Committee.
    The purpose of the RDP is to develop a long-term sustainable 
community based project on Kaua'i that: (1) provides timely and 
effective employment training and business support to meet the 
constantly changing economic conditions, (2) facilitates economic 
sustainability, (3) encourages life long learning, and (4) improves the 
quality of life for island residents.
    Using The FARM as its operational base, the RDP will continue to 
train and facilitate life long practical learning for the residents of 
Kaua'i. The FARM is a comprehensive training and business support 
complex situated on a 40-acre parcel of land adjacent to Kaua'i 
Community College. The complex features demonstration fields and 
classroom facilities that utilize hands-on training to teach students 
``real life'' experiences and methodology. The Digital Media Center is 
also housed at The FARM. The DMC provides training in the digital media 
field to include such applications such as Adobe Photoshop, 
Illustrator, and Microsoft Publisher. It is envisioned that once 
completed, The FARM will operate self sufficiently beyond the life of 
the grant.
    To promote life long practical learning and to help strengthen and 
diversify the employment/economic base of Kaua'i, the Kaua'i RDP plans 
to concentrate its efforts in the following categories:
    Distance Delivered Learning.--To address the critical need for 
``home grown'' teachers, RDP will provide an avenue for residents to 
earn their college degrees and teaching certificates. Through the 
purchase of video conferencing equipment, residents can access college 
level teaching courses without the need to relocate. RDP plans to 
collaborate with Kauai Community College and other institutions to 
develop a teacher education curriculum and the means needed to deliver 
the curriculum.
    RN & LPN Preceptorship.--With the alarming decline of qualified 
nurses occurring throughout Hawai'i and Kaua'i, RDP will partner with 
other organizations to provide clinical preceptorship, specialty in-
service education, and job enhancement skills to recent KCC nursing 
graduates. Through the preceptorship program, graduates will gain 
proficiency and confidence to smoothly transition into employment 
opportunities in the health field.
    Small Business Training & Support.--The failure of new start-up 
businesses and the bankruptcy of existing businesses will have a 
negative impact on economic growth and employment stability on Kaua'i. 
The RDP proposes to initiate a series of classes, workshops, seminars, 
and counseling services to help alleviate problems and mistakes small 
businesses commonly make. The RDP, through its Digital Media Center, 
will also provide assistance to businesses in the area of marketing 
that may include advertising, web page design, and flyer/brochure 
development.
    Incumbent/Dislocated Worker Training.--Unemployed or dislocated 
residents are finding that they need to develop new skills to re-enter 
into the workforce. With the constantly changing environment and 
workplace, even people employed are finding it necessary to acquire 
additional skills in order to retain their jobs or to advance in terms 
of responsibility and wages. The RDP will provide training to assist 
these individuals to enhance their skills or employment opportunities.
    Agriculture/Agro-Forestry/Aquaculture Training.--To strengthen the 
economic base of Kaua'i, it is essential there is a diversity of 
industries successfully supporting the economy. With the recent 
catastrophe at the World Trade Center and a possible protracted 
recession, Kaua'i can ill afford to depend on the sugar and tourism 
industry. Kaua'i needs to develop new industries to enable it to 
sustain itself through hard times. RDP proposes to provide training 
that enhances employment and business opportunities in the areas of 
agriculture, agro-forestry, and aquaculture. Emphasis will be placed on 
field practices, regulatory compliance and safety issues. The FARM will 
be utilized as a ``demonstration working model'' where actual 
agricultural doctrines are practiced. It will develop demonstration 
fields that will promote and educate the community about potential 
crops, various production techniques, and prospects for agricultural 
and aquacultural diversification.
    Community Builder Program.--RDP in partnership with the Council for 
Native Hawaiian Advancement is proposing a pilot program that provides 
capacity building and technical assistance to the community of Anahola. 
The hands-on approach enhances leadership, strengthens the 
organizations, and empowers them to increase their impact on the 
community by the creation of new employment opportunities.

                       MAUI NEEDS AND HIGHLIGHTS

    Maui supports a wide spectrum of workforce opportunities from rural 
backyard agriculture in East Maui to high technology at the Maui High 
Performance Computing Center. (Research and Statistics Office, 
Department of Labor and Industrial Relations, State of Hawaii) Though 
available, many unemployed individuals are unable to take advantage of 
these opportunities due to lack of training. Two hurdles that often 
impede underemployed and unemployed from obtaining the training they 
need are: (1) lack of economic means and (2) inability to attend 
training classes because of time or location constraints.
    The challenges that Maui RDP faces are to bring affordable 
educational resources and skill-training opportunities to individuals 
in order to provide a trained or trainable workforce and to create 
entrepreneurs who might start small businesses. These training 
opportunities must meet the economic and workforce needs of the Island 
in order to result in sustainable successful employment of the trainees 
and participants. Specific areas that have been identified by county 
members and CAC are outlined below.

                      MAUI MEDICAL WORKFORCE NEEDS

    According to projections from DLIR, Home Health Aide is one of the 
top two fastest growing occupations in Maui County. This in part due to 
the expected increase in elder population (HHIC, http://www.hhic.org/
healthtrends/index.asp) and to the nationally recognized shortage in 
long-term caregivers (AHCA newsletter, 2000.) As of the end of 1999, 92 
percent of long-term care beds in Maui were occupied, further 
indicating the growth of the population in need of health care workers 
who are qualified for this specialty (Maui County Data Book.)
    In a recent survey of the immediate and projected health care 
employment needs, several Maui based Health Care Agencies clearly 
stated their support of the development of a broad set of training 
programs in elder care
    In response to this request, MCC's Visitor Industry Training and 
Economic Development Center (VITEC) and Nurse Training Program have 
proposed the development of a Health Care curriculum that would use a 
combination of both credit and non-credit courses to train and certify 
qualified and highly capable health care workers for our elder 
community.

                     MAUI EDUCATION WORKFORCE NEEDS

    Maui County suffers from a critical shortage of certified teachers. 
According to the most recent DOE Annual Vacancy Report for Maui County, 
173 teaching positions were vacant (main vacancy areas: Math, Science, 
Special Education, Hawaiian Immersion, Home Economics, Industrial Arts, 
Librarians, Counselors).
    The shortage can be attributed in part to:
    (a) Low retention of qualified teachers.--(The DOE has been unable 
to fill these teaching vacancies, often resorting to recruiting 
teachers from the Mainland. These recruits tend not remain in Maui 
County since they are not from the communities they teach in and have 
difficulty with acculturation. The statewide retention rate for newly 
hired teachers is only 45 percent by the end of the second year of 
employment), and
    (b) Lack of adequate training and certification programs on the 
Island of Maui.--(As an alternative approach to solving the shortage, 
the Maui County DOE has hired several ``substitute'' and temporary 
teachers who are uncertified and will require training leading towards 
their certification if they are to remain in their current positions.)
    Current solutions to these problems being used across the country 
include; progressive mentoring programs for first year teachers, 
increased effort to train more Educational Assistants (EAs), provision 
of Alternative Certification programs for teachers with bachelors 
degrees, and the development of Career Ladder curricula for teacher 
education. A thoughtful combination of these strategies applied to the 
specific educational needs on Maui can be used to increase the 
population of qualified and CERTIFIED teachers in our public schools.

                       MAUI SMALL BUSINESS NEEDS

    In 1996, businesses with fewer than 500 employees accounted for 
55.9 percent of the states non-farm private sector employment. A 1997 
report from Maui County Data book (2000) sets over 50 percent of Maui 
farms as individual or family run (sole proprietorship.)
    Many small businesses have reported difficulties after their first 
year of operation due to a need for ongoing training in basic business 
practices (such as budgets, marketing, accounting, tax regulations 
etc.) and for introduction to new strategies in production and 
management.
    Several agencies are addressing immediate practical needs of the 
small business entrepreneur through the proposed development of 
resource centers for retail startups and small business incubators. 
These include a retail business resource center to help in the 
revitalization of Wailuku (county seat), a small business incubator 
through the MCC Center for Entrepreneurship, and a ``virtual 
incubator'' for developing tech industries on Maui. Preliminary 
estimates put the number of participants in these incubator programs 
between 100-400 for the first year. RDP will provide training and other 
support services for this program.

                          MAUI WORKFORCE NEEDS

Incumbent Worker Training
    One of the main areas of focus stated in Hawaii's Workforce 
Investment Act Plan is the training of incumbent workers (http://
dlir.state.hi.us/wia/chapter_2_vision.htm). Training of this sector of 
our workforce serves three valuable purposes in our community: (1) to 
increase job retention rates, (2) to promote professional advancement, 
and (3) to increase in the availability of entry-level positions to 
under- and unemployed individuals.
    Maui businesses in previous workforce development focus groups have 
specifically indicated that they need training programs that they can 
easily adapt to their on-going operations. Ideally, these training 
programs would be comprehensive but brief, modularized but 
developmental, and could be taught in-house by their own management 
once given adequate instruction and guidance. Once implemented, these 
training programs can be applied to incumbent workers for advancement 
and to entering new employees in order to insure a continued high 
standard of service for the business.

Entry Level Training
    The Workforce Development Department (WDD) of Maui has stated that 
they have received a significant level of requests for entry-level 
training from retail, restaurant, and selected service industries on 
Maui.
    Specifically, they have received several requests from employers 
for employees with a commercial driver's licenses. In the past, WDD 
would send clients to a CDL course offered at Leeward Community College 
but the expense of the course and transportation now inhibits this 
option. WDD has requested the development of a CDL course in Maui and 
will be able to fund participants when the course is offered.
    Though retail and restaurant training programs are available 
through VITEC's RITE and RISE programs there still is a need to develop 
support programs for newly placed employees in these industries. These 
efforts could easily be combined with the Incumbent training 
initiatives mentioned in item I of this section.

Technology Workforce
    According to the WDD for Maui County there will be a 50 percent 
increase in the number of jobs for software engineers, just one of the 
many tech related skills that are becoming more and more in demand on 
Maui. More high tech jobs are on the way to Maui through the Defense 
Department interests and through the new University of Hawaii 
management of the Maui High Performance Computing Center.
    These incoming interests need to be able to tap into the large 
number of skilled workers on island and the many others that wish to 
return to Maui from the Mainland. (Many individuals have left the state 
to pursue technical careers simply because they do not feel they can 
have such a career in Hawaii.) Identification of these populations 
would encourage investors in high tech fields to come to Maui, creating 
the opportunities that would draw and retain this highly skilled group 
of workers. In addition, the identification of the technology 
businesses and workers on Maui would allow RDP to use its unique 
affiliation with the University of Hawaii and MCC to help students find 
on the job training through intern opportunities offered experts in 
technology.

                  MOLOKAI NEEDS AND PROGRAM HIGHLIGHTS

    Molokai RDP's focus is to capitalize on community assets as the 
cornerstone of economic development.

                         MOLOKAI AND THE TRADES

    Molokai has 1 licensed masonry contractor, 8-10 licensed 
carpenters, 1 licensed plumber, and 2 licensed electricians. Typically, 
off-island contractors receive the major construction contracts on 
Molokai due to a lack of capacity on-island. Most construction type 
laborers on-island are non-union and significantly less skilled than 
their off-island counterparts. The stark contrast between non-union and 
union workers exists in pay scale, benefits, and job opportunities. 
Non-union workers make between $15-20/hour without benefits. Union 
workers earn an estimated $30/hour plus hourly vacation pay, annuity, 
and medical, dental, and chiropractor benefits which total cumulatively 
to $55-65/hour. Union jobs are unavailable to the largely inadequately 
skilled pool of Molokai construction workers who do not possess 
journeyman status or an apprentice card. Additionally, for those who 
are eligible, the high union dues coupled with the small amount of 
construction contracts on Molokai pose a disincentive for resident 
construction laborers to pay union dues.
    In order for Molokai laborers to be competitive in the construction 
industry, they need to increase their work skills. RDP partnership with 
existing Molokai licensed contractors to conduct on-the-job training 
along with formal instruction at the community college would qualify 
committed individuals to apprenticeship programs with the union. This 
in turn will allow Molokai trainees greater access through the union to 
steady construction work on and off-island.
    With prospective employment in major military construction projects 
on Oahu, it is our hope that individuals from rural communities like 
Molokai may also access jobs generated from this effort. With the hours 
earned and experience gained, Molokai individuals may eventually 
qualify to become licensed contractors, thereby enhancing the island's 
own capacity to compete successfully for Molokai construction 
contracts.

                       MOLOKAI ONGOING CHALLENGES

    RDP's objective is to determine what gap areas exist in the 
workforce that require added skills and training to residents. However, 
the unique challenge faced in very small rural areas like Molokai is 
that building capacity requires not only increasing job skills but 
helping to fuel the economy in creative ways that neither exceed that 
community's carrying capacity nor degrade natural and cultural 
resources, the social framework, and other special characteristics. 
Jobs are scarce on Molokai, therefore RDP needs greater flexibility in 
exploring and assisting not only in work training initiatives but also 
in job creation and economic stimulation. While RDP is charged to 
invest in projects that commit to sustainability, it often is called to 
play a more active role in assisting projects to achieve 
sustainability.

                       OPPORTUNITIES & SUCCESSES

Molokai Commercial Kitchen
    Current RDP projects, like the Lanikeha Commercial Kitchen, show 
potential clients taking their finished products to the next level. The 
Lanikeha Commercial Kitchen has two (2) regular users: Chong's Poi Shop 
which distributes fresh poi to local stores on a weekly basis and 
Moki's Munchies which processes weekly steamed muffins also marketed in 
the local stores. Other users are at the test batch and marketing 
stage: L&R Farms developing a sweet potato chip product and F&G yam 
farmers creating a special yam chip. Other users like a local deli 
operation working on bottling its delicious house salad dressing and a 
homemaker creating fresh coconut candy strips are in the early product 
development stage.

Molokai Slaughterhouse
    In collaboration with the state and county governmental agencies, 
RDP is providing equipment, training and personnel funds to bring on-
line the new Molokai Slaughterhouse facility. While other, older 
slaughterhouses in the state are phasing out due to non-compliance with 
new regulations, the opening of this state-of-the-art facility poses a 
tremendous economic boon for Molokai and an opportunity for other 
islands to get their animals processed. A tentative commitment has been 
made to ship animals from Maui for processing at Molokai's 
slaughterhouse. Inquiries have also been made by Big Island 
slaughterhouse personnel to process some animals on Molokai. Ranchers 
and homestead farmers on-island now have a venue to process their 
animals. There is approximately 3,500 to 4,000 head of cattle on the 
island. An estimated 150 Molokai families raise livestock largely for 
home consumption; with the advent of the slaughterhouse, there are now 
opportunities for these small-scale farmers to expand into commercial 
livestock production. The grocery stores need not import meat from off-
island as they will now have access to meats reared and processed right 
on Molokai. The monies generated will benefit the community directly. 
The Molokai Livestock Cooperative in conjunction with RDP is soliciting 
applicants for a manager position. The interviewing and hiring process 
will take place shortly.

Molokai Business Assistance Center
    The Molokai RDP supported the establishment of a ``without walls'' 
Business Incubator & Counseling Center (BICC) which served a clientele 
of over 100 residents at various stages of entrepreneurship 
development. The program was completed in July 2003 and RDP and its 
Community Advisory Council (CAC), comprised entirely of voluntary 
leadership in the community, has dedicated many planning hours to 
revamping and improving services provided to Molokai's existing and new 
entrepreneurs.
    RDP is in the process of hiring a Business Assistance Coordinator 
as a kick-start to the program. This position is critical to assisting 
clients in the formation, success and longevity of their businesses. It 
is designed to link clients to appropriate business resources located 
on and off island, connect individuals to online business expertise and 
entities that provide start-up capital. Various partners like the 
Molokai Chamber of Commerce, the US Small Business Administration, 
Hawaii Small Business Development Center, MEO Business Development 
Corporation, the Molokai Enterprise Community, Molokai Community 
Service Council, the Queen Lili'uokalani Children's Center, the Maui 
Community College--Molokai Education Center, and other entities in the 
private, public, and non-profit sector are also involved in this 
effort. Sustainability is anticipated with the advent of a permanent 
county Economic Development Specialist position on Molokai.
    There is a critical need for small business development is 
certainly promising and compatible particularly in a rural setting 
Small businesses tend to have greater longevity than corporations in 
that their size allows for greater innovation and adaptability to 
changing economic conditions.
    A kind of innovative and creative spirit is prevalent on Molokai, a 
place where the resident population prides itself on its ability to 
perpetuate a lifestyle grounded in tradition and where ``Mom and Pop'' 
operations constitute the norm rather than the exception. Consistently, 
one of the highlights every weekend in downtown Kaunakakai is a 
Farmer's Market showcasing local, Molokai homegrown produce, food 
treats, handcrafts, and art pieces. Given access to the right resources 
and services, these vendors and other like-minded individuals have the 
potential to grow businesses that could market successfully to a much 
wider consumer base. The Lanikeha Community Kitchen for which RDP and a 
number of partners co-sponsor is working with residents on test 
batching and marketing analysis of value-added food products. The 
Molokai state-of-the-art slaughterhouse has been recently completed. As 
animals are processed through that facility, opportunities for value-
added meat products and cross-pollination with other enterprises like 
the commercial kitchen will arise. The Molokai Enterprise Community's 
strategic plan identifies several economic projects that point to small 
business development on island.

                                 HEALTH

Molokai Dialysis Training
    RDP covered costs associated with training 3 hemodialysis 
technicians. All 3 remain employed at the Dialysis Center located in 
Kaunakakai, central Molokai. The Dialysis Center has expanded its 
operations to 6 days a week in order to accommodate the rise in patient 
numbers. This patient increase also calls for another job position for 
a part-time Registered Nurse to cover the extra shifts. With the 
collaboration of several partners (Saint Francis, Na Pu'uwai, DOH, OHA) 
and commitments made by Senator Inouye and other federal and state 
legislators, RDP is helping to support the expansion of dialysis 
services to remote Kalaupapa Peninsula, the home of Hansen Disease 
patients. RDP will again cover initial and expanded training costs for 
hemodialysis technicians.
    The planned infrastructural improvements and expanded services at 
the Molokai General Hospital and the establishment of a community 
health center for the un-insured and and under-insured will pose new 
job opportunities for which RDP could play a vital role in workforce 
training.
    The hospital's anticipated phase out of long-term care will 
necessitate a response from the private sector. The training of Long-
Term Home Care Operators is envisioned.

Molokai Teacher Preparation
    RDP provides PRAXIS Test Preparation workshops to help current 
teachers retain their jobs given new, more stringent National and State 
education standards. To date, 9 participants have passed the 
examination.

Archaeological Inventory & Cultural Monitoring
    An Archaeological Inventory & Cultural Monitoring training program 
for 15 individuals is planned. Formal instruction along with field 
reconnaissance work, site identification, and mapping of an entire 
ahupua'a will be conducted. This training is seen as the first step to 
developing a positive track record and encouraging other landowners to 
participate in further surveys which will bring the community closer to 
its goal of completing an island-wide inventory. Trainees will also 
enhance their employability in this area. Some projects planned for 
Molokai include a request by Molokai Properties, Ltd. (formerly Molokai 
Ranch) for identification of archaeological features on their lands in 
order to develop a land management plan; the development of a cultural 
resources management plan by Pu'u O Hoku Ranch, Ltd. And Halawa Valley 
Land Trust for properties in Halawa Valley; a rock art inventory 
project by Volcano Art Center; and an upcoming reconnaissance survey to 
be conducted in Halawa by the National Park Service. It is anticipated 
that out of the 15 trainees, 8-10 will become certified for 
archaeological inventory survey and cultural monitoring positions.

    Senator Inouye. I thank you very much, Dr. Sakamoto.

STATEMENT OF RAMSEY R. PEDERSEN, CHANCELLOR, HONOLULU 
            COMMUNITY COLLEGE

    Senator Inouye. Now may I call upon Chancellor Pedersen.
    Mr. Pedersen. Senator Inouye, Senator Akaka, thank you for 
the opportunity to testify before you today. My testimony is 
written and I would like to make that part of the record.
    Senator Inouye. Without objection.
    Mr. Pedersen. And speak directly to a couple of major 
issues. The Governor actually took a lot of my testimony and 
already said it, so I will defer to her on those issues.
    But we are the home of construction training for the island 
of Oahu. We are the apprenticeship training coordinating group. 
We work with all of the unions involved and with the American 
building contractors, the non-union apprenticeship program, and 
we work with them quite closely in terms of trying to judge and 
figure out where to go on these issues.
    A couple of things are quite clear. Number one, the 
expansion is going to require more training. That training is 
going to have to be also put where the possible employees, the 
new employees, are going to come from. The research that we 
have shows that the unemployment rates on the Leeward side and 
the Central and North Shore of Oahu dictate that the new people 
coming into the industry will come from those areas but also 
from what we hope will be high school alignments that the 
Governor alluded to that we're working with the Department of 
Education.
    Given that, Honolulu Community College, which is pretty 
well maxed out in terms of its space and availability to train, 
is recommending that we work with the industry to create 
another major training center in west Oahu, that we look at 
expanding the ability to take services out to where the 
population is that needs the training. And one of the greatest 
under-utilized resources in the State right now is Ko'olauloa, 
and we are very interested in terms of being out there.
    The Carpenters Union is going to be developing another 
training center at Ko'olauloa. We have a 71-bed facility that 
we have not been able to open that we took on for aviation use. 
And since 9/11 curtailed the aviation development, we're 
looking towards opening that up for neighbor island apprentices 
to be able to have a place to live in this extremely expensive 
housing market in terms of dealing with those kinds of issues.
    In terms of working with the Department of Education, we 
are contracting the Center for Occupational Research and 
Development, or CORD as they're known, and their President Dan 
Hull, who wrote the book Keppra and wrote the relationship in 
terms of how community colleges and high schools should align 
themselves to create coordinated cohesive contextual training 
program.
    Dan and his group will be coming out here in 2 weeks to 
work with us, and the Department of Education, and Department 
of Labor, the unions, and others in terms of a development of a 
four-course sequence which fits into the curriculum guidelines, 
and the new high school graduation requirements of the 
Department of Education are going to be implemented.
    I'm sorry that Patricia Hamamoto isn't here right now 
because that's the person who is spearheading that in her 
organization with us and they're partnering with us on this.
    The idea is that we can expand the incoming pool of 
qualified people. Kids today are gamers. They are not builders. 
And we have lost a lot of the ability, as one of my 
apprenticeship coordinators told me, of a father and son to go 
into their shop and build something together. Given that change 
in technology and change in terms of innovations, bringing 
students back into the processes of tooling, of understanding 
technology, of looking at basic fluids, dynamics, how the 
sciences operate in relationship to this would be addressed in 
this high school curriculum that we will also make available to 
the entire State. This will give us standardized contextual 
curriculum to all high schools willing to want to embrace it.

                           PREPARED STATEMENT

    We, at Honolulu Community College and our colleagues on the 
neighbor islands, will be proposing to also make that 
available, upon space available, to the students whose schools 
do not have this. We'll be able to create a much larger pool, a 
much larger population of individuals that will be trained and 
able to take these jobs that are going to come up.
    So we're looking forward to working on these projects and 
we please ask for your support in the future and we're very 
excited that this opportunity has come about. Thank you very 
much.
    [The statement follows:]

                Prepared Statement of Ramsey R. Pedersen

    Members of the Committee, mahalo for the opportunity to testify 
before you relating to increasing Hawai'i's trades program to meet the 
demand brought about by the privatization of military family housing.

                      CONSTRUCTION TRAINING ISSUES

    Honolulu Community College coordinates all construction 
apprenticeship training for the island of Oahu, and has certificate and 
associate degree programs in Applied Trades, Carpentry Technology, 
Architecture, Engineering, & Computer Assisted Design, Electrical 
Installation and Maintenance Technology, Occupational and Environmental 
Safety Management, Refrigeration and Air Conditioning Technology, Sheet 
Metal and Plastics Technology, and Welding Technology.
    Enrollment in apprenticeship hit a low of 1.042 in Fall, 1997. This 
was the result of a prolonged static construction market. Fall 2003 
enrollment was 2,163. Enrollment in all construction technology degree 
and certificate programs was 601 majors in Fall, 2003.
    There is an unprecedented surge of energy in the construction 
industry. 2004 total value is estimated at $4 billion--the first such 
year since 1988. This has led to the rise in apprenticeship training, 
and does not include future expansion necessary for the military 
construction and remodeling projects. It is anticipated that a total of 
close to 10,000 jobs will need new employees in the industry over the 
next eight years due to expansion and attrition.
    The training process takes five to six years to complete the 
related training in apprenticeship and the required hours of work 
experience under the supervision of journeyworkers. A surge in hiring 
is anticipated as military projects come on line during the next 16-18 
months, but the trades are caught in a ``chicken or the egg'' 
situation. They are not able to indenture apprentices without work 
experience opportunities, but may not have enough workers in the 
pipeline to meet the demand.
    Large trade unions such as the Carpenters Union are gambling on the 
work being there. They plan to have an intake of an additional 400 
apprentices by Fall, 2004. Smaller unions have to take a wait and see 
approach due to limited training opportunities and the required ratio 
between journeyworkers and apprentices, usually 3 to 1.
    It is anticipated that not all of the work subcontracted by Actus 
Lend Lease and Flour/Hunt will go to union contractors. The American 
Building Contractors, the nonunion apprenticeship program, is also 
anticipating a rise in work and employment. Some workers who have left 
the state will be recruited through a return to Hawai'i program, while 
other mainland workers will be relocated for the duration of the work.
    Honolulu Community College and its sister institutions on the 
Neighbor Island with apprenticeship programs are capable of expanding 
training with additional personnel, supplies, equipment, and 
facilities. Honolulu CC is running almost at the capacity of the 
existing facilities without changing to a double night shift that would 
keep apprentices in class in the second shift until 10:30 p.m. That 
produces a significant hardship on individuals with early work 
schedules at the job sites.
    Adult workforce demographics, recruitment experience, and 
unemployment patterns indicate the following:
  --The majority of new apprentices to be hired from the adult 
        population will come from the Leeward, Central, and North Shore 
        areas of Oahu where unemployment is the highest.
  --A significant number of the unemployed population are on public 
        assistance.
  --Commuting to a training site at Honolulu CC may produce a severe 
        hardship on trainees.
  --A large percentage (up to 50 percent) of applicants are rejected by 
        the unions due to an inability to pass the entry math screening 
        tests where administered.
        department of education--community college partnerships
    The Hawaii State Department of Education and the community colleges 
are working to create a true career construction pathway through the 
Career and Technical Education system. New proposed graduation 
requirements will require students to choose two credits (four semester 
courses) in any of three different areas--Fine Arts, Career and 
Technical Education, or World Languages.
    We believe the design and developed of a competency-based, 
contextually rooted, interdisciplinary construction technology 
curriculum will appeal to many students. A standardized curriculum with 
clear learning outcomes will lead to a direct articulation into the 
community college construction technology programs, direct employment 
into apprenticeship, or a career choice to attend a baccalaureate 
institution with a related major (business, architecture, engineering, 
human resources, etc.).
    To attain the goal, the Department of Education and Honolulu 
Community College will:
  --Contract the Center for Occupation Development and Research (CORD) 
        to create a four-course curriculum for a construction academy 
        to be offered at high schools as a transformation from the 
        existing uncoordinated construction technology courses.
  --Hold training sessions this summer in the utilization of the 
        curriculum with high school and college construction faculty.
  --Implement the academy curriculum at high schools and colleges with 
        the capacity and trained staff.
    We belief the construction academy will focus students on the 
opportunities available for future employment, the career preparation 
and academic competencies necessary for employment, and to develop the 
interest and skills necessary to succeed as productive employees in the 
industry.

          NECESSARY ACTIONS TO EXPAND THE QUALIFIED LABOR POOL

  --Coordinate proposed activities with efforts of the Hawai'i 
        Congressional Delegation, State Department of Labor and 
        Industrial Relations, the Oahu Workforce Council, contractor 
        associations and labor unions, primary federal contractors, and 
        the Department of Education, and the Department of Human 
        Services.
  --Create math refresher preparation workshops to assist 
        apprenticeship applicants in meeting basic skills requirements.
  --Develop a program to provide job readiness skills to individuals in 
        need of more significant remediation in an intensive 70-120 
        hour workshop environment.
  --Develop the infrastructure capacity to support expanded training, 
        including additional capacity for apprenticeship and 
        journeyworker training, and community college associate degree 
        programs throughout the state.
  --Support the design, development, and implementation of high school 
        construction career academies offered at the high schools or on 
        college campuses.
  --Create a construction career center in West Oahu to expand training 
        capacity in all of the activities mentioned above.
    These necessary actions will require investment, coordination, and 
cooperation of all parties. The investment would easily be recouped 
from the additional taxes paid in expanded excise and income taxes from 
the industry's growth. Collaboration and teamwork are the keys to 
maximizing opportunity for Hawai'i's people.

    Senator Inouye. Thank you very much, Chancellor. I want to 
commend both of you for the work that you're doing.
    Dr. Sakamoto, I think Maui County is most fortunate to have 
you because your community college has taken a leadership role 
in higher education. In fact, you were the first one before 
Honolulu. And the innovative programs you have established on 
Lana'i and Moloka'i are very exciting. I can tell you that some 
of my colleagues are looking upon some of your projects as 
models. The Lana'i project is now being discussed in the 
Department of Labor, for example.
    Dr. Sakamoto. Thank you very much, Senator. We're very 
grateful for your continuing support and it's made tremendous 
difference to our county community and to our college. We're 
very grateful.
    Senator Inouye. Mr. Pedersen, with your facilities and your 
staff, do you think we can meet the challenge which is thrust 
upon us to providing qualified workers for all of the 
construction work that we anticipate shortly.
    Mr. Pedersen. I think we have the curriculum. I think we 
need an expansion of both staff and facilities to be able to 
deliver those services to wherever the population is at.
    It is very difficult for a Leeward population to get into 
downtown Honolulu at this point for training and education, and 
so that's why we're looking at setting up some sort of a 
satellite operation.
    Senator Inouye. Do you have any cost figures?
    Mr. Pedersen. Not at this point. We're still in the 
discussion stages in terms of availability of land, whether or 
not possibly some of the properties that were turned over for 
development by the Navy might be available. There are a number 
of things that have to go forward before we can do this.
    Senator Inouye. Well, we'll have to work together on this.
    Mr. Pedersen. Yes, sir.
    Senator Inouye. Because of the nature of the programs that 
we have, I think we can bring about a partnership between your 
activity and the Federal Government.
    Mr. Pedersen. We look forward to that, sir.
    Senator Inouye. And I think we can do something about that.
    Mr. Pedersen. Okay.
    Senator Inouye. Senator Akaka.
    Senator Akaka. Dr. Sakamoto and Mr. Pedersen, I want to 
commend you for what you're doing to address the double whammy 
we're expecting. And the double whammy is the baby boomers 
retiring and the new projects that are coming out to Hawaii, 
and we need to develop a huge workforce. And I want to commend 
you for what you're doing, working together and with the 
community as well to bring that about.
    Again, I want to add my part in telling you that I stand 
ready to work with you to make all of this happen. Thank you 
very much.
    Dr. Sakamoto. Thank you, Senator.
    Mr. Pedersen. Thank you.
    Senator Inouye. Now may I call upon the representative of 
the General Contractors Association, Mr. Lance Inouye; 
representing the Building Industry Association, Mr. Randy Lau; 
and representing the United Brotherhood of Carpenters & Joiners 
(Local 745), Mr. Ron Taketa; representing the Painters, 
Decorators, Paperhangers & Allied Traders (Local 1791), Mr. 
Lynn Kinney.

STATEMENT OF LANCE INOUYE, PAST PRESIDENT, GENERAL 
            CONTRACTORS ASSOCIATION OF HAWAII

    Senator Inouye. Gentlemen, welcome. And may I call upon Mr. 
Inouye.
    Mr. Inouye. Thank you, Senator Inouye, Senator Akaka, and 
members of the U.S. Senate Appropriations Subcommittee on 
Labor, Health and Human Services, Education, and Related 
Agencies.
    My name is Lance Inouye. I'm president of a small general 
building contractor here in Hawaii and I'm past president of 
the General Contractors Association of Hawaii, GCA.
    I'm here to represent the General Contractors Labor 
Association, GCLA, at the request of Mr. James Ramirez, its 
Chair, and currently first vice-president of the GCA. Mr. 
Ramirez, unfortunately, was called up to Alaska on an emergency 
and sends his apologies that he could not be here personally.
    If it would please this subcommittee, I would like to read 
his prepared testimony. On behalf of the GCLA and various 
construction industry organizations, I would like to thank you 
for giving us the opportunity to express our views relative to 
our ability to meet the construction labor demands of the 
revitalized Hawaii economy.
    These are exciting times for the Hawaii construction 
industry and we are even seeing the return of the other State 
bird, the tower crane. We have faced the economic doldrums in 
the mid 1990s when the economy struggled, and our market 
dropped from a peak of $4 billion to under $3 billion, and our 
workforce reduced from 34,000 to the present 26,000.
    Today, fortunately, we are faced with simultaneous and 
rapid growth in both private and public sectors, particularly 
the military work in the Federal front, thanks to you and Mr. 
Abercrombie.
    I have four topics that I will be addressing in my 
testimony by way of a question format:
    1. What labor lessons did we learn from the previous 
construction boom in the mid to late 1980s and early 1990s that 
can apply to our situation today?
    2. What data is needed to determine the extent of the 
upcoming labor shortage?
    3. What occupational skills is the construction industry 
lacking?
    4. What type of support are we requesting from the 
government?
    The first question is: What labor lessons did we learn from 
the earlier construction boom in Hawaii?
    What we learned was the following: The construction 
industry ramped up to peak of a $4 billion market. There were 
ongoing major private projects with the development fuel coming 
in from the Japanese investors. Major State projects were also 
in full swing. There were approximately 34,000 people in the 
construction workforce.
    However, even with this boom, the major contractors did not 
import labor from the mainland. The 34,000 workforce came from 
the local labor pool. The real issue was the syndrome of, 
quote, ``scraping the bottom of the barrel,'' unquote, in which 
there were bodies but skills were lacking. It was clear that 
more training would have been definitely helped as evidenced by 
quality issues experienced on some of the projects.
    The second question is the crux of the labor issue: What 
data is needed to determine the extent of the upcoming labor 
shortage?
    In the past year there have been several government and 
private organizations addressing the issue of labor shortage, 
with the last one being the Hawaii Jobs Summit spearheaded by 
Honorary Summit Chair Mr. Abercrombie. Various local experts 
presented their views and a myriad of statistical information 
shared with attendees. The next step is to crystalize this 
information into a usable and practical way. From our 
standpoint, the Summit appears to be the best forum to do this.
    One key point that needs to be pointed out is that the 
Summit must ensure that the data is accurate and timely. Also, 
in projecting the labor requirements, the following three key 
points must be considered:
    1. The commitment by the military privatization contractors 
to use the local construction companies is probably the most 
important consideration. We are encouraged that these firms 
have stated that it is their intent to subcontract 75 to 85 
percent of the work to local companies.
    2. Our latest information shows that three privatization 
projects are ramping up at different times. This means that the 
labor demand should be a gradual build up. The concern about 
being overwhelmed should be less of an issue.
    3. Of primary importance is the projected timeline for the 
start and duration of the privatization projects. We have 
preliminary information on the anticipated start dates of 
construction but they need to be firmed up so that a workforce 
loading schedule of the various trades can be prepared. 
Obviously, the better the timeline information, the more 
accurate the manpower projections will be.
    The next question is: What types of occupational skills 
needs to be upgraded to accommodate the privatized housing 
programs?
    In housing work, about 12 different skills or trades are 
involved; carpenters, laborers, masons, operators, iron 
workers, roofers, glaziers, painters, carpet and vinyl 
flooring, drywall, plumbers, and electricians.
    The GCLA, in conjunction with Pacific Resources 
Partnership, will be performing surveys of the existing 
manpower availability of the various trades and their ability 
to meet the upcoming labor demand.
    At the present time, the concern about a labor shortage is 
not across all construction trades and some trades are better 
prepared to meet this demand.
    Most recently, our industry has experienced a shortage of 
masons, which are the cement finishers and block layers. Many 
of the structures in Hawaii have concrete frames and thousands 
of housing slabs will require this cement finishing skill. This 
is one trade that needs a larger workforce and retraining of 
existing journeymen.
    With respect to new skills, more training for metal stud 
wall and roof framing needs to be done. Housing construction in 
the past has been wood framing, and new military housing will 
incorporate metal framing which requires different skills.
    In the past few months, the GCLA, through the Carpenters 
Apprentices and Training fund, has been working with the 
Carpenters Union on developing a training facility for this 
purpose. The details of this venture will be covered by Mr. Ron 
Taketa, business manager and financial secretary for the 
carpenters.
    Although funding is a problem, there are ongoing 
discussions about shared funding of this program jointly 
between the Trust Fund and the Carpenters Union. This is an 
example of the cooperation between the contractors and one of 
the primary unions and discussions will be held with other 
labor organizations.
    My final topic is the question: What kind of support do we 
need from the government in construction related training?
    From the GCLA's standpoint, we are encouraging the various 
labor organizations to implement immediate steps, as well as 
taking a long-range approach, in meeting the labor demand 
requirements. We are encouraging these labor organizations to 
do the following:
    1. Upgrade the skills of existing journeymen.
    2. Establishing programs for encouraging younger retirees 
to return to the work force during this period of high labor 
demand.
    3. Continuing the apprenticeship programs with the 
community colleges.
    4. Stepping up the recruiting effort.
    All of the above pursuits can happen but it will take 
dollars to implement them.
    For the labor organizations to implement the various 
construction related training and recruiting programs, funding 
assistance from the government is needed. The amount of the 
funding and which organizations would qualify for this 
assistance need to be based on established guidelines, which 
would be developed in conjunction with the Hawaii Jobs Summit.
    We are further requesting that our congressional 
representatives and State officials strongly encourage Actus 
Lend Lease, the Hawaii Military Communities LLC, and the Fluor 
Hawaii LLC to give the local contractors the opportunity to 
participate in the upcoming 10-year construction program as 
well as the 50-year privatization program. All the additional 
training will only matter if you're able to get the work.
    Again, thank you for allowing me to give the viewpoints of 
the GCLA and other construction organizations. Please be 
assured that with your help we can and will be ready to meet 
the upcoming labor challenges.
    Senator Inouye. Thank you very much, Mr. Inouye.

STATEMENT OF RANDY LAU, PAST PRESIDENT, BUILDING 
            INDUSTRY ASSOCIATION

    Senator Inouye. Mr. Lau.
    Mr. Lau. Good morning, Senator Inouye and Senator Akaka. 
Welcome home. Distinguished members of the subcommittee--I can 
speak loud. My name is Randy Lau, past president of the 
Building Industry Association of Hawaii. We represent 465 
companies and 23,000 employees that go with them. Our primary 
niche is in training on employer training, management and 
project management.
    The BIA is a leader in training and advocacy for Hawaii's 
building industry and strongly supports increasing local trades 
programs to meet the demand for construction labor stimulated 
by multi-million dollar housing projects now underway.
    As a result of the government's A79 initiatives, which we 
are thankful for, relating to the privatization of military 
housing, Hawaii's building industry is anticipating a sharp 
increase in the demand for labor in all construction trades, 
including management.
    In a study conducted for 2004, Hawaii Jobs Summit, by 
Professor Sang-Hyop Lee of the University of Hawaii Manoa. Dr. 
Lee projects a cumulative increase of 7,425 workers over the 
next 5 years. This increase will coincide with already strong 
demand spurred by record sales in private housing and by 
continued growth in commercial projects starts due to favorable 
interest rates.
    Hawaii's labor training needs are unique in that the State 
is isolated geographically and therefore not readily accessible 
to large mobile labor pools in the contiguous 48 States.
    In addition, when out-of-state labor is imported for a 
relatively short-term, growth of the workforce is not 
accompanied by an equivalent reduction in local unemployment, 
leaving a burden on State support programs. This is made worse 
because imported workers tend to remain in Hawaii unemployed 
after their initial jobs are over.
    There also exist an underlying long-term phenomenon that I 
had the opportunity to discuss at a national meeting with the 
National Association of Home Builders Education Arm that Mr. 
Pedersen referred to as ``gamers.'' This affects our entire 
country whereby children are receiving less vocational training 
and have reduced interest in construction as a profession. This 
decline in vocational industrial pursuits may be related to a 
generational movement toward technology related interest 
``gamers'' and service sector employment, but there is a risk 
of imbalance if it is allowed to persist.
    Our Nation's construction industry not only designs and 
produces the structures our society requires to function in, it 
also requires well paid and rewarding career opportunity and 
serves as a poke and driver of our economy.
    The Building Industry Association of Hawaii believes this 
decline in critical skills can be mitigated with Federal 
assistance for training and job placement programs and a 
stronger marketing of such programs, even at the elementary 
level. So we may be even looking at this phenomenon affecting 
us on a long-term basis.
    In addition, increases in the Federal sector work are 
requiring more small businesses to be trained in how to do 
business with the government in terms of procurement, labor 
management, software compatibility, and electronic work flow. 
Additional training is needed in the higher level skills to 
improve the service and capability of Hawaii's small business 
on government contracts.
    In conclusion, the BIA believes that increase in demand for 
Hawaii construction laborers, trades people, and managers can 
be accommodated locally. However, this will require a 
comprehensive increase in training and instruction that is 
applicable to both public and private sector projects a 
concerted effort to repatriate skilled workers who have left 
the State during sluggish periods and a renewed marketing 
effort focusing on our youth.
    The BIA respectfully requests your support in increasing 
Hawaii's trades program. Thank you for the opportunity to 
express our concerns and we advocate a positive solution.
    Senator Inouye. Thank you very much, Mr. Lau.

STATEMENT OF RON TAKETA, UNITED BROTHERHOOD OF 
            CARPENTERS AND JOINERS, LOCAL 745

    Senator Inouye. Mr. Taketa.
    Mr. Taketa. Aloha, Senator Inouye, Senator Akaka, and staff 
and members of the Senate Appropriations Subcommittee here this 
morning.
    My name is Ron Taketa and I'm the financial secretary and 
business representative for the Hawaii Carpenters Union. It's 
an honor and privilege to come before you today on behalf of 
the 19,000 union tradesmen and women of the construction 
industry in Hawaii.
    Most of the leaders of the building trade unions are in the 
audience with us today. We welcome your assistance and 
partnership to build a properly trained, qualified and expanded 
workforce to meet the demand for more skilled workers, to 
develop and maintain privatized military housing and living 
facilities in Hawaii over the next half century.
    Last month, Hawaii's Jobs Summit with Mr. Abercrombie 
estimated that the privatized housing contracts being awarded 
in Hawaii will require more than 7,500 new skilled construction 
workers on top of the present labor pool in the marketplace.
    Needless to say, expanding our membership by 40 percent 
over the next 5 to 10 years is going to put a tremendous strain 
on our resources. And we have always been, the unionized 
industry, the most reliable and productive sources of skilled 
workers for the industry.
    In fact, finding and training new members is so important 
to the unionized industry that both management and labor unions 
together have been administering joint trust funds for training 
programs for over 40 years.
    Because we are all quite aware of what's coming up with the 
military, each and every construction union has already started 
or developed contingencies to increase their ranks, to compete 
for and fulfill the requirements of military housing projects.
    As previous speakers have already mentioned, the Hawaii 
Carpenters Union has optioned a site at Barbers Point to create 
a free-standing training center of our own to supplement our 
certified apprentice programs at the community colleges where 
we now have more than 1,200 apprentices currently enrolled.
    The Laborers International Union already has a similar 
free-standing facility with about 100 laborer apprentices at 
the state-of-the-art training center in Pearl City.
    The Operating Engineers Union has a spacious 30-acre site 
on Oahu's north shore in Kahuku.
    The International Brotherhood of Electrical Workers trains 
over 200 apprentices at its own facility in Kalihi with an 
annual graduation rate of 92 percent.
    On Oahu's central plain at Waipio, the two Iron Worker 
Locals maintain their own training center where they have 
graduated more than 200 apprentices over the past 5 years with 
an additional 200 currently enrolled in their certified 
program.
    My colleague here on the panel, Lynn Kinney of the Painters 
Union, has already increased his apprenticeship ranks by a 
third to accommodate the new military housing projects.
    The Hawaii Masons Union now has almost a quarter of its 
membership in apprenticeship training.
    The Drywall Tapers and Finishers Union has increased its 
training program to about 180 apprentices out of a total of 
more than 400 members.
    The Plumbers and Fitters Union has an outstanding 97 
percent retention rate for its training program, which now has 
more than 300 apprentices involved.
    As you can see by these examples, the stepped-up enrollment 
and instruction in anticipation of military housing contracts 
have been costly and time consuming to unions but we look upon 
them as investments in the futures of our members. We paid the 
price to develop these programs, gone the extra mile to make 
them statewide through the community college system, and 
complied with rigorous State certified standards and criteria 
to ensure the best instruction and results.
    The unions have far and away consistently demonstrated that 
they have the most productive training programs in the State. 
In reality, there are no others that have this stability, the 
infrastructure and the potential to meet the increased demands 
of the military contractors. We, as unions, realize we have a 
responsibility to anticipate the job market and I believe we've 
done all we have so far with a sincere effort to keep the jobs 
generated by the upcoming projects right here at home in 
Hawaii.
    We put forth to help our economy for everyone's benefit and 
we want to do our part to improve the quality of life for 
military families who put their life on the line for all of us.

                           PREPARED STATEMENT

    On a final note, I want to say personally that the 
construction trade unions have stepped up to the plate in every 
way without any corresponding commitment from the designated 
awardees of the military contracts that they will favor us with 
an agreement or any other arrangement that assures the most 
qualified construction workers in the State participate in the 
upcoming work.
    We feel our record speaks to the commitment and investment 
we have in our members and in our contractors and to the future 
we seek of fairness and opportunity for coming generations of 
men and women in construction.
    Thank you for your attention and your concern.
    [The statement follows:]

                  Prepared Statement of Ronald Taketa

    Aloha to Senator Daniel Inouye, members and staff of the Senate 
Appropriations Subcommittee here this morning. It is an honor and 
privilege to come before you on behalf of the 19,000 union tradesmen 
and women of the construction industry in Hawaii.
    We welcome your assistance and partnership to build a properly 
trained, qualified and expanded workforce to meet the demand for more 
skilled workers to develop and maintain privatized military housing and 
living facilities in Hawaii over the next half-century.
    I also choose to speak for the untold thousands of young men and 
women who may yet enter our profession because of the career choices 
and many new opportunities our unionized construction industry has 
labored long and hard to attain, and that we may finally be able to 
offer them.
    Last month, Hawaii's Job Summit with Congressman Neil Abercrombie 
estimated that the privatized housing contracts being awarded by the 
Army, Navy and Air Force in Hawaii will require more than 7,500 new 
skilled construction workers on top of the present labor pool in the 
marketplace.
    Needless to say, expanding our members by forty percent over the 
next 5 to 10 years is going to put a tremendous strain on the resources 
of the local construction unions, who have always been the most 
reliable and productive sources of new workers for the industry.
    It is the local trade unions who recruit most, train better, and 
place new carpenters, roofers, painters, operators, masons and members 
of a dozen other building trades in public and private-sector 
construction projects. And we've done this in the numbers and quality 
and pay scales that meet the real-world conditions of Hawaii's building 
contractors.
    In fact, finding and training new members is so important to the 
unionized industry, that both management and labor unions together have 
been administering joint trust funds for apprenticeship and journey 
training programs for over 40 years.
    Because we are all quite aware of what's coming with the military, 
each and every construction union has already started, or developed 
contingencies, to increase their ranks to compete for and fulfill the 
requirements of Hawaii's military contracts.
    The Hawaii Carpenters Union has already optioned a site at Barbers 
Point to create a free-standing, training center of our own to 
supplement our certified apprenticeship programs at the community 
colleges, and to increase our capacity to train more carpenters.
    With more state-approved instructors in the pipeline, we also plan, 
in greater numbers at our training center, to upgrade our older 
members' skills in the particular carpentry specialties and 
technologies, such as metal framing, that we expect our signatory 
contractors will require for the upcoming military housing projects. 
Right now, we have more than 1,300 apprentices in our training program.
    The Laborers International Union already has a similar free-
standing training facility. About 100 laborer apprentices feed into the 
field for on-the-job training from this state-of-the-art training 
center in Pearl City.
    The Operating Engineers Union has a spacious 30-acre site on Oahu's 
north shore at Kahuku. This training area enables their apprentices and 
journey operators to learn and practice driving of heavy construction 
equipment on private property that features the typical conditions of 
the job site.
    The International Brotherhood of Electrical Workers trains over 200 
apprentices at it's own union hall in Kalihi, with an annual graduation 
rate of 92 percent. They have one of the most complete electricians 
training labs of the modern era.
    On Oahu's central plain at Waipio, the two Iron Worker Locals 
maintain their own training center where their flexibility and years of 
experience enables them to consistently meet changing industry demands 
in an efficient and responsive manner.
    My colleague here on the panel, Lynn Kinney of the Painters Union, 
has already increased his ranks by a third with about a hundred 
apprentices readily available to union painting contractors seeking 
work at new military housing projects.
    The Hawaii Masons Union now has almost a quarter of its membership 
in apprenticeship training.
    The Drywall Tapers and Finishers Union has increased its training 
program to about 180 apprentices out of a total membership of over 400.
    The Plumbers and Fitters Union has an outstanding 97 percent 
retention rate for its training program, which now has more than 300 
apprentices.
    The stepped-up enrollment and instruction in anticipation of 
military housing contracts have been costly and time-consuming to 
unions, but we look upon them as investments in the futures of our 
members. The cost is great, but in today's circumstances, this 
necessary investment is crucial to unionized construction, no matter 
what the price!
    So, we've paid the price to develop these training programs. Gone 
the extra mile to make them statewide through the community colleges. 
And complied with rigorous state-certified standards and criteria to 
ensure the best instruction and results.
    In a typical year, the 17 construction unions in Hawaii have a 
total of about 2,500 apprentices enrolled in our apprenticeship 
programs. We could have the capacity to enroll more than 5,000 
apprentices if all resources are put into play. Given the 3 to 4 year 
period it takes to graduate as journey trade men and women, we must 
optimize our capacity immediately!
    The unions have far and away the most productive training programs 
in the state, and in reality there are no others that have the 
stability, the infrastructure and the potential to meet the increased 
demands of the military contractors.
    We as unions realize we have a responsibility to anticipate the job 
market, and I believe we've done all we have so far in a sincere effort 
to keep the jobs generated by the new military housing at home. We've 
put forth to help our economy for everyone's benefit, and we want to do 
our part to improve the quality of life for military families who put 
their lives on the line for all of us.
    I want to say personally that the construction trade unions have 
stepped up to the plate without any commitment or understanding from 
the designated awardees of the privatized military housing contracts 
that they will favor us with an agreement, or any other arrangement, 
that assures the most qualified construction workers in the state of 
participating in the coming windfall.
    We feel our record speaks to the commitment and investment we have 
in our members, and to the future we seek of fairness and opportunity 
for coming generations of men and women in construction.
    Thank you for your kind attention and interest in our concerns.

    Senator Inouye. I thank you very much, Mr. Taketa.

STATEMENT OF LYNN KINNEY, PAINTERS, DECORATORS, 
            PAPERHANGERS AND ALLIED TRADERS, LOCAL 1791

    Senator Inouye. Now may I call on Mr. Kinney.
    Mr. Kinney. Aloha. Thank you, Mr. Chair, Senator Akaka, and 
members of the Senate Appropriations Subcommittee for granting 
me the opportunity to testify in support of a Federal 
Government-labor partnership expanding programs for Hawaii's 
construction trade unions.
    My name is Lynn Kinney. I am the Business Manager/
Secretary-Treasurer of District Council 50 of the International 
Union of Painters and Allied Trades, but I am speaking today on 
behalf of the members of the 17 building and construction trade 
unions that are the backbone of residential construction in the 
State.
    Our members are very concerned that the new construction 
workers needed to build more than $3 billion in military homes 
may go to trades people from out of State. This may happen if 
contractors and subcontractors are unable or unwilling to hire 
Hawaii construction workers of significant numbers and 
training.
    Given past experience, they will look to the mainland for 
workers who agree to move to Hawaii temporarily to work and 
then return to their home State after the projects are 
completed. Given the duration, scope and value of the 
prioritization contracts awarded by the Army, Navy and Air 
Force the consequences of thousands of nonresident workers 
taking these jobs would severely impair our standard of living 
and Hawaii's economic vitality.
    To address this challenge, Hawaii trade unions have begun 
an aggressive coordinated campaign to improve and expand 
training programs in anticipation of this expansion in new 
construction.
    As mentioned by brother Ron Taketa of the Hawaii 
Carpenters, unions and signatory contractors have invested 
their own trust funds in a number of new training facilities. 
The trade unions have enrolled hundreds of new apprentices into 
our ranks and we have hundreds more who have been wait listed 
for entry into our certified program. We have worked closely 
with the University of Hawaii Community College to make 
apprenticeship training as relevant and up-to-date as possible 
so graduates are competitive in the labor market place.
    Any assistance from Washington to help train our qualified 
residents for military housing projects and increase the pool 
of workers available to contractors will be welcomed by the 
trade unions in Hawaii.
    We would like to respectfully point out, Mr. Chair, that 
while many of us have already heavily invested resources in the 
recruitment and training of new members, we've also done so 
absolutely with no assistance of--no assurances of jobs at the 
end of this lengthy process.
    We envision a separate entity to receive and consider all 
grants, applications with perhaps recommendations to an 
appropriate Federal agency for distribution. The compensation 
of this body should be reflective of the unions, employers, 
military, and educators involved.
    We strongly recommend that the State certified programs, 
with records of graduation success and longevity in the 
community, be with one qualified to apply for any grants.
    With time of the essence to meet these project building 
timetables, this proposed Federal program should not be used 
for startup in need or seed money of low output training and 
schools with little impact on the marketplace.
    The colleges have become steadfast partners with the 
construction unions. We have been the primary source for 
training new recruits for the industry. We believe that the 
community colleges deserve a fair share of grants targeted to 
expand vocational training and workforce development 
initiatives for our entire construction industry.
    We've also proposed that grants be made on a matching 
basis. A qualified program should be able to claim office 
overhead, salaries, facility rental or upkeep, materials, and 
other expenses associated with the expanded curriculum as the 
matching share.
    Awards should be granted for instructional costs, such as 
teachers and classroom activities. Construction of new 
facilities or improvements to existing training facilities or 
offices should be disqualified.
    The number of enrollees in our program should determine the 
size of the program's grant. The more trainees, the more 
training funds are needed. This, coupled with incremental 
payments contingent on progress reports of graduation rates 
over the course of the grant programs, will help us to ensure 
the responsible spending of tax dollars.
    Mr. Chair, Hawaii's trade unions are grateful that area 
standard wages will apply to all projects in the military's 
privatized housing programs in Hawaii. Preference for small 
businesses and local hires also have been promised. Ultimately, 
though, we have only our own workforce development, superior 
training and vigilance of our congressional delegation to 
ensure that fairness and honor prevail in the marketplace.

                           PREPARED STATEMENT

    The members of the Hawaii Building and Construction Trades 
Council join me in extending our gratitude to you for inviting 
us to testify before the subcommittee on issues of critical 
importance to our members. We look forward to being of any 
assistance to establish a partnership between the Federal 
Government and our industry to train and employ the next 
generation of workers, building union quality homes for 
military families and help to bolster our island economy.
    Thank you for the time and it's an honor just to be able to 
speak with you.
    [The statement follows:]

                   Prepared Statement of Lynn Kinney

    Thank you, Mr. Chairman and members of the Senate Appropriations 
Subcommittee, for granting me the opportunity to testify in support of 
a federal government-labor partnership to expand training programs for 
Hawaii's construction trades.
    I am the Business Manager/Secretary Treasurer of District Council 
50, of the International Union of Painters and Allied Trades, but I am 
speaking today on behalf of the members of the state's 17 building and 
construction trade unions that are the backbone of residential 
construction in the state.
    Our members are very concerned that the new construction workers 
needed to build more than $3 billion in military homes may go to 
tradespeople from out-of-state. This may happen if contractors and 
subcontractors are unable or unwilling to hire Hawaii construction 
workers of sufficient numbers and training. Given past experience, they 
will look to the mainland for workers who agree to move to Hawaii 
temporarily to work and then return to their home states after the 
projects are completed.
    Given the duration, scope, and value of the privatization contracts 
awarded by the Army, Navy, and Air Force, the consequences of thousands 
of non-resident workers taking these jobs would severely impair our 
standard of living and Hawaii's economic vitality. To address this 
challenge, Hawaii's trade unions have begun an aggressive, coordinated 
campaign to improve and expand training programs in anticipation of 
this expansion in new construction.
    As mentioned by Brother Ron Taketa of the Hawaii Carpenters, unions 
and signatory contractors have invested their own trust funds in a 
number of new training facilities. The trade unions have enrolled 
hundreds of new apprentices into our ranks. And we have hundreds more 
who have been waitlisted for entry into our certified programs. We have 
worked closely with the University of Hawaii's Community Colleges to 
make apprenticeship training as relevant and up-to-date as possible so 
graduates are competitive in the labor marketplace.
    Mr. Chairman, the promise of a federal program with funding to 
ensure that ``the repair and reconstruction of military homes are 
undertaken by a qualified Hawaii workforce'' is very exciting and 
gratifying to us. Any assistance from Washington to help train and 
qualify our residents for military housing projects and increase the 
pool of workers available to contractors would be welcomed by trade 
unions in Hawaii. We would like to respectfully point out, Mr. 
Chairman, that while many of us have already heavily invested resources 
in the recruitment and training of new members, we have done so with 
absolutely no assurance of jobs at the end of this lengthy process.
    Permit me to offer the Building Trade Council's thoughts on the 
criteria for such a federal program that we feel would most benefit 
Hawaii residents seeking careers in construction; utilize the training 
infrastructure already in place; and enhance the fairness, quality, and 
efficiency such a program would offer.
    We envision a separate entity to receive and consider all grant 
applications, with perhaps recommendations to an appropriate federal 
agency for disbursement. The composition of this body should be 
reflective of the unions, employers, military, and educators involved.
    We strongly recommend that state-certified training programs with a 
record of graduation success and longevity in the community be the only 
ones qualified to apply for any grants. With time of the essence to 
meet projected building timetables, this proposed federal program 
should not be used for start-ups in need of seed money or low-output 
training schools with little impact on the marketplace.
    The building trades departments of the state's Community Colleges 
are the best source of qualified instructors, facilities, and 
administrators with the knowledge and experience to support expanded 
training curricula. The colleges have become steadfast partners with 
construction unions, and have been the primary source for trained new 
recruits for the industry. We believe the Community Colleges deserve a 
fair share of grants targeted to expand vocational training and 
workforce development initiatives for the entire construction industry.
    We also propose that grants be made on a matching basis. A 
qualified program should be able to claim office overhead and salaries, 
facilities rental or upkeep, materials, and other expenses associated 
with its expanded curriculum as the matching share.
    Awards should be granted for instructional costs only, such as 
teachers and classroom activities. Construction of new facilities or 
improvements to existing training facilities or offices should be 
disqualified.
    The number of enrollees in a program should determine the size of 
that program's grant. The more trainees, the more training funds are 
needed. This, coupled with incremental payments contingent on progress 
reports and graduation rates over the course of the grant program, will 
help to ensure the responsible spending of tax dollars.
    Mr. Chairman, Hawaii's trade unions are grateful that area standard 
wages will apply to all projects in the military's privatized housing 
programs in Hawaii. Preferences for small businesses and local hiring 
have also been promised. Ultimately, though, we have only our own 
workforce development, superior training, and vigilance of our 
Congressional delegation to ensure that fairness and honor prevail in 
the marketplace.
    The members of the Hawaii Building Trades Council join me in 
extending our gratitude to you for inviting us to testify before the 
subcommittee on issues of critical importance to our members. We look 
forward to being of any assistance in establishing a partnership 
between the federal government and our industry to train and employ the 
next generation of workers, build union-quality homes for military 
families, and help to bolster our island economy.
    Thank you.

    Senator Inouye. I thank you very much, Mr. Kinney.
    I'd like to thank all of you for having a positive approach 
to the oncoming onslaught of jobs. With that gratitude, may I 
assure you that your congressional delegation will do 
everything possible, our utmost, in making certain that the 
jobs go to the people of Hawaii. And we've done that in the 
past and we'll continue to do that. After all, we didn't exert 
ourselves in Congress to get projects and have others take 
over. We want homegrown workers, homegrown talent, and we're 
going to do that.
    Mr. Lau, when you brought up gamers, it reminded me of my 
days of youth when we were all required to take carpentry. That 
was part of the curriculum. And the little girls had to go to 
homemaking classes. That was required. But now I suppose 
carpentry and homemaking is not that important, but I think the 
Department of Education should maybe have courses such as that 
available for our youngsters. Because, even to this day, I do 
my own carpentry at home. It can be done.
    I want to thank all of you for this positive attitude you 
have. Working together with you, we'll meet the challenge. I'm 
certain of that.
    Senator Akaka.
    Senator Akaka. I want to thank you, Mr. Chairman, for 
having this hearing. And I want to thank our witnesses for 
their tremendous effort to take care of this impending problem 
that's good for Hawaii. But what is evident here is that a 
model is being set up here with the community, with the 
colleges, and the schools, all to meet this challenge that will 
be facing us in about 7 to 10 years. So I want to commend all 
of you for being part of this.
    You heard our chairman of our delegation speak for us that 
we will be there to help in this effort. So all together, let's 
i mua and move forward. Thank you.
    Senator Inouye. Thank you very much.

                    ADDITIONAL SUBMITTED STATEMENTS

    Before we adjourn, I'd like to announce that we have 
received much testimony and, without objection, the testimony 
will be made part of the record. We have received testimony 
from Sheet Metal Workers Union Local 293, Plumbers & Fitters 
Local 675, Pacific Resource Partnership, Glaziers Architectural 
amd Glass Metal Workers Local 1889, Carpet Linoleum & Soft Tile 
Local Union 1926, Drywall Tapers & Finishers Local Union 1944, 
Iron Workers Local 625 and Ironworkers Shopmen Local 803, 
International Union of the Elevator Contractors Local 126.
    We've received testimony from Representative Scott 
Nishimoto, Ms. Lynn Watanabe representing America's Promise 
Hawaii, and Colonel Edward Patrick of Joint Venture Education 
Forum.
    I'm pleased to announce that the record of this hearing 
will be kept open for 2 additional weeks. If you want to submit 
testimony during that period, please do so. If you have any 
addendum or corrections to make, you have 2 weeks to do so.
    [The statements follow:]

 Prepared Statement of Glaziers Architectural and Glass Metal Workers 
                          Local 1889, AFL-CIO

    Mahalo Senator Inouye, Chairman, and the U.S. Senate Appropriations 
Subcommittee on Labor, Health and Human Services, and Education for 
giving me this opportunity to testify in behalf of the working men and 
women of the state of Hawaii, as we deal for the upcoming privatization 
of military family housing.
    Senator Inouye, my name if Richard Tacgere and I am the Business 
Representative for the Glaziers Architectural and Glass Metal Workers 
Local 1889, AFL-CIO. I have been acting in this capacity for well over 
twenty years and feel that my experience in our industry will allow me 
to give you an accurate picture regarding our upcoming labor demands.
    Mr. Chairman, while our Local Union is one of the smaller ones in 
the Hawaii Building and Construction Trades, we are nonetheless gearing 
up for what we believe will be one of the most demanding times in the 
history of construction in the State of Hawaii. Our apprenticeship 
program has recently initiated a new class of apprentices, one which 
has the potential to increase our total membership by upwards of 50 
percent. We believe that these numbers, when added to our current 
membership as well as those members who had previously left our union 
and are now returning, will be more than sufficient to meet the 
anticipated demand for qualified trades people.
    When our industry went through an almost decade long economic 
slide, many of our members were forced to seek work elsewhere or in 
other industries. Now that there appears to be a need for qualified 
trades people, we are seeing an increase in the numbers of people 
rejoining our union. Our training program has anticipated this influx 
and we are ready, willing and able to offer these ex-members, 
retraining programs which will get them up to speed and ready for work 
on these federal military housing projects.
    Our training programs, employers and the union is fully committed 
to making ourselves ready for the upcoming labor demand. We have 
committed resources in this area and we are equally excited in the 
potential to have matching federal dollars earmarked for these efforts. 
We would respectfully request that such matching federal moneys be made 
available to all qualified programs, those which have established clear 
benchmarks for success and graduation. Past practice and success should 
play a large role in determining which programs should be entitled to 
very valuable tax dollars.
    Mr. Chairman, our relationship with the community college has been 
extremely important in the success of our programs. We would ask that 
this relationship be continued and even fostered by offering some of 
these funds to be made available for community college requirements as 
they relate to the construction industry.
    Mahalo for giving us this opportunity to testify on this extremely 
important subject.

                                 ______
                                 
   Prepared Statement of the Hawaii Building and Construction Trades 
                                Council

    Honorable Senators: My name is Buzz Hong, and I currently serve as 
the Executive Director to the Hawaii Building and Construction Trades 
Council (HBCTC). The HBCTC includes unionized trade workers from 
fourteen different crafts throughout the State of Hawaii. When 
combined, the HBCTC totals more than 20,000 men and women in the 
building and construction industry. The foregoing testimony is 
submitted for your consideration in strong support of your efforts to 
promote and improve the Hawaii trades training programs to meet the 
demands brought about by numerous upcoming military and recently 
privatized construction projects.
    Given the recent news that the demand for a highly skilled 
workforce in Hawaii is likely to catapult, Hawaii's trade unions and 
their training programs are gearing up to meet said demand. The work of 
this committee and its efforts to provide greater resources could not 
have come at a better time. In order to meet these demands, funding 
must be made available to those programs that have shown that they can 
produce the needed workforce. The training programs of Hawaii's Trades 
have also been the leaders in assuring that the skill of their members 
and those in the trades are at the highest level. The programs have 
already developed the needed curriculum and guidance to assure that 
workers are ready to enter the construction industry. Union trained 
workers are among the most productive and most desired by Hawaii's 
construction industry. The increased funding you seek will go a long 
way to enhancing these programs and building the needed capacity to 
provide the skilled workforce that will be needed in the immediate 
months and years to come.
    The HBCTC also strongly supports our Community College system as a 
means of promoting new and enhanced partnerships to meet the upcoming 
demands. Unfortunately, given many budgetary constraints, resources to 
keep current programs alive has been extremely limited. As such, the 
HBCTC would strongly support your efforts to promote the growth of 
partnerships between the unions' training programs and the Community 
Colleges. The importance of the partnerships for this funding is 
emphasized so that some assurance can be given that the purpose for 
which this funding is being made available is in fact carried out. Said 
partnerships will also provide safeguards to assure that a skilled 
workforce will be available as the demands on the construction industry 
increase.
    Finally, I would like to ask for your support in the use of a 
Project Labor Agreement (PLA) on many, if not all of the projects that 
will soon be released. The use of a PLA has had a long history of 
proving to be a key to projects being completed on time and within 
budget. Moreover, because of the very nature of the relationship that 
is created between a particular project and the trade unions on the 
job, projects subject to a PLA have also consistently proven to be 
completed at the highest quality. The efforts you make today to bring 
about funding for training in the construction industry must be coupled 
with your efforts to insist on the use of a PLA. In the end, it will be 
those men and women who benefit from the increased capacity in training 
that will be on the jobs and continue to benefit under the provisions 
of a PLA.
    Thank for your consideration and support of Hawaii's building and 
construction industry.

                                 ______
                                 
          Prepared Statement of the Laborers' Union, Local 368

    Honorable Senators: Thank you for allowing me this opportunity to 
present testimony in support of your efforts to provide funding to 
Hawaii's Trades Training Programs. The Laborers' Union currently 
represents over four thousand (4,000) men and women working in Hawaii's 
building and construction industry. To meet the ever changing needs of 
our industry, our Union has been providing classroom, simulated 
exercises and on the job training for over thirty (30) years. To that 
end, we are constantly evaluating the needs of our industry and our 
signatory contractors so as to assure that we are ready and able to 
provide the needed skilled workforce as changing demands grow.
    As you may already know, organized labor has long since been a 
pioneer in the area of best preparing and training the workforce needed 
to meet the demands of construction innovation and growth. Given that, 
it makes perfect sense that when a sudden demand for a skilled 
workforce is expected, improvements and enhancements in union training 
programs stand in the best position to provide the needed response. As 
monies become available to carry out this objective, it should in fact 
be training programs that have proven to be ready and capable to 
provide the needed training that should be supported. Training programs 
like ours have spent significant resources on infrastructure and 
training materials to assure that our members are not only the highest 
skilled workforce, but also the safest. Only through the combining of 
these programs and new funding, will programs be allowed to move to the 
next level of preparedness as demand grows for a skilled workforce. 
Union training programs demonstrate their commitment every day by 
continuing to provide much needed training incorporating technological 
advances and changing worksite demands. As such, I strongly support 
your efforts to make new resources available and strongly urge you to 
recognize those programs that have proven their success, be the same 
programs that be allowed to grow to meet your objective and the 
community demands.
    The Laborers' Union also supports the long standing relationships 
that exist between many union training programs and the Community 
Colleges. I believe that new and stronger partnerships should be 
supported to help meet the needs of our industry. The Community 
Colleges stand in the unique position to evaluate the industry from a 
global perspective in which it is able to identify and promote training 
among many crafts. Moreover, the Community Colleges also help to serve 
as a clearing house for those types of skills that are universal to all 
crafts. However, support in the form of funding to the Community 
Colleges must come with a commitment and clearly defined objective. 
Mandating of said partnerships will help to direct that the resources 
will be utilized towards the underlying mission of this committee to 
provide greater opportunity for training in the construction industry. 
Thus, I would strongly support funding to our Community Colleges in an 
effort to help enhance and create new partnerships for growth in 
Hawaii's construction industry.
    On a final note, I would strongly urge this committee to safeguard 
the use of funding that may become available towards truly creating 
greater training opportunity. Money that is provided through your 
efforts should not be used as a means of building new facilities. 
Rather, training programs that seek assistance from these limited 
resources should already have access to classroom space or facilities 
that are dedicated to this purpose. As demand grows, an appropriate use 
of new monies would clearly be increasing use of instructors or 
acquisition of needed materials or training tools. The Laborers are 
proud of the commitment it has made in the recent construction of a 
state of the art facility dedicated solely to the purpose of training. 
Given that, like many other trade unions having made the same 
commitment and investment to this industry, resources that now become 
available should be used to enhance our preparedness, and not be used 
to develop it from the ground up.
    Thank you for your consideration and allowing me this time to 
present these issues.

                                 ______
                                 
      Prepared Statement of the Hawaii Operating Engineers J.A.C.

    Honorable Senators: At the outset, I would like to take this 
opportunity to thank the members of the committee for convening this 
distinguished panel to address the Hawaii Trades Training Programs. The 
Operating Engineers, Local 3 represents 3,000 trade workers in the 
Hawaii Construction Industry. Because of the highly skilled nature of 
our members, our commitment to training continues to be unwavering. Our 
training program stands ready to meet the needs of the growing demand 
of our industry as an increase in work opportunity comes on line. To 
that end, the Operating Engineers strongly support the efforts of this 
committee to provide funding that will help improve the construction 
industry's position as a whole in preparing for an urgent demand of a 
skilled workforce.
    The first issue that I would ask this committee to consider is 
where funding would best be put to work when made available. Given the 
goal of this committee to provide funding to training programs best in 
the position to meet the upcoming demand, the first criteria for 
funding must be that training programs must already be well 
established. Union training programs have a long history of providing 
training to unskilled workers, and providing skills improvement as 
technology changes. Given that the demands on our industry are going to 
be sudden, the programs that will be able to respond to the needs are 
those that already know how to evaluate said needs, and those that 
already have the capacity to deliver meaningful training. In many ways, 
our record on training speaks for itself. We have graduated a countless 
number of journey workers though our program. More importantly, we work 
closely with contractors and other trades to assure that the training 
that we provide is relevant. Like many trade union training programs, 
we already have the capacity, and more importantly, we already have the 
skills needed and facilities to meet the demand. Additional funding 
will assist all of us in better preparing to meet increasing demands by 
elevating our program to manage the higher volume of those entering the 
industry. We strongly support your efforts for additional funding to 
programs that will best be able to carry out the objective of meeting 
increased demands on training needs.
    The second issue that I would ask this committee to consider is 
promotion of our Community College system as a means of carrying out 
this goal. The Community Colleges are uniquely able to provide training 
to multiple industries. Furthermore, facilities are already in place 
that could be used to address classrooms needed to provide additional 
instruction on the curriculum already in place by our programs. 
However, we would further submit that both the union training program 
and the Community Colleges be mandated to engage in partnerships with a 
view towards earmarking resources for its intended purpose. Said 
partnership relationships will accomplish two goals. First, it will 
safeguard the integrity of program dollars by narrowing the use of same 
for the dedicated purpose of construction industry training. Second, 
partnering arrangements will also serve to set goals, objectives and 
benchmarks for those who will not only benefit from the arrangement, 
but who will have a stake in the outcome. Thus, we would support the 
use of the alliances that already exist in carrying the work of this 
committee.
    Finally, the Operating Engineers believe that this committee must 
take under its wing the responsibility to assure that projects which 
will flow from the Department of Defense in the State of Hawaii, be 
released with a mandate for use of the Project Labor Agreement. If the 
goal of this committee is ultimately to assure that the projects that 
are coming to Hawaii can be completed smoothly, one component that must 
be in place is some assurance that the project will be completed on 
time and within budget. Should the ultimate procurement be released 
with this mandate, there will no doubt be a disconnect between where 
the benefit of training dollars will end up and the skilled workforce 
that will be in position to perform the work on these projects. As in 
the past, training, labor harmony, on time completion and quality work 
are just a few of the hallmark issues addressed in Project Labor 
Agreements mandated on large scale construction projects. Thus, we 
strongly ask that this committee carefully look at this, and all the 
issues discussed herein, as we move forward in commencing this journey 
together.
    Thank for your consideration and support of Hawaii's building and 
construction industry.

                                 ______
                                 
  Prepared Statement of the International Association of Heat & Frost 
            Insulators & Asbestos Workers Local 132, Hawaii

    Thank you for the opportunity of letting me share this testimony 
with this very important Senate subcommittee.
    This is a very exciting time for our membership. After years of an 
economic slowdown, I finally have good news for our members and their 
families. Finally, the construction industry is back again.
    For our union, it isn't just the projected upcoming military 
housing work. We are just as excited about the high-rise condominiums 
planned for central Honolulu and the redevelopment of Waikiki. This 
will provide scores of work opportunities for our members that have not 
been there for the past 10 years.
    Because of this anticipated work, our union has been working with 
our contractors to increase the number of apprentices going through our 
certified training program. We remain committed to providing an 
adequate supply of trained insulation mechanics with the competitive 
skills necessary to meet the industry needs now and in the future.
    Our program is structured for entry-level workers, as well as for 
insulation workers already employed within the industry who wish to 
upgrade their skills and to advance to journeyperson status. Our 
apprenticeship program emphasizes on-the-job training and classroom 
instruction, as well as the use of textbooks and other course materials 
that give participants a thorough knowledge of the trade.
    I will admit it has not been easy to attract new individuals into 
our industry. Construction is hard work, and most jobsites are not what 
one would expect. But what separates a union construction site from a 
nonunion one are many factors: Overall safety, qualified workforce, 
above-board training and fair wages and benefits. The fact is any union 
jobsite trumps the nonunion in all of these instances.
    Unlike our apprenticeship program, the nonunion Associated Builders 
and Contractors (ABC) Hawaii is like a brittle shell without an inside. 
As far as I know, since the ABC training program's inception here in 
Hawaii years ago, not one insulation mechanic has graduated from the 
program as a journeyperson. This is in direct contrast to the high 
success rate of our union's apprenticeship program, where upon 
completion, apprentices must take an examination to demonstrate their 
mastery of the knowledge and skills they've been taught. Passage of 
this test is necessary to obtain journeyperson status.
    The other big advantage our union's training program has over 
others such as the ABC is our partnership with the community college 
system and our contractors. Our classes are monitored jointly by 
management and labor to ensure that standards are met given the 
technological needs of our industry. Many of our instructors have gone 
through the apprenticeship program themselves, and are foremen or 
superintendents out in the field. Our apprentices learn on the job--
there is opportunity for them to learn because our employers are true 
partners in the program.
    What is the proof of the success of our union's apprenticeship 
program? All of the medium to large public and commercial construction 
projects in recent memory have been worked on by members of Local 132. 
It is an outstanding track record that I think everyone involved--from 
contractors and members to the community college and the state and 
federal labor departments--can be extremely proud of.
    Our union has a proud legacy of providing experienced and highly 
trained insulation mechanics to the state's construction industry. Our 
members have paid their dues and have given back to the community with 
their expertise and skills. All we are asking for is the continuation 
of these standards so that we may meet the anticipated needs of the 
work that is in front of us.
    Through your assistance, through a criteria that takes into account 
track record and commitment by each individual training program, we can 
carry on with our mission in building a Hawaii that all of its 
residents can be proud.

                                 ______
                                 
 Prepared Statement of the Bricklayers & Ceramic Tile Setters Local 1 
               and Plasterers' & Cement Masons' Local 630

    I am Nolan Moriwaki, Business Manager, speaking on behalf of 1,300 
craftworkers in the Cement Finishing, Masonry, Plastering and Ceramic 
Tile Setting Trades. We look forward to the much anticipated 
construction work from the Federal, State and private sectors. We are 
glad to hear that the large influx of funds to provide good housing for 
our military families may bring with it financial support for the 
training of needed craftworkers.
    Steps must be taken to ensure that the job gets done, but also that 
Hawaii's people receive the maximum benefit of both construction funds 
and training funds. I will outline our efforts along these lines, but 
would like to stress that anyone granted Federal training funds should 
be held accountable for their effective use. We also stress that 
training funds must not be used to throw Hawaii residents into a pool 
of cheaper and cheaper labor, and in turn lower the standard of living 
in our State.
    Our training program is prepared for accountability, to undergo 
compliance monitoring and be held to production standards when 
utilizing Federal funds. Such a system should be devised and applied to 
all training organizations. We are prepared to put our track record on 
the line from the day in 1958 when our Apprenticeship program was 
recognized by the State Department of Labor and Industrial Relations, 
through it's years of development. We are proud of our thorough 
curriculum ranging from basics to specialization and new technology for 
Journeypersons, to supervision and productivity. We prepare workers for 
national certification through the Association of the Wall and Ceilings 
Industry and the American Concrete Institute. Our Apprentices have 
always scored high in International competitions.
    We have looked ahead and expended resources to gear up for the 
increased demand for craftworkers, and any financial support will mesh 
well for a faster, larger and most effective impact. We would expect to 
provide matching funds and in-kind services that will leverage any 
Federal monies that become available. The Hawaii Masons Training 
Program operates its own training facility on Sand Island, and is 
negotiating for another site. This has proven to be of great importance 
was Community College funds and space have been stretched to their 
limits.
    In addition to providing upgrade training for our Journeypersons, 
we currently have 301 Apprentices enrolled, and in the year 2003 
elevated 120 participants through a pre-apprenticeship program. We have 
actively recruited trainees, and have an additional waiting list of 
440.
    We not only train our Hawaii residents for skill and productivity, 
but for a safe and long career in the construction industry. Every 
training program should do that. However, working safely and enjoying a 
decent standard of living depends most on terms and conditions on the 
job. Collective Bargaining Agreements or Project Labor Agreements 
covering the jobs for trained residents, would define the wages and 
conditions they will receive for their skilled labor, and therefore 
whether or not the training will make life better for our people.
    In the case of work injuries and deaths, statistics show that such 
agreements significantly reduce incidents on construction sites. As for 
wages and Hawaii's standards, training funds should not, consistent 
with the principles of the Davis-Bacon Act, serve to pull area 
standards down. In Hawaii, training for jobs covered by a Collective 
Bargaining Agreement or Project Labor Agreement is the clearest way to 
assure that our tax dollars and union investments in training do not 
work against us in the long run.
    Please consider our testimony to devise an implementation plan to 
maximize the benefits to Hawaii's people from craft training funds, and 
from military and other Federal construction projects. Thank you for 
this opportunity to submit testimony.

                                 ______
                                 
   Prepared Statement of the International Brotherhood of Electrical 
                      Workers, Local 1186, Hawaii

    On behalf of the more than 1,100 construction electricians and 125 
signatory contractors of IBEW Local 1186, I would like to thank the 
committee for this opportunity to testify on this very important issue 
of a qualified construction workforce to meet the demands of upcoming 
federal and private work in the state of Hawaii.
    Anticipating the positive need for a qualified workforce, Local 
1186 also has increased its recruitment of apprentices and training 
classes including for cable splicing and line personnel. Since taking 
office a year-and-a-half ago, our administration and training program 
has indentured more apprentices during that time than in the previous 
10 years--directly due to the anticipated work outlook and a commitment 
by our staff and signatory contractors to have the most qualified and 
readily available workforce in the state. We are constantly recruiting 
in all levels of the community--including at the schools--and our 
membership's ethnic and gender diversity is a testament to the kind of 
a program our management and labor trustees are running.
    Local 1186 has historically been at the forefront when it comes to 
apprenticeship and journeyperson upgrade training. Our training fund--
which is jointly administered by an equal number of contractor and 
union trustees--has invested in an impressive amount of independent 
facilities, classrooms and warehouse laboratory space for such classes 
as house wiring and welding. We have never hesitated to put forth the 
funding for what we believe is important and beneficial to both the 
union's membership and the employers.
    We also believe that any kind of minimum qualification to obtain 
Federal funding for these kinds of training programs should contain 
some similar form of ``investment'' on the applicant's part, whether 
up-front funding or matching funding. Whatever funding is available 
must not be thrown haphazard at a program that does not have a proven 
track record or to be used to start a program as ``seed'' money. There 
should also be some kind of compliance monitoring for whatever programs 
receive this ``taxpayer'' funding.
    Working so closely in a labor/management partnership with our 
contractors has many advantages. In fact, it is not a stretch to say 
that the training we offer is enhanced because of the input we receive 
from our management trustees and the combination of our on-the-job 
instruction and in-class schoolwork. For the record, the Joint 
Apprenticeship and Training Committee (JATC) of the Hawaii Electricians 
Training Fund requires indentured apprentices to take five years of 
related instruction and 10,000 hours of on-the-job training. During the 
term of their program--with an emphasis on safety, state licensing 
standards and certification--the apprentices will take everything from 
CPR/First Aid to Blood borne Pathogens and OSHA 500.
    The continued effort to elevate the level of awareness in safety 
and new technologies is supported in our journeyperson training as 
well. The ever-evolving electrical industry constitutes a vigilant 
effort when it comes to training. Programs such as fire alarm, 
blueprint reading, conduit bending, house wiring, transformers, Cat 5 
and fiber optics termination help to sharpen and hone the skill of the 
licensed journeyperson electrician. As an established training program 
that already offers such classes, our management/labor JATC would 
welcome any assistance from the Federal government to help us with an 
expanded need for additional equipment and basic instructional costs.
    Here are more examples of classes created through the input and 
partnership with our contractors: Specific courses such as Hazard Waste 
Operation and Emergency Response (HAZWOPER), trenching and excavation, 
fall protection, scaffold user safety, asbestos and lead awareness 
training further the knowledge of an IBEW/ECAH (Electrical Contractors 
Association of Hawaii)-trained electrician.
    The electrical industry encompasses a unique position in everyone's 
life, and it is often taken for granted until something causes a 
disruption or failure. Because of the dangerous nature of electricity 
and potential for fire, damage to property or injury or loss of life, 
the National Electrical Codes (NEC) and the Telecommunications Wiring 
Standards are the minimum guidelines that are used as a proper 
application of this dangerous craft. But even that is not enough. 
Proper training through curriculum of theory, practical experience 
through on-the-job training and continuing education and safety helps 
to raise awareness and minimize any potential catastrophe.
    Our JATC is a complete training entity. It aggressively promotes 
and trains our members with the knowledge of the NEC and serves to 
provide the electrician with the updated information necessary to 
install and construct properly the required work, as well as, providing 
the public a safe and sound environment.
    With the help of this very important committee, and by continuing 
to work effectively with the state's community colleges and state and 
federal labor agencies, we intend to maintain this proud legacy we call 
IBEW Local 1186.

                                 ______
                                 
Prepared Statement of the Boilermakers, Iron Shipbuilders Union, Local 
                                  204

    Members of the committee, I would like to thank you in advance for 
this opportunity to submit this testimony on behalf of myself and the 
members and contractors of Boilermakers, Iron Shipbuilders Union, Local 
204, Hawaii.
    This is truly an exciting time for our membership. Thanks in part 
to Congress and its decision to privatize the construction and 
maintenance of military housing in Hawaii, our trade industry is 
anticipating a dramatic and promising need for thousands of skilled 
workers in the next 10 years. In addition to the above, our contractors 
are also anticipating the construction of several much-needed sewage 
treatment facilities and energy cogeneration plants that will be built 
on Oahu during this time.
    To meet this demand for a local, qualified workforce, we have been 
actively working with our major contractors to recruit new members into 
our union and its training program. One in particular, Hawaiian 
Dredging Construction Co., has been especially helpful in this regard. 
We also have been working with our signatory contractors to upgrade our 
classroom and hands-on instruction to keep up with the constantly 
changing technology in our industry. We feel we have been very 
successful in this regard, and our commitment to increase the number of 
members coming into our program has occurred at unprecedented levels 
for this particular local because our industry had been mired in a 
slump for so long.
    One of the reasons why we felt it was important to ramp up our 
apprenticeship program is because of the positive feedback we 
constantly receive from our contractors and their employers. They 
understand that when they hire a union contractor to do the work, their 
workers--our members--are highly trained and highly qualified. We've 
been told they do the work effectively and in a lot less time as 
compared to nonunion contractors.
    This reality is contrasted by that of the nonunion ABC (Associated 
Builders and Contractors), whose training program here in Hawaii is 
documented as having an absolutely woeful graduation rate. From July 
1995, the nonunion ABC trades as a whole in Hawaii had 208 total 
registered apprentices with only 46 graduated (based on an October 2003 
study conducted by the Building and Construction Trades Department of 
the AFL-CIO).
    For an association that constantly boasts that it graduates tens of 
thousands of construction apprentices through ABC-registered programs, 
this amount of 46 total graduates in the entire state of Hawaii over a 
10-year period paints a pretty sorry picture about the state of ABC's 
training program here.
    And just where are these so-called 46 graduates? I would be willing 
to bet that they are working for our unionized contractors after 
attending much-needed journeyperson upgrade courses offered by union 
training programs.
    I've been in this business for more than 20 years now, and I 
honestly believe that the ABC does not adequately fund or is committed 
to their so-called apprenticeship program. They never have, and it is 
my belief that they never will.
    With that said, the members and contractors of Local 204 look 
forward to continue working with Honolulu Community College, the state 
Department of Labor, and Al Valles of the federal Bureau of 
Apprenticeship & Training in furthering what has been a very successful 
and necessary training partnership for our industry.

                                 ______
                                 
   Prepared Statement of the Roofers, Waterproofers & Allied Workers 
                   United Union of Roofers, Local 221

    Honorable Subcommittee Members: I am pleased to submit this 
testimony on behalf of the Roofers Union, Local 221 on the issue of 
increasing trades programs to meet the anticipated demand for skilled 
workers as a result of the military's residential privatization program 
in Hawaii, and the prospect of federal funds being made available to 
assist in the effort to enhance training programs to meet that need.
    The Roofers Union has had a State Department of Labor certified 
apprenticeship program in place for the past three decades, with more 
than a hundred apprentices enrolled in the program at Honolulu 
Community College at this time. While our Apprenticeship and Training 
Trust Fund is fully funded, any assistance through federal grants will 
surely enhance our ability to meet the anticipated increased demand for 
skilled workers in the next five years.
    Due to budget constraints, although the state subsidizes 
apprenticeship instructor costs, any expense related to journeyperson 
upgrading must now be borne totally by our Training Trust Fund. While 
we are willing and prepared to fund these additional training expenses, 
it will no doubt impact our existing resources.
    Realizing the limited funding potential from federal dollars, we 
suggest that any federal grants be restricted to state certified 
programs where requests can be made by programs with a proven record of 
successfully training and graduating skilled workers. With limited 
resources, we do not feel that funding untried or speculative training 
programs is a prudent way of managing federal dollars.
    We also feel that grant amounts should depend on the willingness of 
certified training programs to put forth additional matching funds to 
build on already successful programs, and further, that these grants be 
limited to subsidize instructor costs rather than paying for 
facilities, material or equipment, which should be the sole 
responsibility of the existing training programs.
    Finally, so as not to waste training fund and federal resources, we 
feel that Project Labor Agreements (PLA's) should be entered into by 
the developers, contractors and worker organizations involved in these 
privatized projects. This is the only way to insure that training and/
or grant money will be fully utilized for the upcoming work for which 
it was intended.
    Thank you for allowing our organization to submit testimony on the 
critical issue of enhanced skills training as it relates to the 
upcoming military residential projects.

                                 ______
                                 
 Prepared Statement of the United Association of Plumbers and Fitters 
                               Local 675

    The plumbers and fitters apprentice program maintained by PAMCAH-UA 
Local 675 Training Fund is the premier training program for apprentice 
plumbers, AC-refrigeration, steam fitter and fire sprinkler fitters bar 
none. We maintain virtually the only plumber, AC-refrigeration, steam 
fitter and fire sprinkler fitter apprentice program approved by state 
and federal labor agencies which consistently produces license and 
certified graduating journeypersons year after year.
    Our joint apprentice and training committee maintains the highest 
curriculum standards and a training facility that is dedicated to 
provide mechanical contractors throughout the state with a continuous 
supply of apprentices learning the skills of the trade and who are drug 
free. This apprentice program is needed to continue the propagation of 
quality construction in Hawaii for all to enjoy and be proud of.
    The plumbers and fitters apprentice program has relied upon the 
State of Hawaii Community College system as a co-partner to aid in the 
classroom experiences for our apprentices which provides essential 
intellectual exposure to concepts that must be learned by our 
apprentices. There is no question that the amount of information 
absorbed by the apprentice in the classroom is directly related to the 
dedication and ability of the teacher to communicate instructional 
material to the apprentice.
    In this area funding, should be provided to with the goal to 
maintain quality instructional programs and to hire qualified 
instructors. Qualified teachers will pass along important trade 
concepts that apprentices must learn before they become journeypersons.
    To efficiently use any monies that may be granted for use by bona 
fide apprentice programs, we suggest that safeguards be built into 
federal grants to allow apprenticeship programs such as the one 
maintained by PAMCAH-UA LOCAL 675 Training, some input into how the 
monies are to be spent as a partner with the Community College system 
so as to maximize integration with the plumbers and fitters apprentice 
program and other like programs. Agents appointed to run the Community 
Colleges should not have exclusivity to the funds so as to permit the 
funds to be used for activities other than for those activities that 
have a direct benefit to qualified apprentice programs.
    Monies should be spent for instructional purposes for the training 
of apprentices and journeypersons to maintain and upgrade their skills, 
through programs that have a proven record of success. Monies should 
not be spent on the support of programs who have no, or an 
insignificant, graduation track record.
    PAMCAH-UA LOCAL 675 Training is aware of the future needs for 
skilled labor on upcoming federal PLA projects to be constructed in 
Hawaii. I know that the federal government is interested in the quality 
of the skilled labor in Hawaii of which training is an integral part. 
The investment into qualified apprentice programs is most certainly not 
a waste of funds.

                                 ______
                                 
       Prepared Statement of Scott Y. Nishimoto, State of Hawaii 
                      Representative, District 21

    Good Morning Chairman and Members of the Committee: My name is 
Scott Nishimoto and I serve as State Representative for the 21st 
District of Hawaii. I am in strong support of the Native Hawaiian 
Education Act, and thank you for this opportunity to testify on its 
behalf.
    Through Senator Inouye's Joint Venture Education Forum, the State 
and private funding, Hawaii 3R's benefits Hawaii's public school 
facilities. This innovative grant program has awarded over $2.3 million 
for 72 projects--completing $5.7 million worth of projects since August 
2001, reducing the approximate $640 million repair and maintenance 
backlog to about $450 million.
    Through the commitment of Hawaii 3R's, two schools in my district, 
Kaimuki High and Jefferson Elementary, received grant monies for much 
needed repairs and maintenance. On Saturday, March 29, 2003, we painted 
various buildings and replaced several termite-ridden windows, thus 
beautifying Kaimuki High School's campus. On Saturday, July 19, 2003, 
Jefferson Elementary's playcourt was resurfaced. These projects brought 
together state agencies, businesses, community leaders, parents, 
teachers and students to tackle one unified goal--improving the 
school's facilities for our children. The collaborative efforts shown 
by community members prove that we are willing and ready to roll up our 
sleeves and tackle tough challenges. I am thankful for the hard work 
Hawaii 3R's has done to ensure the future prosperity and success of 
Jefferson Elementary and Kaimuki High and its students.
    A lot has been done, but there is still a lot to do. The impact of 
the federal dollars has been felt statewide and will continue to help 
the schools that need it most. The Native Hawaiian Education Act, if 
passed will appropriate $1 million for renovation and maintenance of 
schools with 25 percent or more Native Hawaiian students. There are 122 
schools that have the potential to receive grants from Hawaii 3R's.
    Thank you for your unwavering support of public schools through 
Hawaii 3R's. I hope that with your help, we can continue to strive to 
provide our youth with the learning environment they so deserve.

                                 ______
                                 
         Prepared Statement of the Pacific Resource Partnership

    Aloha, Chair Senator Inouye and members of the Senate 
Appropriations Subcommittee. My name is James C. Pacopac, Legislative 
Liaison, representing the Pacific Resource Partnership, a Market 
Recovery Program of the Hawaii Carpenters Union and its 250 signatory 
Union Contractors.
    As a Labor/Management organization we feel that your assistance and 
partnership is essential in building a properly trained, qualified and 
expanded workforce to meet the demand for more skilled workers to 
develop and maintain the privatized military housing and living 
facilities in Hawaii over the next 50 years.
    Our joint labor/management trust funds for apprenticeship and 
journeyman training program has been in operation for over 40 years and 
with the anticipated needed expansion for more than 7,500 new skilled 
construction workers over the next 5 to 10 years we have already 
started and developed contingencies to meet the demand of the 
privatized housing contracts.
    The Hawaii Carpenters Union has already optioned a site at Barbers 
Point to create a free-standing, training center of our own to 
supplement our certified apprenticeship programs at the community 
colleges, and to increase our capacity to train more carpenters. We 
presently have over 1,300 apprentices in our program. With more state-
approved instructors, we can upgrade our older members' skills in the 
particular carpentry specialties and technologies, such as metal 
framing which our contractors will require for the upcoming military 
housing projects.
    We have realized our responsibility to anticipate the job market, 
and will continually do our part in a sincere effort to keep these jobs 
generated by the new military housing in Hawaii.
    Our record has always spoken to the commitment and investment we 
have in our union members, our union contractors, and to the efforts of 
keeping jobs for the local workers. We thank you for any assistance 
that you can give to the men and women in construction of Hawaii, and 
look forward to a bright future. Aloha.

                                 ______
                                 
             Prepared Statement of Americas Promise Hawaii

    Honorable Chair and Members of the Committee: I have been involved 
in Hawaii 3R's since its inception. I've seen how it is able to gather 
community together around a school and get a job done. I believe 
community involvement in public schools is an essential element to 
their improvement and to the success and well being of our children. 
When kids see other people, whether they are relatives, friends or 
community members, caring about them enough to come and work on a 
weekend to fix their school it makes an impression. By example they 
learn to care about and participate in their own community.
    Not only is Hawaii 3R's a terrific community partnering exercise 
but it actually shows concrete success in the number of schools it has 
improved. Jobs that would not have been addressed due to the huge 
backlog of repair and maintenance in the DOE have been completed under 
3R's and DAGS leadership because of volunteers, donations and state and 
federal subsidies. As of February 1, 2004, 59 schools have completed 
repair and maintenance jobs. Work that would have cost the State more 
than $5.7 million was completed by 3R's for $2.3 million.
    One of the reasons for the success of this effort is the 
cooperation and good working relationship between the State Department 
of Accounting and General Services and H3R's. A great amount of trust 
and cohesive effort exists between the two groups to make sure the 
schools get repaired and improved. It is an excellent example of public 
and private partnerships working well together to benefit our citizens 
and in this case it involves them as well.
    Since many of the State's public school's enrollment includes over 
25 percent Hawaiian children use of the Native Hawaiian Education Act 
funds to support the repair and maintenance of public schools is an 
effective way to reach Native Hawaiian children.
    Not only are their learning environment's improved but their sense 
of community and opportunities for community involvement are enhanced.
    Thank you for your support of this effective community/State effort 
to improve Hawaii's public schools for all children.

                                 ______
                                 
        Prepared Statement of the Joint Venture Education Forum

    As cochair of the Joint Venture Education Forum, I would like to 
take this opportunity to provide you with information about a very 
worthy enterprise being undertaken on behalf of the public schools here 
in Hawaii. Hawaii 3R's is a winning combination of State and Federal 
funds, community organizations, businesses, local contractors and the 
``sweat equity'' of thousands of volunteers who give our schools new 
coats of paint, new landscaping, and lots of minor repairs to 
facilities that would otherwise be ignored in deference to ``higher'' 
priorities.
    The Joint Venture Education Forum (JVEF) has been a willing and 
eager supporter of this effort. We contributed $100K in fiscal year 
2001, $600K in fiscal year 2002 and $1M for fiscal year 2003 and 2004. 
Through the JVEF, we have also encouraged our 140+ military-school 
partnerships to sponsor H3R's projects for their schools. In the most 
spectacular example, nearly 200 volunteers (most from the military 
community) showed up to spruce up Pearl Harbor Kai Elementary School on 
August 10, 2002.
    The JVEF enthusiastically backs H3R's because it has a proven track 
record and gets our military involved with the local community. 
Moreover, H3R's gives everyone a sense of pride in the schools that our 
children attend. It is clearly ``the right thing to do.''
    Thank you for this opportunity to present this testimony to you.

                                 ______
                                 
Prepared Statement of the Drywall Tapers and Finishers Local 1944, AFL-
                                  CIO

    I would like to thank Senator Inouye, Chairman, and the U.S. Senate 
Appropriations Subcommittee on Labor, Health and Human Services, and 
Education for giving me this opportunity to offer our insight as to 
what organized labor in Hawaii is doing to meet the upcoming demand for 
qualified trades people for the privatization of military family 
housing.
    Mr. Chairman, my name if Joseph Bazemore and I am the Business 
Representative for the Drywall Tapers and Finishers Local Union 1944, 
AFL-CIO. I have been acting in this capacity for well over twenty years 
and feel that I am able to speak candidly and with a wealth of 
knowledge regarding our labor situation.
    It is our belief that we are well prepared for the upcoming labor 
demand which is being brought on by the privatization of military 
family housing. In anticipation of this demand, we have been in close 
contact with our unionized contractors who have already performed 
military family housing projects in the State of Hawaii. We have asked 
them to provide their input into anticipated labor demands and we have 
also participated in Congressman Abercrombie's recent labor summit. 
Accordingly and with knowledge of past years fresh in our minds, we 
have begun an aggressive campaign to not only bring new apprentices 
into our training programs, but also to bring back Journeyworkers who 
have previously left the industry due to slow economic times.
    To deal with this influx of new apprentices as well as the 
journeyperson retraining that will be required of all workers who have 
previously left the program, our training funds have already 
appropriated additional moneys for this endeavor. Mr. Chairman, we 
greatly appreciate being given this opportunity to provide input as 
well as the potential to have some of our training dollars be stretched 
even further by the possibility of federal matching funds.
    If such federal funding does come to fruition, it is our hope that 
such dollars will be utilized to enhance current qualified training 
programs. It is our belief that qualified training programs who have a 
proven track record, could be granted matching funds for their efforts 
at increasing their pool of qualified working men and women. We have 
already shown our commitment to this effort by ramping up our training 
programs and we would like to respectfully note that we have done so 
with no guarantee of actually gaining a great majority of this 
anticipated work.
    Additionally, such matching funds should be solely earmarked for 
``instructional costs'', such as instructor wages and materials needed 
for training. These moneys should not go to any organization for the 
purpose of acquiring or improving training facilities. We believe that 
the current infrastructure of qualified training programs should be 
utilized to its fullest and that all of the earmarked grants should go 
to where its use will be maximized.
    Thank you very much for giving us this opportunity to testify on 
this extremely important subject.

                                 ______
                                 
  Prepared Statement of the Carpet Linoleum and Soft Tile Local 1926, 
                                AFL-CIO

    Mahalo Senator Inouye, Chairman, and the U.S. Senate Appropriations 
Subcommittee on Labor, Health and Human Services, and Education for 
giving me this opportunity to testify in behalf of the working men and 
women of the state of Hawaii, as we deal for the upcoming privatization 
of military family housing.
    Senator Inouye, my name if Malcolm Ahlo and I am the Business 
Representative for the Carpet Linoleum and Soft Tile Local Union 1926, 
AFL-CIO. I have been acting in this capacity for well over twenty-five 
years and feel that I am able to give you an accurate assessment 
regarding the anticipated labor demand due the privatization of 
military family housing.
    In anticipation of this demand, we have begun to aggressively 
recruit new members into our training program. Our relationship with 
the community college has spanned decades and we are proud of the 
hundreds of Journeyworkers that our program has graduated over the 
years. As you are aware, our training program is strictly regulated by 
the State of Hawaii and our Apprenticeship and Training Program has a 
proven track record of success.
    Additionally and to deal with this influx of new apprentices, 
journeyperson retraining will be required of all workers who have 
previously left the program. Our training funds have already 
appropriated additional moneys for this endeavor. Mr. Chairman, we 
greatly appreciate being given this opportunity to provide input on 
this exciting new program, as it is our hope to have some of our 
training dollars be stretched even further by the possibility of 
federal matching funds.
    If such federal funding does come to fruition, it is our hope that 
such dollars will be utilized to enhance current qualified training 
programs. It is our belief that qualified training programs who have a 
proven track record, could be granted matching funds for their efforts 
at increasing their pool of qualified working men and women. We have 
already shown our commitment to this effort by ramping up our training 
programs and we would like to respectfully note that we have done so 
with no guarantee of actually gaining a great majority of this 
anticipated work.
    Additionally, such matching funds should be solely earmarked for 
``instructional costs,'' such as instructor wages and materials needed 
for training. These moneys should not go to any organization for the 
purpose of acquiring or improving training facilities. We believe that 
the current infrastructure of qualified training programs should be 
utilized to its fullest and that all of the earmarked grants should go 
to where its use will be maximized.
    Once again, Mr. Chairman, Mahalo for giving us this opportunity to 
testify on this extremely important subject.

                                 ______
                                 
                    Prepared Statement of CRTC, Inc.

    I am a retired general foreman from Pearl Harbor Naval Shipyard and 
current President and Training Director of CRTC, Inc. a vocational 
specialty school dedicated in the training of crane operators and 
riggers in the field of maritime and construction industry.
    Presently focusing on skill building and formal training of new 
workers to meet current federal regulations, state laws, and OSHA/ANSI/
AMSE standards. To support the up coming events in both industries and 
lost of experience through retirement.
    It is well known that approx. 50 percent of the weight handling and 
lifting maritime industry will be up for retirement by 2005. Also, the 
shift in work to the private sector of all non-nuclear work that 
require a highly specialize skill that need the training we provide. As 
of may 2004 navy crane center will not do any more hands on training. 
All training will have to be from outside sources, which we at CRTC are 
qualified and approved for.
    The construction industry should be in the same situation when it 
comes to retirement lost of skills. Also, the state requires the crane 
operators to have a certificate to operate. They must be trained and 
certified through the NCCCO program that we provide.
    This new certificate the operators is facing today is like the CDL 
of old. Which means operators, many of them, still need to do it. Some 
are using the two-year temporary certificate others are just playing 
the odds till they get caught then they come to class. Some just feel 
they won't pass and operate anyway and just don't care.
    Cost of the training has always been an issue with the industry 
even when we were with Honolulu Community College as a non-credit 
course. Turning private as a vocational specialized school our 
obligations impact the cost of the training and tuition. The law for 
the crane operator's effects everyone like the CDL but no funds for the 
student tuition has ever been allocated for crane training and 
certification.
    Riggers will be effective soon with the new 2003 national standards 
from ANSI/AMSE showing qualifications defined. OSHA is reviewing it 
with the possibility of a new regulation out by 2005. We at CRTC 
already have the approved methods form the national standards and 
instruction is on going with a class graduating by the end of March. 
Our next class starts in April 18 but it's already full because of the 
size of our facility.
    Assistance in tuition for the students would help people that want 
to take the course but can't afford it mostly people in programs that 
need help. Also, if we can get some support for facility and equipment, 
cost of the program can be reduced.
    The fact that the UH system does not want to accept the liability 
in doing this type of training is what kicked us out and moved us to 
Campbell Industrial Park. We are the only non-union training and 
certification company in Hawaii that offer training for current 
operators and entry-level students that want to become crane operators 
and riggers for construction and maritime/DOD navsea work. You need 
hands on training to do the type of work we do. We work on war ships 
that go into battle and everything around you while rigging or lifting 
equipment in or out is crucial to the ship and cannot be damaged. 
Repairs must be done effectively and error free ``0'' tolerance.
    As for crane operation, all shipyards are gauged by their 
performance in crane operations. The level of training necessary to 
accomplish this is based on classroom and hands-on lessons and skill 
building. Remember in Hawaii, the only place which makes real crane 
operator from scratch is the Local 3 operator union and Pearl Harbor 
Naval Shipyard. All of our trainers are all certified instructors by 
the Navy and nationally accredited by national commission of crane 
operators. Also our lead instructor is currently the examiner of all 
DOD crane license for Pearl Harbor and all DOD organizations in Hawaii 
and Guam.
    The training is costly. I see more and more operators come from the 
mainland, where there are a lot schools like CRTC, and take the jobs 
away from the local people. This should not be happening. The last 
three years before I retired from the shipyard we had more riggers and 
crane operators working in Pearl from the mainland then pearl workers 
because no one on the island has any qualifications. Only just 
unemployment and welfare experience. Wait, I forgot there was McDonalds 
and K-mart experience too, with a college degree in hand but no real 
skill. I was embarrassed about my shipyard, and mad with the state and 
the military talking about the quality of the gene pool and college 
education. I hope you remember that couple of years ago it was all over 
the news. This is an utmost opportunity where I hope you can make some 
real changes and help the people of Hawaii this time.
    Please give our people some support especially, the women, so they 
to can get this male-type job with the high pay to raise their family. 
I have three in my current class doing fine and will be certified soon 
they are all single parents on payment plans with us that I felt needed 
the chance and so accommodated room for them to learn. I wish I could 
help more, and with your support, I know I can.
    Thank you.

                                 ______
                                 
 Prepared Statement of Iron Workers Local 625 and Iron Workers Shopmen 
                               Local 803

    Our union Locals are glad to see that others have joined our 
ongoing concern for the training of skilled construction workers in 
Hawaii. We have an established training facility at Waipio, Ohau, and 
have graduated Apprentices and brought new technology to Journeyman 
over years of consistent performance. Given the upcoming privatized 
military housing and other Federal construction in Hawaii, Federal 
Apprenticeship and Training funds would be a welcome supplement to our 
efforts.
    These funds would be applied wisely. One general criticism of 
government training programs has been where training was funded, there 
was no resulting employment. The other is where, in all sincerity, 
government provides funds to programs that say what they intend to do, 
but lack the resources and experience to finish the job.
    To apply every Apprenticeship and Training dollar possible to 
Hawaii residents, any program seeking funds should show its record of 
performance, and adequate reserves to follow its commitment through to 
completion.
    As for seeing that Federal training dollars lead to actual 
employment, Project Labor Agreements (``PLA''s) are a way to produce 
measurable results. Training is connected to jobs. Otherwise, trainees 
may not be in the industry, or not using the skills they were trained 
for. Our investment can produce direct results with a PLA.
    If the large privatized military housing consortiums would enter 
into agreements, Apprenticeship and Training would be greatly enhanced. 
Hawaii's people can come away with solid skills when the training and 
the job site are coordinated. U.S. Senators can support the process by 
bringing the parties together.
    Senatorial monitoring would encourage serious discussions, getting 
beyond cordial formalities. Where Congressional approval of privatized 
military housing contracts is required, agreements with Hawaii's 
leading construction Apprenticeship and Training organizations should 
be a major consideration. We ask for this help.
    Ironworkers Local 625 and 803, along with other Construction Trades 
Unions, would also welcome the Federal Apprenticeship and Training 
Funds especially if they were granted to the University of Hawaii 
Community College Division and ear-marked specially for Apprenticeship 
and Journeyman retraining programs.
    Thank you for this opportunity to submit testimony to this 
subcommittee. Iron Workers Locals 625 and 803 are prepared to partner 
in a program that you see fit to initiate, putting forward our training 
facility, matching funds, outreach to communities, and depth of 
experience. We suggest that these be required of any participating 
organization, and we ask your support for Project Labor Agreement so 
that the productivity of Federal funding is measurable, rather 
unknowable.

                                 ______
                                 
Prepared Statement of the John A. Burns School of Medicine, University 
                               of Hawaii

    My name is Bruce Anderson. I am the Environmental Health Program 
Director at the John A. Burns School of Medicine at the University of 
Hawaii. Prior to this, I had the privilege of serving as the Director 
of the State of Hawaii Department of Health for four years and, before 
that, as Deputy Director for Environmental Health for twelve years. The 
Department of Health is one of the State's largest agencies providing 
public health services to residents statewide with over 3,000 employees 
and a budget of approximately $600 million.
    On February 18, 2004, you heard U.H. President Evan Dobelle, Dr. 
Carl Vogel and others testify to the importance of expanding the Cancer 
Research Center of Hawaii to identify the causes of various cancers and 
finding effective cures through clinical trials. I would like to take 
this opportunity to expand on their testimony and describe the critical 
role the Cancer Research Center has played in addressing emergent 
community concerns associated with environmental health hazards in 
Hawaii. These concerns have ranged from exposure to pesticides and 
other potentially toxic substances in water to cancers (e.g., leukemia 
and breast cancer) associated with non-ionizing radiation from 
broadcasting towers. Information and data collected by the Cancer 
Research Center has also been very useful in making decisions on how 
limited prevention funds should be spent to reduce the risk of cancer 
in Hawaii.
    An example may best illustrate the way the Cancer Research Center 
has helped to address community concerns. In the 1980's, traces of a 
several pesticides used by the pineapple industry were found in public 
drinking water supplies in Central Oahu. These included DBCP, EDB, and 
TCP, which are all considered to be ``probable'' human carcinogens by 
the U.S. Environmental Protection Agency. Although the wells were 
closed immediately and treatment systems installed, residents who drank 
the water have been concerned for years that they may be at increased 
risk of cancer and other health conditions. After over twenty years, 
these concerns recently surfaced in the form of a class action lawsuit 
against landowners, pesticide manufacturers and others.
    To address the concern that residents potentially exposed may be 
experiencing an unusually high rates of various forms cancers, I 
contacted Dr. Laurence Kolonel at the Cancer Research Center and asked 
for help and advice. We decided that the best way to address the 
concern was to determine whether cancer rates were higher in this area 
than in other areas by using data in the Hawaii Tumor Registry, which 
is maintained by the Cancer Research Center. After compiling the data 
by area and adjusting for age and other factors that normally affect 
cancer rates, Dr. Kolonel found that the cancer rates in potentially 
exposed communities were in fact lower than other parts of the State. 
This information was very reassuring to residents in the area, albeit 
not what the plaintiff's attorneys wanted to hear. As these pesticides 
have been found in hundreds of water wells in California and other 
states, our findings had far reaching implications.
    In addition to addressing community concerns, I found the 
information from the Cancer Research Center was critical to making 
well-informed decisions on allocating limited cancer prevention funds 
when I was Director. Data from the Cancer Research Center has shown 
that certain groups in Hawaii are at increased risk and identied risky 
behaviors (e.g., teenage smoking). Some risks are higher in Hawaii than 
in other parts of the world because of our location (e.g., skin cancer 
from exposure to ultraviolet radiation). Further, certain ethnic groups 
(e.g., Hawaiians) have been found to be at increased risk to various 
cancers. These findings are based on research at the Cancer Research 
Center and are critical in targeting prevention funds to be most 
effective in preventing cancer.
    In summary, there are many reasons why the Cancer Research Center 
of Hawaii needs to be expanded other than to conduct research on the 
causes of cancer and to find effective cures. Data and support from the 
Cancer Research Center has and will continue to be vital and 
increasingly important in addressing community health concerns and in 
developing effective prevention programs and in making decisions with 
regard to funding these programs.
    Thank you for the opportunity to testify to your committee.

                                 ______
                                 
       Prepared Statement of the Universitiy of Hawai'i at Manoa

    Senator Inouye, Senator Akaka, distinguished members and staff of 
the Senate Subcommittee on Labor, Health and Human Services, Education, 
and Related Agencies.
    My name is Peter Englert. I am the Chancellor of the University of 
Hawai'i at Manoa. Thank you for the opportunity to provide testimony 
for federal support of our Cancer Research Center.
    The University of Hawai'i at Manoa welcomes and supports a review 
of our Cancer Center program and National Cancer Institute (NCI) 
funding proposal by a distinguished panel appointed by the NCI 
Director. We believe that an independent review of the case for federal 
funding developed by UH Cancer Center Director Carl Vogel and his world 
class team of cancer researchers, will find compelling evidence and 
justification for institutional support of the Center by the federal 
government. Furthermore, we suggest that a firm date for completion of 
the panel's work and the subsequent submittal of recommendations by the 
NCI Director to the Congress be established consonant with the federal 
2005 budget approval timeframe.
                                 ______
                                 
                      Letter From Joseph Kane, Jr.
                                                 February 25, 2004.

    Dear Senator Inouye: Mahalo Senator Inouye for taking time off your 
busy schedule to hear my testimony. My letter is in regards to a 
training facility I am attending at Campbell Industrial Park, Crane and 
Rigging and Training Consulting, Inc.
    My name is Joseph Kane Jr. I am a 29 year old, single father of 3 
children. My son Ka'ainui is 9 years old, and my twin daughters Mahi'e 
and Hilina'i are both 6 years of age. Presently I am employed by 
Wedding Emporium, a struggling company trying to survive in the 
Japanese wedding industry. I make $8.50 per hour. I am blessed to 
receive rental assistance from the City and County of Honolulu, Section 
8 program. This allows me to put a roof over my children's head and 
ease some of my financial responsibilities. My children and I are 
barely surviving if not for our faith in God!
    While watching the morning news one day, I was blessed to catch a 
segment of this training facility, CRTC, Inc. This organization offered 
an individual, with no experience to start at an entry level position 
and work his or her way up to certification status, within a year's 
time. Praying on this information I called the company to inquire about 
this opportunity. At this time I found out the tuition costs were 
between $4 thousand to $9 thousand per student, depending on what 
direction and certification one wanted to achieve. To train to be a 
certified rigger would take a student 4 months at a cost of $4 
thousand. To become a certified crane operator will take 10 months of 
training at a minimal cost of $9 thousand.
    It was at this time, I asked the CRTC, Inc. if there was a payment 
plan available that I may qualify for, but financial assistance was not 
available for me due to the costs of running the training program. I 
thank the Lord that CRTC, Inc. offered me a type of tuition assistance, 
by assisting the company with certain projects and obligations. In my 
class I am the only student that did not pay the full tuition.
    Presently I am in my second month of training to become a certified 
shipboard rigger and I love my class. We cover math, angles, weight, 
and above all safety. It is this stress on safety that makes the 
difference between a rigger and a certified rigger. The riggers that 
are currently in the construction and maritime industry receive on the 
job training and are not necessarily certified. When working in a 
hazardous environment it is crucial to be trained properly so as not to 
kill yourself and the people around you! In Hawai'i certification can 
only be obtained through CRTC, Inc. or on the job training from the 
Local 3 union, which it is easier to win the lotto than get into their 
apprentice program!
    Senator Inouye is with this intent of safety for myself and others 
that I ask you humbly to assist CRTC, Inc. with avenues of financial 
assistance, so that they may continue to produce a certified workforce 
for Hawai' i's future.
            Mayo with much gratitude,
                                                   Joseph Kane, Jr.
                                 ______
                                 
       Prepared Statement of Sheet Metal Workers Union Local 293

    Members of the Subcommittee: The Hawaii construction industry 
started its' decline in 1991. The industry has had sporadic moments 
when it got busy but nothing long-term and large enough to sustain 
employment. With the prospect of several Federal Funded projects and a 
few private ventures on Oahu the construction industry can feel 
optimistic for the first time in approximately 14 years. Over this time 
we have lost members (citizens of Hawaii) to the mainland because there 
has been no work for them. Even with this downturn in the construction 
market Local 293 has maintained and will continue to maintain a very 
successful and progressive Apprenticeship, Journey worker, and 
Instructor Training programs. Local 293 is committed to these programs 
as they provided for the State of Hawaii the most qualified and 
productive Sheet Metal Workers. When graduated from our Apprenticeship 
program our members are qualified to work anywhere in the United 
States. The proven success of our program shows when we have 
apprentices compete in work and classroom related contests on a 
national basis. Our continued qualification into the finals of this 
competition and the amount of first place and top three finishers is 
more than almost any other Sheet Metal Local in the Country. The only 
other Sheet Metal training program in Hawaii has produced zero 
graduates in the last four years and may have never produced any 
graduates from their program.
    Our Training program has an excellent working relationship with the 
Community College System. This Partnership we envoy has allowed us to 
produce the highly skilled workers we have. If monies are made 
available for training and advanced training of the work force it 
should be used to enhance existing proven and successful programs. Not 
for start up programs because when they finally get up and running and 
are possibly able to produce a graduate the need for a large number of 
new workers will be over. The increased workforce required in the State 
of Hawaii is largely for the next five years. After this time the 
amount of work will diminish. By funding the current successful 
programs the Unions have the ability to look at man power needs now and 
in the future and can control things so that there is not an excess of 
workers causing a strain on the States economy, as for Unemployment, 
Welfare, Etc.
    The support of members of this committee for Project Labor 
Agreements (PLA) is greatly appreciated. It is obvious that there is an 
understanding of the value of such an agreement. PLA's have a proven 
track record of producing quality projects, completed on time and 
within budget. A Project Labor Agreement will not hinder any 
contractors ability to perform the work required, and in fact has 
measures included to eliminate work related issues. This type of 
agreement will not only stabilize the projects in items related to 
cost, but will maintain a respectable standard of living for Hawaii's 
citizens and not produce a race to the bottom for wages which 
undermines the ability of workers to provide a living for themselves 
and their families.
    All of our training programs stress the need for and provide 
education for drug free and safe work and workers. We believe in the 
need for this and do not have to invent new programs to provide drug 
free and safe work.
    These items mentioned above and many others are being dealt with 
currently, by this and all of the other Labor Unions in Hawaii, as we 
all understand the need to have people (citizens of Hawaii) ready to go 
as the work materializes. We are moving forward on our own, even with 
no real solid commitment, that Hawaii people and contractors will be 
utilized. Statements that it is the developers intent to use Hawaii 
firms and people does not guarantee it. We need and will be prepared to 
provide qualified workers for the projected future demands.
    I thank you for your consideration on these matters and for your 
support of the Hawaii Construction Industry.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                         CONCLUSION OF HEARING

    Senator Inouye. With that, thanks to all of you. We're 
going to go back, and we have received our marching orders, and 
the least we can do is try to deliver. We're pretty good in 
delivering.
    Thank you all very much for being here. That concludes our 
hearing.
    [Whereupon, at 12:20 p.m., Wednesday, February 18, 2004, 
the hearing was concluded, and the subcommittee was recessed, 
to reconvene subject to the call of the Chair.]


</pre></body></html>
